<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 20, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Domenici, Bond, Inouye, 
Leahy, Dorgan, Durbin, and Mikulski.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF LIEUTENANT GENERAL H STEVEN BLUM, UNITED 
            STATES ARMY, CHIEF, NATIONAL GUARD BUREAU

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much. We are pleased to 
have the opportunity to be with you this morning. We have just 
had the privilege of meeting them and having a photograph with 
them, but let me introduce to all who are here, and will you 
please stand when I call your name: First Lieutenant Reginald 
Brownlee of the Mississippi Army National Guard; Sergeant First 
Class Tara Niles, Illinois Army National Guard; Michelle 
Nelson, who is the spouse of Captain Mark Nelson, who is 
currently deployed with the Third Battalion of the 116th 
Infantry in Afghanistan, who is working with us on family 
affairs; Staff Sergeant Benjamin Moore of the Texas Air 
National Guard; and Staff Sergeant Charles Post of the Vermont 
Air National Guard.
    Thank you very much for being with us and thank you for 
your service. We all are delighted to have you here this 
morning. Thank you very much.
    This morning we are going to review the National Guard and 
Reserve programs. We have two panels scheduled. First we will 
hear from the National Guard leadership and then from the 
leaders of the four Reserve forces. I want to tell you all that 
we are in session now and we are going on the supplemental 
bill. We do not know when--we know the first hour we will not 
have amendments, but right after that we will start amendments 
and probably voting fairly early this morning.
    Our first panel consists of: Lieutenant General Steven 
Blum, Chief of the National Guard Bureau; Lieutenant General 
Roger Schultz, Director of the Army National Guard; Lieutenant 
General Daniel James, Director of the Air National Guard. We 
welcome you all this morning and thank you for what you have 
done in working with us.
    We want to acknowledge, General Schultz, this is your final 
appearance, as we understand it, before the subcommittee. I am 
told you are retiring after 42 years of service. I have told 
others, my first father-in-law told me: Only in the English 
language does the word ``retire'' mean other than go to bed. So 
do not retire, General; just go to another job, okay. We thank 
you very much for your dedication and leadership and for your 
future endeavors.
    I have a substantial introduction here, but I think I will 
yield to our co-chairman and see if he has remarks.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Well, I would like to join you in welcoming 
our witnesses this morning. We have entered a new era in our 
Nation's military history. Your forces are spread around the 
globe and serving here at home by the thousands. Never before 
in our history has the Nation demanded so much from our Reserve 
component in a period where we are not at world war.
    By all accounts, your forces have responded magnificently. 
The integration of Reserve forces by combatant commanders in 
Afghanistan and Iraq has been seamless and the bravery 
displayed by your members has been most impressive. All of you 
here today, especially those young men and ladies, should be 
congratulated for the jobs you have done in preparing the men 
and women under your command for the challenges that they have 
met and continue to meet every day.
    I believe every Member of the Senate would concur in 
offering you and those who serve the utmost thanks.

                           PREPARED STATEMENT

    Mr. Chairman, I have, as you have indicated, a rather 
lengthy opening statement, but I just want to say that we are 
very proud of the officers and men of the Reserves components.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I want to join you in welcoming our witnesses 
today. Gentlemen we have entered a new era in our Nation's 
military history. Your forces are spread around the globe and 
serving here at home by the thousands. Never before in our 
history has the Nation demanded so much from our Reserve 
component in a period where we were not in a world war.
    By all accounts your forces have responded magnificently. 
The integration of Reserve forces by combatant commanders in 
Afghanistan and Iraq has been seamless. The bravery displayed 
by your members has been most impressive.
    All of you here today are to be congratulated for the jobs 
you have done in preparing the men and women under your command 
for the challenges that they have met and continue to meet 
every day. I believe every Member of the Senate would concur in 
offering you and those who serve with you our utmost thanks.
    But as I say this, I know that the challenges facing our 
Reserve component are many and growing.
    We know that many of you are facing recruiting 
difficulties.
    We are aware of rising concerns that our returning 
reservists may be hard to retain in your units.
    We know that shortfalls of equipment are likely to exist 
for those units when they return from service overseas.
    We understand that some Reserve units that have been called 
to deploy overseas more than once since 9/11.
    We know the stress and strain that our reservists, their 
families, and employers are experiencing from this 
unprecedented level of utilization.
    So today gentlemen, we are here to hear your concerns and 
your proposals to right some of these problems that we see 
today and can expect in the future.
    This is your opportunity to enlighten us on your challenges 
and your ideas. I very much look forward to your testimony 
today. Mr. Chairman, thank you the opportunity to hear from 
these much admired leaders.

    Senator Stevens. Let me recognize the chairman of the full 
committee, Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I am 
pleased to join you and Senator Inouye this morning in 
welcoming our witnesses and thanking them and all who they 
represent for their great service to our country in this time 
of serious need. We appreciate the service of those who have 
been deployed to the theaters in Afghanistan and Iraq and 
elsewhere around the world. They are achieving great success in 
helping create a pathway to freedom and democracy and a world 
that will be free from terror for generations to come, and we 
appreciate that commitment very much.
    I am glad to see Lieutenant Brownlee from Mississippi among 
the group that you introduced at the beginning of the hearing. 
We are proud of him, as we are all of those who are serving 
from all of our States.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Mr. Chairman.
    Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, I will ask some questions 
following the statements, but I did want to add to the comments 
of the Senator from Mississippi. I think we have called on the 
National Guard and Reserve for an unprecedented commitment 
recently. They have performed in a spectacular way. I am very 
proud of the men and women of the National Guard.
    General Schultz, thank you for your service. We wish you 
well in your retirement.
    Senator Stevens. Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman. I too 
look forward to hearing the testimony of our outstanding 
witnesses. Like my colleagues, I just want to express my 
gratitude for the National Guard, truly the citizen soldiers 
who, serving in Iraq, Afghanistan, have served nobly, but are 
also right now in my home State of Maryland ready to do 
whatever our Governor demands that they need to do, either in 
support of national responsibilities or our State. Of course, 
with General Blum, he is a Maryland guy. We have been together 
for some time and we are so very proud of his leadership here, 
and of course General Tuxell of our Maryland National Guard.
    Senator Stevens. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Well, thank you, Mr. Chairman. I too am glad 
to see they are here. I have worked with General Schultz and 
General Blum and General James. They know Vermont and the 
Vermont Guard. We are very proud of them. I am also glad we 
have a Vermonter, Sergeant Post, sitting in the front row.
    General Schultz, I am going to miss you, but you can leave 
your office with the flags flying proudly for what you have 
done. I will continue to work with you.
    Mr. Chairman, Senator Bond and I are the co-chairs of the 
National Guard Caucus and we have worked very hard with these 
gentlemen. I think all of us on the subcommittee are fortunate.
    I know with more than one-third of our Vermont Guard 
mobilized, I am glad that we have leadership like you. Thank 
you.
    Senator Stevens. Thank you very much.
    As I met those young people, my mind went back to the time 
when Senator Stennis was chairman of this committee and he 
asked Senator Hollings and me to go to Europe to find out about 
the morale of our people there. That was in the early 70s and 
we were at war in Vietnam. We were drafting a great many young 
people and an enormous number of them were in Europe, 
unaccompanied tours.
    We went over there and found that many of them were married 
and their wives had followed them and they were living in third 
and fourth floor what we called cold water flats, but the 
morale was terrible.
    Now we see the great advantage of relying on Americans to 
volunteer. This force that you all command, totally volunteers. 
That makes us doubly proud of them because they have signed up 
to defend our country. So we are honored to have these young 
folks with us this morning.
    General Schultz, you are first, I believe, in presentation. 
May we call upon you--or was it you, General Blum? Who goes 
first?
    General Blum. Whichever, Mr. Chairman. We will go in 
whatever order you would like.
    Senator Stevens. No, no. You wear the stars; you tell me 
which is going first.
    General Blum. I will go ahead and start.
    Senator Stevens. Thank you very much. General Blum.
    General Blum. Mr. Chairman, members of the subcommittee: 
Thank you for inviting us today to speak before you, and we 
anxiously will await questions at the conclusion. We would ask 
that our formal statements be entered in the record.
    As you all have stated, and I am so glad that you are 
aware, we are a Nation at war and your National Guard is in 
this war shoulder to shoulder with the active component. As 
each and every one of you know, you have combat brigades from 
Mississippi, Hawaii, just off of this committee, and every 
single member here has soldiers that I have just seen since 
Easter in Iraq, doing magnificently well, performing in an 
exemplary manner in a combat zone.
    As a matter of fact, over one-half, over one-half, of the 
Army's combat power in Iraq today is Army National Guard, 
citizen soldiers from eight brigade combat teams. Eight brigade 
combat teams are on the ground in Iraq and one of the division 
headquarters from the National Guard, the 42nd Rainbow 
Division, is in Iraq today. So they are shouldering over one-
half of the load and they are doing exceedingly well.
    The National Guard, as you might imagine, has had to 
transform from what used to be a strategic reserve to an 
operational force that can deliver these kinds of numbers to 
the Air Force and the Army and to the combatant commanders 
overseas. As Senator Mikulski noted, they are not only in Iraq 
and Afghanistan; they are in Kosovo and Bosnia and the Sinai 
and Guantanamo and, as a matter of fact, 44 other nations as of 
this morning.
    The National Guard is rebalancing to ensure that the 
Governors and the President has the National Guard that either 
the Governor needs day to day in the homes, in the States and 
the territories, or the President needs to be a Federal reserve 
of the Army or the Air Force and provide forces and 
capabilities to the combatant commanders.
    The Air Guard continues to be involved in what the Air 
Force labels as the future total force and trying to determine 
what the Air Force of the future will look like in the next 20 
years.
    Let there be no mistake, our first and primary mission is 
homeland defense. You cannot be the National Guard and not be 
concerned with, not be concerned about defending the homeland. 
It has to be mission one for us, but it is not the only thing 
we do and it is not the mission that we have to perform at the 
exclusion of being able to be a Federal reserve of the Army or 
the Air Force.
    The Guard supports emergency response managers in every 
State and territory in this Nation. We have committed to the 
Governors that we will never have less than one-half of the 
capability available to the Governor in that State or territory 
to do the protection of the citizens of those States and 
territories, either from terrorist acts or the ravages of 
Mother Nature that routinely come through our States and 
territories.
    However, while the Air Force and the Army and the 
Department of Defense are keenly interested in ensuring that we 
have the equipment for the overseas war fight, we need to also 
make sure that they remain as keenly interested in providing us 
the equipment that we need so that we can retain these soldiers 
that come back from Afghanistan and Iraq, the most experienced 
force we have ever had, come back and have the equipment to 
train on for the next time they are needed, and to have the 
capability to deliver to the Governor; if something untoward 
should occur in a State or a territory, they would have the 
right capabilities with the right equipment.
    So I would ask your attention and your assistance in 
ensuring that the reset or the reequipping of the Army National 
Guard and the Air National Guard after they come out of the 
combat zone to replace the equipment that was either asked to 
be left in theater, rightfully so, or worn out through fair 
wear and tear in very harsh conditions, or battle damaged, is 
restored so that when they come home we have more than just 
people coming home, we have capabilities coming back home to 
the National Guard that can be called upon, maybe even this 
evening if necessary.
    Since October 2003, every single State has established a 
standing joint force headquarters, which is absolutely right 
when you are talking about how you are going to defend the 
homeland. This enables each Governor and each adjutant general 
of every State and territory the ability to leverage the joint 
capabilities of its Army and its Air National Guard, as well as 
the other Department of Defense assets that may be located in 
that State or territory and, beyond the military, it also 
allows them to have the relationships and exercise the 
capabilities with the inter-agencies that exist and the 
intergovernmental partners that will be so important in the 
defense of our homeland.
    We have established 12 regional chemical, biological, 
radiological, and nuclear high-yield explosive enhanced 
response force packages that, when they are pulled together, 
give this Nation the capability to have, not one chemical 
biological incident response force (CBIRF) capable unit, but 13 
CBIRF capable units. They are trained and equipped by the U.S. 
Marine Corps CBIRF and the First and Fifth United States Armies 
have certified their fitness and their readiness to respond to 
weapons of mass destruction effects or any other things that 
might require their special skills.
    As you all know, recruiting has been a special challenge 
for the National Guard. This should not be a surprise to 
anyone. We were resourced, we had policies. We are a recruited 
force. But that was all set up for a National Guard that was a 
strategic reserve. So we have been scrambling along with the 
Congress in the last year and a half to make sure that we had 
the authorities and the resources we need to actually compete 
head to head in an environment where we have to be an 
operational force.
    I want to thank this subcommittee and the other Members of 
Congress for the authorities that you have extended us, the 
reasonable changes that have been made, and the ample resources 
that you have provided us. We are not yet out of the woods, but 
we are starting on the road to recovery. We had a very good 
recruiting month in the month of March. It looks like we are 
going to have another good recruiting month in the month of 
April.
    This would not have been possible if you had not given us 
those authorities and not given us the resources that we needed 
in terms of enlistment and reenlistment bonuses. There is one 
bonus floating out there I would ask you to look very hard at, 
and that is a bonus that is an affiliation bonus that allows 
someone from active duty to transition directly into the 
National Guard without having to be discharged and processed 
from active duty and then re-processed and spend taxpayers' 
money, several thousands of dollars, to bring them back into 
the system.
    I think if we were to offer a $15,000 bonus we would have 
something that provides us the bridge for a seamless transition 
from active duty to the National Guard and it would help us 
immeasurably in recovering our recruiting force from prior 
service, our most experienced recruits and the ones that are 
most valuable to us, because they are already trained. The 
training has already been paid for and they are proven 
performers.
    We have increased our enlistment and reenlistment bonuses. 
We have added 1,400 new recruiters. Thank you for allowing that 
to happen, and that is starting to make a significant 
difference in the production rates that we are experiencing in 
our recruiting force.
    Our Army National Guard units are not resources for high 
levels of readiness that today's environment demands. We had a 
full-time recruiting ramp--I mean a full-time force ramp, that 
probably was acceptable when we were a strategic reserve 
because it did assume some risk. It was not fully resourced at 
100 percent, but when you use it as an operational force I 
think it is time to relook at the full-time manning ramp for 
the National Guard because we cannot take risks. When the 
President calls us or the Governors call us to do the type of 
work they are asking for today, we cannot fail and we need that 
full-time manning to ensure the equipment and the training and 
the personnel are ready and available when needed. So I would 
please ask this subcommittee to look hard at that.
    Your Air National Guard is undergoing dramatic change and 
General James will talk about that in more detail in a few 
moments. The total force will provide a balanced force with 
proportional capabilities, but what concerns me, and I will say 
it outright, is that I am not certain that the Department of 
the Air Force and the Air Staff that is putting together this 
program really understands the essential element of a 
community-based Air National Guard.
    If you lose a community base, I think we will lose 
something very, very valuable to this Nation that we will not 
be able to reestablish in a time of need. I would ask that as 
this future total force comes together that we consider the 
goodness of community basing in that program.

                          PREPARED STATEMENTS

    In closing, I would tell you that the Guard is undergoing 
change at an unprecedented rate, we are operating as a joint 
entity, and we are proud to serve as America's 21st century 
Minutemen and women, always ready, always there, and we 
anxiously await your questions. Thank you.
    [The statements follow:]

                              IN MEMORIAM

    A Special Dedication to the men and women of the Army and the Air 
National Guard who made the ultimate sacrifice while serving the United 
States of America.

     AMERICA'S 21ST CENTURY MINUTEMEN--ALWAYS READY, ALWAYS THERE!

    National Guard Soldiers and Airmen lost during the attacks on 9/11, 
Operation Noble Eagle, Operation Enduring Freedom and Operation Iraqi 
Freedom as of March 11th, 2005.
SGT Leonard Wade Adams, NC
PVT Algernon Adams, SC
SPC Segun F. Akintade, NY
SPC Michael Andrade, RI
SPC Azhar Ali, NY
SGT Christopher James Babin, LA
SSG Nathan J. Bailey, TN
SPC Ronald W. Baker, AR
SGT Sherwood R. Baker, PA
1LT Gerald Baptiste, NY
SGT Michael C. Barkey, OH
1LT Christopher W. Barnett, LA
SGT Michael Barry, KS
SPC Todd M. Bates, OH
SPC Alan Bean Jr., VT
SGT Bobby E. Beasley, WV
CPL Joseph Otto Behnke, NY
SGT Aubrey D. Bell, AL
SPC Bradley John Bergeron, LA
SSG Harold D. Best, NC
SGT Dennis J. Boles, FL
SFC Craig A. Boling, IN
COL Canfield ``Bud'' Boone, IN
PFC Samuel R. Bowen, OH
SGT Larry Bowman, NY
SSG Hesley Box, Jr., AR
SSG Stacey C. Brandon, AR
SPC Kyle A. Brinlee, OK
SSG Cory W. Brooks, SD
SPC Philip D. Brown, ND
PFC Nathan P. Brown, NY
PFC Paul J. Bueche, AL
SPC Jimmy Dale Buie, AR
SPC Alan J. Burgess, NH
SGT Charles T. Caldwell, RI
SSG Joseph Camara, MA
SPC Jocelyn L. Carrasquillo, NC
SGT Frank T. Carvill, NJ
CAPT Christopher S. Cash, NC
SPC Jessica L. Cawvey, IL
SPC James A. Chance III, MS
SSG William D. Chaney, IL
SSG Craig W. Cherry, VA
SPC Don A. Clary, KS
MSG Herbert R. Claunch, AL
SPC Brian Clemens, IN
SGT Russell L. Collier, AR
SFC Kurt Joseph Comeaux, LA
SFC Sean M. Cooley, MS
SGT Alex J. Cox, TX
SPC Carl F Curran, PA
SPC Daryl Anthony Davis, FL
SPC Raphael S. Davis, MS
SSG David Fredrick Day, MN
SGT Felix M. Del Greco, CT
SPC Daryl T. Dent, DC
SPC Daniel A. Desens, NC
SPC Ryan E. Doltz, NJ
SPC Thomas John Dostie, ME
SPC Christopher M. Duffy, NJ
SGT Christian Philip Engeldrum, NY
SPC Michael Scott Evans II, LA
SGT Justin L. Eyerly, OR
SPC Huey P. Long Fassbender, LA
CPT Arthur L. Felder, AR
SPC Jon P. Fettig, ND
SGT Damien Thai Ficek, WA
SGT Jeremy J. Fischer, NE
SPC David Michael Fisher, NY
SGT Paul F. Fisher, IA
SPC Craig S. Frank, MI
SSG Bobby C. Franklin, GA
SSG Jacob Frazier, IL
SPC Armand L. Frickey, LA
SGT Seth Kristian Garceau, IA
SPC Tomas Garces, TX
SGT Landis W. Garrison, IL
SGT Christopher Geiger, PA
SPC Christopher D. Gelineau, ME
2LT Richard Brian Gienau, IL
SPC Richard A. Goward, MI
SGT Jamie A. Gray, VT
1LT Robert L. Henderson II, KY
SSG Kenneth Hendrickson, ND
SPC James J. Holmes, MN
SPC Jeremiah J. Holmes, ME
SGT Jessica Marie Housby, IL
SPC Robert William Hoyt, CT
SSG Henry E. Irizarry, NY
SPC Benjamin W. Isenberg, OR
SPC William Jeffries, IN
SPC David W. Johnson, OR
SFC Michael Dean Jones, ME
SPC Alain Louis Kamolvathin, NJ
SPC Mark J. Kasecky, PA
SPC James C. Kearney, IA
PFC David M. Kirchoff, IA
SGT Floyd G. Knighten Jr., LA
SPC Joshua L. Knowles, IA
SSG Lance J. Koenig, ND
CW3 Patrick W. Kordsmeier, AR
SFC William W. Labadie Jr., AR
SGT Joshua S. Ladd, MS
SPC Charles R. Lamb, IL
CW4 Patrick Daniel Leach, SC
PFC Ken W. Leisten, OR
SSG Jerome Lemon, SC
SPC Tiothy J. Lewis, VA
SGT Jesse Marvin Lhotka, MN
SPC Justin W. Linden, OR
SPC Jeremy Loveless, AL
SSG David L Loyd, TN
CPT Robert Lucero, WY
SPC Wai Phyo Lwin, NY
SSG William Francis Manuel, LA
SPC Joshua Samuel Marcum, AR
PFC Ryan A. Martin, OH
SPC Nicholas Conan Mason, VA
SPC Patrick R. McCaffrey, Sr., CA
1LT Erik S. McCrae, OR
SPC Donald R. McCune, MI
SPC Jeremy Wayne McHalffey, AR
SPC Eric S. McKinley, OR
SSG Heath A. McMillan, NY
SPC Robert Allen McNail, MS
SPC Kenneth A. Melton, MO
SPC Michael G. Mihalakis, CA
SFC Troy L. Miranda, AR
SPC Dennis B. Morgan, NB
SGT Shawna M. Morrison, IL
SPC Clifford L. Moxley, PA
SPC Warren Anthony Murphy, LA
SPC Nathan W. Nakis, OR
SPC Creig Lewis Nelson, LA
SPC Joshua M. Neusche, MO
SPC Paul Anthony Nicholas, CA
SGT William J. Normandy, VT
PFC Francis Chinomso Obaji, NY
SGT Nicholas Joseph Olivier, LA
SSG Todd Donald Olson, WI
SPC Richard P. Orengo, PR
SSG Billy Joe Orton, AR
SGT Timothy Ryndale Osbey, MS
SSG Michael C. Ottolini, CA
PFC Kristian E. Parker, LA
SGT Theodore L. Perreault, MA
SSG David S. Perry, CA
SGT Jacob Loren Pfingsten, MN
SGT Ivory L. Phipps, IL
SGT Foster Pinkston, GA
SGT Darrin K. Potter, KY
SGT Christopher S. Potts, RI
SGT Lynn Robert Poulin, SR, ME
SPC Robert Shane Pugh, MS
SPC Joseph Andrew Rahaim, MS
SPC Eric U. Ramirez, CA
SPC Christopher J. Ramsey, LA
PFC Brandon Ramsey, IL
SSG Jose Carlos Rangel, CA
SSG Johnathan Ray Reed, LA
SSG Aaron T. Reese, OH
SPC Jeremy L. Ridlen, IL
CPL John T. Rivero, FL
SSG William Terry Robbins, AR
SSG Alan Lee Rogers, UT
SFC Daniel Romero, CO
SFC Robert E. Rooney, NH
SPC David L. Roustrum, NY
SGT Roger D. Rowe, TN
SPC David Alan Ruhren, VA
CW4 William Ruth, MD
SPC Lyle Wyman Rymer II, AR
SPC Jeremiah W. Schmunk, WA
SPC Jeffrey R. Shaver, WA
SGT Kevin Sheehan, VT
1LT Andrew Carl Shields, SC
SPC Roshan ``Sean'' R. Singh, NY
SPC Aaron J. Sissel, IA
1LT Brian D. Slavenas, IL
SGT Keith Smette, ND
SGT Michael Antonio Smith, AR
CPL Darrell L. Smith, IN
CW4 Bruce A. Smith, IA
Maj Gregory Stone, ID
2LT Matthew R. Stoval, MS
SSG Michael Sutter, IL
SGT Robert Wesley Sweeney III, LA
SGT Deforest L. Talbert, WV
SFC Linda A. Tarango Griess, NE
SPC Christopher M. Taylor, AL
MSG Thomas R. Thigpen, Sr., GA
1LT Jason Gray Timmerman, MN
SGT Humberto F. Timoteo, NJ
SPC Seth Randell Trahan, LA
SPC Quoc Binh Tran, CA
2LT Andre D. Tyson, CA
PFC Daniel P. Unger, CA
PFC Wilfredo Fernando Urbina, NY
SGT Michael A. Uvanni, NY
SGT Gene Vance Jr., WV
1LT Michael W. Vega, CA
PFC Kenneth Gri Vonronn, NY
SSG Michael Scott Voss, NC
PFC Brandon J. Wadman, FL
SFC Mark C. Warren, OR
SSG David J. Weisenburg, OR
SPC Cody Lee Wentz, ND
SPC Jeffrey M. Wershow, FL
1LT Charles L. Wilkins III, OH
SPC Michael L. Williams, NY
SFC Christopher R. Willoughby, AL
SSG Clinton L. Wisdom, KS
SPC Robert A. Wise, FL
SPC Michelle M. Witmer, WI
SGT Elijah Tai Wah Wong, AZ
SGT Roy A. Wood, FL

         Prepared Statement of Lieutenant General H Steven Blum

                         CNGB EXECUTIVE SUMMARY

Overview
    The National Guard is essential and engaged in our hometowns and 
across the globe.
    As of January 1st, there are more than 109,000 Army and Air 
National Guardsmen on active duty worldwide, with another 9,700 alerted 
and awaiting mobilization, and 2,900 more serving in a Title 32 or 
State Active Duty status. Over 240,000 guard members have been 
mobilized since September 11th. Today more than 40 percent of the 
forces on the ground in Iraq are Guard and Reserve, and that proportion 
is set to grow this year.
    We conduct peacekeeping operations in Bosnia, Kosovo and the Sinai. 
We man the Avenger air defense batteries protecting our Nation's 
Capital, as well as Ground-based Mid-course Missile Defense 
interceptors in Alaska. We fly the vast majority of the air sovereignty 
missions over American cities.
    The Guard supports emergency responders and managers at local, 
state and regional levels. We respond to fires, floods, blizzards, 
tornadoes and hurricanes. We counter narco-terrorism, protect critical 
infrastructure, conduct airport and border security missions and defend 
against physical and cyber attacks on our homeland.
    We assist four combatant commanders as they engage in Theater 
Security Cooperation with our allies through our unique State 
Partnership Program, forging close bonds between our states and 
sovereign nations.
    We continue to invest in our nation's most precious resource, our 
youth, through the Starbase, About Face, Drug Demand Reduction and 
ChalleNGe programs.
    As the National Guard engages in every one of these endeavors, it 
also engages our families, employers, cities, towns and villages across 
this land--committing them to America's cause. When you call out the 
Guard, you call out America!

Support the Warfight Anytime, Anywhere
    The Army National Guard is rapidly transforming from an under-
resourced, Cold War, strategic reserve to an Operational Force ready 
for immediate employment across the full spectrum of the Global War on 
Terror.
    In the 1990s, our National Guard divisions were not even in the 
Army's war plans; today, the first Guard division headquarters to 
deploy to combat since the Korean War is on the ground in Iraq and 
commanding active duty, Guard and Reserve forces.
    We are rebalancing our forces in accordance with Army and Air Force 
requirements to ensure we have the right capabilities, in the right 
numbers, at the right places. We are converting, for example, our Cold 
War artillery into the military police, chemical, intelligence, 
surveillance and reconnaissance units we need for the current warfight. 
During the next three years, the Army National Guard will restructure 
to a Modular and Expeditionary force. No longer a ``legacy force'' or a 
strategic reserve, the Army Guard will have the same units and same 
equipment as the active Army. In order for this transformation to 
become a reality, it will require a long-term resource commitment on 
the part of Congress.
    The Air Guard continues to modernize, creating a more capable and 
versatile force that will ensure continued American dominance in air 
power for the next 20 years. Air National Guard planes carry most of 
the precision-guided munitions dropped in Iraq, the result of 
congressionally directed procurement of targeting pods that has given 
the Air Guard capabilities superior to those of many active Air Force 
units.
    The Guard's State Partnership Program provides a unique tool to 
strengthen our international alliances. This is a highly successful, 
direct military-to-military engagement program that has blossomed to 
embrace military-to-civilian and civilian-to-civilian interaction with 
48 countries around the globe. It supports the theater engagement 
efforts of the commanders of Pacific Command, European Command, Central 
Command and Southern Command, and it is in direct support of the 
National Security Strategy imperative that we deter forward in those 
four critical areas.
    More than 210 National Guardsmen and women have made the ultimate 
sacrifice in Iraq and Afghanistan, and thousands have been injured. We 
as a nation must ensure that the military medical system treats our 
wounded with the utmost care and respect. We also have a responsibility 
to Guardsmen who are so critically injured that they cannot return to 
military service or their former civilian careers. We want to ensure 
they have a smooth transition to Veterans Administration care. 
Additionally, we will do everything within our abilities to assist them 
in obtaining civilian jobs compatible with their grave injuries. The 
National Guard took the first step by creating a position in every 
state dedicated to helping all catastrophically wounded veterans--
regardless of service or component--make that transition and receive 
the benefits they are due. Wherever possible, we hire a seriously 
wounded veteran to perform this duty. We also reach out to employers 
across America to encourage them to hire our wounded heroes.
    A key aspect of the Guard's preparedness to go to war--or to 
provide service here at home--is the necessity to rearm and reequip our 
units as they return from abroad. Warfighting not only wears out 
equipment; in many cases, Guard units redeploying home are ordered to 
leave their equipment behind for follow-on forces. An Engineer company 
that returns home without bulldozers or earthmovers cannot train for 
the next deployment. It has trouble recruiting new Soldiers and is of 
diminished use to a governor in the event of an emergency. As 
operational tempo remains high across the Guard and we shift to 
becoming a no-notice or short-notice reserve, we cannot ignore the 
costs of ``resetting'' the force once it returns home. These costs, 
when added to the necessary expense of converting to modular and 
expeditionary units with equipment levels equal to those of their 
active Army counterparts, will be high--but will only increase if the 
inevitable is delayed.

Homeland Defense: Here and Abroad for over 368 Years
    Mission One for the National Guard is Homeland Defense. The 
President, the governors, Congress and the Secretary of Defense have 
clearly insisted that the Guard be fully prepared to engage in Homeland 
Defense and to support Homeland Security missions while simultaneously 
engaged in combat overseas; in fact, they insist that we be more 
accessible than we've ever been in the past. Congress further enhanced 
the Guard's domestic Homeland Defense and Security mission capability 
in the 2005 Defense Authorization Act, by amending Title 32 of the U.S. 
Code to authorize the funding of homeland defense activities by the 
National Guard, upon approval of the Secretary of Defense.
    We have committed to the governors--our state Commanders in Chief--
that the National Guard will have sufficient capabilities under their 
control to meet their needs. Those capabilities include key assets for 
command, control and immediate response--the Joint Force Headquarters, 
Civil Support Teams, rapid reaction forces, medical, aviation, 
decontamination and engineering units.
    At the state level, the Guard continues to strengthen ties with the 
Department of Homeland Security. In 23 states and territories, the 
Adjutant General serves as either the state Director of Emergency 
Management, the state Director of Homeland Security or both. The 
National Guard Bureau is also taking the lead in promoting increased 
sharing of interagency and intergovernmental intelligence. By using a 
host of communications and intelligence networks linked to each state 
Joint Forces Headquarters, we are rapidly achieving a nationwide, 
state-by-state Common Operating Picture.
    We are rebalancing forces among the states. Some of this is taking 
place across service lines; a medic is a medic, whether Army green or 
Air Force blue. The Joint National Guard Bureau will apportion medical, 
transportation, communication, police and other assets based on state 
needs--not just service-unique criteria.
    Innovative solutions to Homeland Defense and Security challenges 
led us to leverage many capabilities previously envisioned for use only 
in our federal warfighting role. A year ago, we conceptually spoke of 
leveraging these capabilities. Today, it is a reality. Every state now 
has reaction forces to rapidly respond to a governor's summons--a 
company of 125 Army or Air Guard personnel within four to eight hours; 
a battalion of 500 personnel within 24 to 36 hours.
    The Department of Defense has announced the activation of the final 
11 Civil Support Teams. As a result, every state, territory and the 
District of Columbia will have this full-time asset capable of 
deploying, detecting and advising civil authorities on managing the 
effects of a Weapons of Mass Destruction attack.
    Twelve regional Chemical, Biological, Radiological, Nuclear and 
high-yield Explosives Enhanced Response Force Packages--modeled on the 
single existing Marine Corps unit--were established and subsequently 
certified by the U.S. Marine Corps and U.S. Army. These force packages 
provide mass casualty decontamination, security and urban search and 
extraction in contaminated environment capabilities in addition to 
those of the Civil Support Team. The power of these response packages 
is that we leverage existing warfighting units in the Army and Air 
Guard by providing only modest amounts of additional equipment and 
training to create this critically needed, new capability.
    Since October 2003, every state has had a provisional standing 
Joint Force Headquarters with the capability to coordinate, synchronize 
and control all military efforts in support of the lead state, local or 
federal agency responding to a crisis. These headquarters proved 
themselves remarkably capable last year handling myriad challenges--
from responding to multiple deadly hurricanes in Florida, to 
operational control of forces for border security during Operation 
Winter Freeze, to full-scale command and control of all federal and 
state military forces during three separate National Security Special 
Events--the G-8 summit and the Democratic and Republican National 
Conventions.
    The National Security Special Event command and control construct 
was a landmark achievement. For the first time in our nation's history, 
we attained unity of command for all military forces operating in 
support of a major security event--National Guard on state active duty, 
National Guard under USC Title 32 control, Army, Navy, Air Force and 
Marine Corps Title 10 forces--all commanded by a single National Guard 
commander from a state Joint Force Headquarters, operating in a joint, 
combined, intergovernmental and interagency environment.
    Once the mission statements of the 54 state Joint Force 
Headquarters, as well as the Joint National Guard Bureau, are formally 
approved, we will begin providing our personnel with the Joint 
Professional Military Education they require to most effectively serve 
in their role as the 54 forward deployed headquarters for homeland 
defense and security. We are well within reach of our goals to improve 
the Guard's readiness to fight the Global War on Terror both at home 
and abroad and provide greater value in terms of efficiencies and 
effectiveness to the citizens of the states and of the United States.
    Ground-based Midcourse Missile Defense interceptors, manned 
entirely by full-time members of the Alaska Army National Guard, have 
achieved limited operating capability at Fort Greeley. Similarly, the 
Air Guard continues the air sovereignty mission it has been conducting 
over this nation since September 2001, employing new facilities and new 
command and control infrastructure to improve the effectiveness of this 
mission. We continue to stand watch, as we have for nearly 400 years.

Transformation for the 21st Century
    Transforming the Cold War-era mobilization process is a must in 
order to speed our shift from a strategic reserve to an operational 
force--and to increase Soldier retention.
    Last year, we promised the governors--and our Soldiers and Airmen--
a more predictable model for operational rotations. This makes it 
easier to plan for which units will be available for homeland defense 
and helps Guard members, families and employers better understand and 
prepare for their own future. We began implementing our plan this year, 
distributing the burden of deployments among states and units as 
equitably as possible. Our goal is for every Guard member to know when 
and for how long they will deploy well in advance of their deployment 
date.
    Recruiting for the Army Guard has been a challenge this past year. 
We saw remarkably high levels of retention among Soldiers and Airmen 
who deploy overseas with their units. However, prior service 
enlistments are significantly down and recruiting new Soldiers has been 
difficult. With the extensive new resources devoted by Congress, we 
hope to once again meet our goals. As a result of this congressional 
attention, we dramatically increased enlistment and reenlistment 
bonuses and added 1,400 new recruiters across the nation--an increase 
of more than 50 percent over the 2,700 recruiters we had. There remain, 
however, continued inequities between the bonuses and entitlements for 
which the Guard and Reserve are eligible and those that the active 
component receives.
    Army Guard units are not resourced for the high level of readiness 
that today's environment demands. Since 9/11, over 75 percent of our 
divisional combat battalions--among the lowest resourced Army units--
have been mobilized. Because of decades of maintaining units in 
peacetime at lower strength than authorized for wartime, nearly every 
Guard unit mobilized has required fillers. In effect, we are unable to 
mobilize a full-strength battalion without reducing the readiness of a 
second battalion.
    In order to transform to a modern operational force, we need to 
change this practice. The Army Guard needs to man its units like the 
active Army, at full wartime strength. While this means reducing the 
overall structure, the result will be fully manned units and a more 
ready and accessible National Guard.
    The number of aircraft in the Air National Guard will decrease as 
technologies increase capabilities. We will expand our medical, 
engineering, security and intelligence units through the Vanguard 
transformation program. The Air Guard also strives to increase its 
capabilities in joint operations through network-centric systems, such 
as the Enhanced Radio Location Reporting System--a means for tracking 
friendly units on the ground--and the Expeditionary Medical Support 
system--a highly mobile, integrated and multifunctional medical 
response suite that is currently in use in Iraq and is also ideal for 
rapid response here at home.
    The Guard is undergoing change at an unprecedented rate. We are 
operating as joint headquarters in the states and jointly at the 
National Guard Bureau. We are leveraging new capabilities from our 
warfighting units for Homeland Defense, adopting new missions such as 
civil support and missile defense, working with the Army to revamp the 
mobilization process and the way we man our units. We are rebalancing 
forces for both the federal and state missions--all while conducting 
the daily business of disaster response at home and peacekeeping and 
warfighting overseas. Your National Guard--the spirit of our Soldiers 
and Airmen, is indomitable!
    We are proud to serve as America's 21st Century Minutemen--always 
ready, always there!
                                 ______
                                 
       Prepared Statement of Lieutenant General Roger C. Schultz

            ``SERVING A NATION AT WAR: AT HOME AND ABROAD''

Message from the Director
    The Army National Guard is an integral and vital component of the 
United States Army. The Guard is organized, trained and resourced to 
support the President and Congress of the United States. Since 
September 11, 2001, the Army National Guard has provided trained and 
ready units across the entire nation and the globe. The Army National 
Guard commits to continued support of the Global War on Terrorism both 
at home and abroad.
    In 2004, the Army National Guard supported ongoing combat service 
in Iraq and Afghanistan, emergency service and reconstruction efforts 
in the aftermath of Florida's record number of hurricanes and enduring 
missions to the Balkans and Sinai Peninsula. The Army National Guard 
met the challenge of balancing our federal and state missions. Our 
Soldiers, families and employers deserve credit for a job well done in 
the face of strained resources.
    This Posture Statement presents an opportunity to lay out in detail 
the Army National Guard actions to ensure our nation's defense, meet 
our strategic and legislative goals and transform to meet tomorrow's 
challenges. The Chief of the National Guard Bureau established our 
fiscal year 2006 priorities to Support the Warfight, Defend the 
Homeland and Transformation for the Future.
    The Army National Guard balances its status as an integral element 
of the United States Army with its readiness to serve state governors 
and the people of our communities. Our Citizen-Soldiers represent 
thousands of communities across America. Our Soldiers bring with them 
real-world experience and provide capabilities to address both domestic 
disasters and foreign conflicts.
    The Army National Guard remains committed to transform into an 
Operational Force that continues to be capable of its dual role to 
support the Global War on Terrorism and the state governors. The Army 
National Guard's commitment to domestic and foreign affairs will remain 
at a consistent pace for the coming years. We are able to keep this 
commitment because of the continued dedication of our Soldiers, support 
from the families and the resources provided by Congress.

                 SUPPORT THE WARFIGHT ANYTIME, ANYWHERE

The Citizen-Soldier: Defending the Nation
    The Army National Guard demonstrates it is a full partner of the 
Total Army Force. The Army National Guard provided ready units in 
support of a variety of overseas missions throughout fiscal year 2004.
    The Army National Guard mobilized and deployed more than 95,000 
Soldiers to war in support of Operation Noble Eagle (America's Homeland 
Defense), Operation Enduring Freedom (Afghanistan) and Operation Iraqi 
Freedom (Iraq). The Army National Guard conducts operations ranging 
from combat to peacekeeping and force protection to national missile 
defense missions. The Army National Guard meets operational 
requirements in conjunction with training activities in 84 countries. 
The Army National Guard balances missions with continued support to 
state and local authorities during natural and manmade disasters, 
Homeland Defense and Homeland Security.
    The Army National Guard fortified its success with a long-term 
leadership role in the Balkans, supporting Peacekeeping Operations in 
Bosnia and Kosovo. Army National Guard units received assignment as 
Multi-National Force Observers in the Sinai Peninsula. The Active 
Component previously supported each of these operations. The Army 
National Guard will conduct these missions in the future.

Equipping the Force
    The Army National Guard established funding priorities based on the 
Army Chief of Staff's vision for modernizing the total force core 
competencies. These competencies include training, equipping Soldiers, 
growing capable leaders and maintaining a relevant and ready land 
power. The Army National Guard focus is to organize and equip current 
and new modularized units with the most modern equipment available. 
This modernization ensures our ability to continue support of 
deployments, homeland security and defense efforts while maintaining 
our highest war-fighting readiness. This requires the Rapid Fielding 
Initiative to equip our Soldiers with the latest force protection 
items, such as body armor with Small Arms Protective Insert Plates, 
Night Vision Devices and small weapons.

Intelligence Operations
    Army National Guard Soldiers assigned to Military Intelligence play 
a vital role in the Global War on Terrorism and National Security. The 
Army National Guard deployed these Soldiers worldwide to support 
intelligence operations at the tactical, operational and strategic 
levels. During 2004, Army National Guard Military Intelligence units 
supported combatant commanders deployed in Bosnia, Kosovo, Afghanistan, 
Iraq, Kuwait, Saudi Arabia, Jordan, Turkey, Bahrain, Qatar, Oman, 
Djibouti, Guantanamo Bay and to Continental United States locations. 
Army National Guard linguists and analysts provided capabilities for 
government agencies such as the National Security Agency, Defense 
Intelligence Agency and elements of the State, Treasury and Justice 
Departments. At all levels of operation, Soldiers participate in 
sanctioned activities including imagery intelligence, signals 
intelligence, document exploitation, counter-drug and analysis-based 
intelligence. Our Soldiers engage in intelligence activities 
concurrently with training to improve their readiness and ability to 
remain a key asset in the defense of our nation.

Information Operations
    The Army National Guard continues to provide Full Spectrum 
Information Operation Teams to support a broad range of Army missions. 
The Army National Guard Information Operations Field Support Teams 
provide tactical planning capabilities at all echelons. Army National 
Guard Brigade Combat Teams are deployed to theater with information 
operation cells that provide planning support to each level.

Innovative Readiness Training
    The Innovative Readiness Training program highlights the Citizen-
Soldier's role in support of eligible civilian organizations. By 
combining required wartime training with community support projects, 
Soldiers obtain the training they need and communities receive needed 
assistance in completing various projects. Community benefits usually 
come in the form of construction projects or medical improvements.
    More than 7,000 Soldiers and Airmen from across the United States 
and its territories participate annually in Innovative Readiness 
Training sponsored projects. Army National Guard missions include:
  --Task Force Alaska leadership of a joint, multi-year engineering 
        project to construct a 15-mile road on Annette Island, normally 
        accessible only by boat;
  --In Clarksburg, West Virginia, Army National Guard engineers 
        continue efforts to expand and improve the Benedum Airport 
        infrastructure;
  --Task Force Grizzly and Task Force Douglas improved existing road 
        networks in support of United States Border Patrol in 
        California and Arizona;
  --Rolling Thunder is a series of Oregon Army and Air National Guard 
        projects designed to enhance military skills while adding value 
        to local communities. Rolling Thunder provides a positive 
        presence in Oregon communities and promotes public awareness of 
        the Army National Guard; and
  --The South Carolina Army National Guard instituted the REEFEX 
        project. REEFEX utilizes decommissioned Army vehicles to create 
        artificial reefs in the Atlantic Ocean off the coasts of New 
        England and South Carolina.

Training the Nation's Warfighter
    The Army National Guard's unique condition of limited training 
time, limited training dollars and, in some cases, difficult access to 
training ranges, demands an increased reliance on low-cost, small-
footprint training technologies. Quick response by the Army National 
Guard to our nation's missions requires a training strategy that 
reduces post-mobilization training time. New virtual technologies and 
simulators therefore become critical tools to help Army National Guard 
maintain a ready Operational Force.
    The Bradley Fighting Vehicle is the primary weapon system of the 
United States Army Mechanized Infantry and a critical system to the 
United States Army Cavalry. The Advanced Bradley Full Crew Interactive 
Skills Trainer virtual gunnery training system is a low cost, 
deployable training system that attaches directly to the Bradley 
Fighting Vehicle and supports home station training in advance of a 
live fire event.
    The Virtual Convoy Operations Trainer provides training for combat 
convoys under realistic conditions that simulate the streets of Baghdad 
and other areas. This resource trains Soldiers to anticipate ambushes 
and other insurgent actions from all possible directions by allowing 
the crew to observe, maneuver and fire their weapons in a full, 360-
degree circumference. These systems train mobilizing Soldiers in 
tactics, techniques and procedures for convoy operations within the 
U.S. Central Command Area of Responsibility.
    The Engagement Skills Trainer 2000 simulates weapon-training 
events. This trainer provides initial and sustainment marksmanship 
training, static unit collective gunnery tactical training and rapid 
identity friend-or-foe training. Soldiers utilize this trainer 
primarily for multipurpose, multi-lane, small arms, crew-served and 
individual anti-tank training simulation. The trainer simulates day and 
night, as well as Nuclear, Biological and Chemical marksmanship and 
tactical training.
    The Laser Marksmanship Training System simulates weapons training 
events that lead to live-fire qualifications for individual and crew-
served weapons. This system is similar to the Engagement Skills Trainer 
2000, but it weighs less, is transportable, uses batteries and requires 
no fixed facilities to maintain. This system allows the Soldier to use 
personal weapons to conduct individual and sustainment marksmanship 
training using Nuclear, Biological and Chemical equipment.
    The Joint Training and Experimentation Program is a California 
National Guard training initiative. This program develops the 
technology that links the Live, Virtual and Constructive training 
environments into an architecture, which permits fully integrated 
exercises at the brigade level and below.

Information Technology
    The Army National Guard successfully increased the bandwidth and 
provided a secure data link to the Joint Force Headquarters in each of 
the 50 states, Commonwealth of Puerto Rico, two U.S. Territories and 
the District of Columbia. The Army National Guard synchronizes its 
transformation efforts with the Department of the Army. The Army 
National Guard's modern wide-area network provides improved redundancy 
and increased network security. The Army National Guard G-6 will 
continue to support the Joint Warfighter by enhancing collaboration 
among the Total Force and leveraging superior Knowledge Management 
strategies in fiscal year 2006.

          HOMELAND DEFENSE: HERE AND ABROAD FOR OVER 368 YEARS

Prepared and Ready
    The national investment in Army National Guard training and 
readiness programs continues to pay strong dividends. Congressional 
attention and support directly enables the Guard's ability to robustly 
defend the homeland and provide trained and ready units to Combatant 
Commanders waging the War on Terror and engaging enemies abroad.
    The Army and Army National Guard transformation is a process 
critical to meeting the challenges of today and the future. At the same 
time, the Army National Guard advances with proven readiness and 
training programs that are critical to our current successes and 
essential for those in the future.
    The Army National Guard prepares to transform at an unprecedented 
pace while continuing the Warfight. National and state leaders can rest 
assured the Army National Guard remains committed to the 
responsibilities of its dual role. The Army National Guard commits 
itself to continued and immediate support of local civilian authorities 
while maintaining Relevant and Ready Forces in support of the Nation.

Full-Time Support
    Fighting the Global War on Terrorism highlights the vital role 
Full-Time Support personnel serve in preparing Army National Guard 
units for a multitude of missions both at home and abroad. Full-Time 
Support is a critical component for achieving Soldier and Unit-Level 
Readiness. Full-Time Guard members are responsible for organizing, 
administering, instructing, training and recruiting new personnel. They 
maintain supplies, equipment and aircraft. Full-Time Support personnel 
are imperative to the successful transition from peace to war and have 
critical links to the integration of the Army's components. To meet 
readiness requirements, the Chief of the National Guard Bureau, in 
concert with the Adjutants General, increased Full-Time Support 
authorizations as a priority for the Army National Guard.
    While the Army National Guard made progress in recent years to 
increase Full-Time Support, obstacles remain in obtaining acceptable 
Full-Time Support levels. It is critical that Full-Time Manning 
increase in the near term to a minimum 90 percent of the total 
requirement to help ensure the highest readiness level, C1.

Training to Protect the Homeland
    The training priority for the Army National Guard is preparation of 
combat-ready Soldiers that limits lengthy post-mobilization periods. 
The requirements for missions at home and abroad direct the training 
emphasis of the Army National Guard in contemporary operating 
environments. As a result, Army National Guard units remain fully 
prepared, equipped, trained and ready to operationally deploy and 
swiftly mobilize to meet regional and territorial responsibilities.
    For a second consecutive year, the Army National Guard met or 
exceeded the Secretary of Defense's Duty Military Occupational Skill 
Qualification training goals. In fiscal year 2004, the Army National 
Guard achieved 83.08 percent qualification status. This specific 
training goal increases to 85 percent in fiscal year 2005. The Army 
National Guard added training schools to meet the needs of our Soldiers 
for operational missions at home and abroad. These efforts resulted in 
7,000 additional Soldiers now meeting deployment standards.
    In an effort to respond to the contemporary training needs of units 
and Soldiers, the Army National Guard plans to establish ``Training for 
Urban Operations'' at our facilities. We currently operate one entire 
suite and two Mobile Military Operation Urban Terrain sites. Additional 
facility construction programmed over the next five years at four 
National Guard Training Centers will better support mobilizations. A 
future construction plan targets four more sites.

Protecting Those Who Protect America
    The Army National Guard adheres to the Army's new Safety Campaign 
Plan and incorporates it into the Army National Guard's Safety and 
Occupational Health regulation. The Army National Guard will continue 
to emphasize the Defensive Driving Course in the coming years. The Army 
National Guard Safety and Occupational Health Office is a partner with 
adjacent and higher level safety organizations to identify and 
implement successful methods of combating all our safety related 
problems.

Keeping the Force Strong: Recruiting and Retention
    The Army National Guard ended fiscal year 2004 by achieving 99 
percent of our retention objectives and exceeding attrition goals. This 
accomplishment falls 7,082 Soldiers short of our End Strength goal of 
350,000 Soldiers. To meet this same End Strength goal in fiscal year 
2005, the Army National Guard's enlisted accession mission is 63,000 
Soldiers funded at a 50/50 Non-Prior Service/Prior Service ratio. The 
Active Component End Strength increase, high operational tempo and 
reduced propensity of prior service Soldiers to join the Army National 
Guard prove a challenge to our recruiting mission. The reduction in 
Active Component members transitioning into a reserve capacity requires 
the Army National Guard to increase accession of Non-Prior Service 
candidates. Funding constraints limit the Army National Guard's ability 
to maintain a presence on school campuses to attract Non-Prior Service 
candidates. As a result, we witnessed a drop in recruits from the high 
school and college graduate pool. The Army National Guard currently 
works with the Army Personnel leadership to identify funding 
requirements in the Recruiting Action Plan.
    The Army National Guard implemented retention and attrition 
programs and is developing new initiatives to minimize projected 
attrition impacts of the 12-18 month mobilization cycle. To date, 
recent operations have not significantly affected loss rates of units 
returning from deployment. Our current loss rate of Soldiers 
demobilized through December 2004 is 11.3 percent of the entire 
demobilized Soldier population since 9/11. This loss rate is well below 
our current overall Army National Guard loss rate of 18.8 percent with 
the Army National Guard goal being 18 percent losses. We remain 
cautiously optimistic that developing Army National Guard retention 
programs, initiatives and enhancements based on Unit Post Mobilization 
Survey data will preempt the kind of high loss rates resulting from the 
Operation Desert Storm/Shield era.
    The Army National Guard launched an aggressive new marketing 
campaign, ``American Soldier,'' targeting Non-Prior Service candidates. 
This comprehensive campaign reaches prospective Guardsmen through 
radio, television, college marketing, internet media, event marketing 
and point-of-sale materials, promotional items, print media and mass 
mailings. This marketing tool enables the Army National Guard to 
effectively execute its mission and recruit quality Soldiers. 
Supplemental funding identified as required in our Recruiting Action 
Plan is critical to continue ``American Soldier'' through fiscal year 
2005.
    The Army National Guard is taking several steps to ensure we 
achieve fiscal year 2005 objectives. These objectives include 
introduction of a comprehensive Recruiting and Retention Non-
commissioned Officer Sustainment Training program with internal Mobile 
Training Teams. Enhancements to the ``YOU CAN'' school programs and 
educational seminars include six new and 24 updated school 
presentations. These programs provide Army National Guard recruiters 
entry into the secondary school markets. We emphasize access to the 
secondary schools at regional and state-level educational seminars and 
work with professional educators to facilitate direct marketing of the 
Army National Guard programs. Initiatives to strengthen Commissioned 
Officer levels in fiscal year 2005 include a dedicated Officer 
Recruiting blitz. This concentrated effort involves a coordinated 
campaign amongst national, regional and state officer recruiting 
personnel. Additional support focused on Army Medical, Chaplain, 
Warrant Officer and Basic Branch recruiting complement our overall 
Officer Recruitment campaign.
    Recruiting and retaining Soldiers for the Army National Guard 
proves to be challenging during wartime. In fiscal year 2005, the Army 
National Guard increased the accession mission from 56,000 to 63,000 to 
compensate for fiscal year 2004 shortfalls. The Army National Guard 
trained 971 new recruiting and retention non-commissioned officers 
through December 2004 and will add 1,400 more in 2005. This addition 
will increase our ability to recover from current End Strength and 
accession shortfalls. The assistance outlined above, coupled with 
successful implementation of key initiatives, is imperative to 
attaining the End Strength mission.

Environmental Programs
    The Army National Guard continues implementation and full 
utilization of initiatives consistent with the new Army Strategy for 
the Environment and Installation Sustainability. Begun in fiscal year 
2002, the Training Center Sustainment Initiative reduces mission 
impacts through identification and prioritization of environmental 
vulnerabilities. Range sustainment initiatives ensure maximum 
continuous use of Army National Guard training lands for our Soldiers. 
This comprehensive, web-based tool provides sustainability analysis on 
our training lands and valuable analytical decision-making tools for 
Army National Guard leaders. The Training Center Sustainment 
Initiative, in conjunction with Environmental Management Systems 
implementation and continued Geographical Information Systems 
integration, greatly supports active stewardship of the environment.

  TRANSFORMATION FOR THE 21ST CENTURY: READY, RELIABLE, ESSENTIAL AND 
                               ACCESSIBLE

Ground-based Midcourse Defense
    Defending against ballistic missile attack is a key component of 
the National Security Strategy for Homeland Security. In the initial 
defensive operations phase, the Army National Guard will play a major 
role in this mission as the force provider for the Ground-based Missile 
Defense system. We requested a fiscal year 2005 funding increase in the 
Active Guard Reserve manpower authorization in the President's Budget 
Request to support this new role. The Ballistic Missile Defense program 
is dynamic--undergoing constant refinement and often late-breaking 
changes and decisions. The Army National Guard, as the force provider, 
may require last-minute changes in Active Guard Reserve manpower 
authorizations and related funding for missile defense decisions. 
Timely congressional support of these requests is imperative for the 
Army National Guard to provide the necessary manpower resources to the 
vital Homeland Defense mission. Soldiers serve in two statuses: (1) 
Title 32 Active Guard Reserve status performing duty consistent with 
the core functions by 10 USC 1019d)(6): organizing, administering, 
recruiting, instructing or training other members of the reserve 
components; (2) Title 10 Active Guard Reserve status performing the 
Federal Ground-based Missile Defense operational mission duties (for 
the duration of those duties). To support these manpower resources, 
Soldiers performing operational missions function in Title 10 status. 
Soldiers performing non-operational missions remain in Title 32 status.

Logistics and Equipment
    The Army National Guard continues modernization to the digital 
force with the emerging technologies that will dramatically improve 
logistical support for these systems, substantially reduce repair 
times, increase operational readiness rates and eliminate obsolete and 
unsustainable test equipment. Use of these technologies allows the Army 
National Guard to operate heavy equipment at a higher operational rate 
while reducing the overall costs for these systems.

    ----------------------------------------------------------------

     Equipment Modernization Shortfalls in the Army National Guard
    High-Mobility Multi-Purpose Wheeled Vehicles
    Single-Channel Ground and Airborne Radios
    UH-60 Helicopter
    Night Vision Devices
    Small Arms

    ----------------------------------------------------------------

    The Army National Guard currently retains a significant portion of 
the Army's maintenance infrastructure. This Cold War infrastructure is 
expensive and redundant. Under the Army's new maintenance strategy, the 
Army National Guard and other Army elements continue consolidation of 
maintenance systems. This initiative enhances the maintenance system 
and improves efficiency. Army maintenance personnel effectively 
diagnose and maintain equipment by reducing maintenance tasks to two 
levels instead of four.

Personnel Transformation
    Critical ``paperless'' Personnel Transformation innovations are 
underway within the Army National Guard. Our web-based Personnel 
Electronic Records Management System utilizes digital imagery to store 
and retrieve personnel records. This state-of-the-art technology 
provides seamless records management capability throughout the Total 
Army. The system enhances both mobilization and personnel readiness. 
With over 320,000 Soldiers deployed in over 120 countries, the 
necessity for a Total Army Records Management solution is paramount.

Aviation Transformation and Modernization
    The Army National Guard's aviation transformation supports efforts 
to transform for the future. Aviation transformation and modernization 
increases our ability to support a joint warfight while enhancing our 
responsiveness for Homeland Defense. We are reconfiguring our aviation 
units into modularized units of action and units of employment to align 
with Army plans. Reduction of the UH-1 Huey fleet to 100 aircraft 
should occur by the end of 1st Quarter fiscal year 2005. We will 
complete aircraft reallocations within the National Guard system, turn 
in aircraft legacy systems and transfer remaining aircraft from active 
component units.
    The Army National Guard provides almost half of the Army's aviation 
structure. The rate of modernization, planned quantities of most 
aircraft and current funding levels influence the ability to maintain 
combat-ready status. Aging and obsolete rotary wing assets average over 
twenty years of service life. Fixed wing assets also show signs of age. 
The Army National Guard started removing Utility C-26 aircraft from 
service and retiring utility C-12 aircraft. C-23 cargo aircraft offer 
marginal capabilities for wartime cargo movement requirements. Current 
plans provide no alternative replacement for our fixed wing assets.
    The active Army cascaded significant quantities of UH-60 Blackhawk, 
CH-47 Chinook and AH-64 Apache aircraft to the Army National Guard. 
This procurement still leaves us permanently short of adequate combat 
rotary wing systems. The Army National Guard anticipates receiving only 
174 of the required 220 AH-64 Apaches, 131 of the required 159 CH-47 
Chinooks and 662 of the required 710 UH-60 Blackhawks. Acquisition of 
AH-64 Apaches will consist of only 60 of the modernized AH-64D 
``Longbow'' model.
    Modernized aircraft require modern facilities to support them. 
Upgraded and updated facilities ensure our ability to logistically 
support modernized systems once in place. Fielding equipment (tool set, 
tool kits, test equipment and parts) necessary to support new aircraft 
failed to keep pace with transformation. We fund the majority of 
support items by diverting funds from other Army National Guard 
programs. Training demands for transitioning units cause further stress 
for already overburdened training sites. While the Army National Guard 
meets these challenges, eventually we will exceed our capacity to 
respond and adapt. We need to obtain necessary logistical support and 
infrastructure to sustain our aviation structure in accordance with 
Army readiness standards. Without increased funding, the Army National 
Guard Aviation Force risks lower readiness rates, reduced capability 
and obsolescence.

Training in ``One Army''
    Training centers support our ability to conduct performance-
oriented training under real-world conditions. The Army National Guard 
modernizes and restructures in accordance with transformation needs for 
Future Force ranges and maneuver areas that effectively meet evolving 
warfighting requirements. Ranges and training land provide live fire 
experience. We face a number of continuing challenges in sustaining 
Power Support Platforms and modernizing Army National Guard live-fire 
ranges and range operations for the Stryker Brigade Combat Team. The 
Army National Guard will consolidate range and training land investment 
documentation under the Sustainable Range Program.
    The Army National Guard achieves training excellence by leveraging 
the Distributed Learning construct. Distributed Learning improves unit 
and Soldier readiness through increasing access to training resources 
and reducing unnecessary time away from the home station. Interactive 
Multimedia Instruction courseware, Satellite programming and distance 
learning offer needed instruction for Soldiers and units. Current 
Distributed Learning addresses training priorities such as Duty 
Military Occupational Skill Qualification reclassification and other 
professional military and functional training.
    The Army National Guard engages in a full spectrum of civil-
military operations. Our Soldiers represent every state, territory and 
sector of society. Today they represent their nation serving honorably 
throughout the world. In these critical times, the Army National Guard 
must maintain readiness. A vital part of the Army's force structure, 
the Army Guard remains a community-based force committed to engage in 
overseas missions while protecting and serving our cities and towns. 
The Army National Guard has proven itself capable of carrying out its 
goals of supporting the Warfight, defending the Homeland and 
transforming into a ready, reliable, essential and accessible force for 
the 21st century.

                                 ______
                                 
       Prepared Statement of Lieutenant General Daniel James, III

                       MESSAGE FROM THE DIRECTOR

    This has been another exceptional year for the Air National Guard. 
Despite our serious obligations and missions in prosecuting the Global 
War on Terrorism, our members remained at the forefront of Homeland 
Defense abroad and at home. During fiscal year 2004, Air National Guard 
crews flew well over 50 percent of the fighter, tanker and airlift 
sorties for Operation Noble Eagle while postured for Air Sovereignty 
Alert at 16 of 17 sites; provided almost one-third of the fighter 
sorties in Operation Enduring Freedom; and provided over one-third of 
the fighter and tanker sorties for Operation Iraqi Freedom. Air 
National Guard crews also supported 75 percent of the tanker sorties 
and over 60 percent of the airlift sorties to other theaters. In 
addition, Air National Guard Expeditionary Combat Support capabilities 
support operations and exercises around the world. More than two-thirds 
of the Air National Guard force engaged in worldwide operations since 
9/11.
    Air National Guard members could not participate at these levels 
without continued support from Congress and the American people. 
Congress has worked hard to provide the support and the necessary 
resources to take care of the troops and their families, allowing the 
troops to focus on the mission. Citizen-Airmen answer the call as they 
always have and are receiving the tools to accomplish these demanding, 
dynamic missions at home and abroad. Additionally, our members' 
employers continue to step up to the plate by providing financial and 
employment security that exceeds the standards. This, too, helps our 
people focus on the mission.
    The Air National Guard will continue to perform these homeland 
defense and expeditionary missions even as our organization transforms 
to meet future requirements. Through VANGUARD, the Air National Guard's 
strategy to remain relevant, we will continue to work with Air Force 
leadership to achieve the right mix of forces across the full spectrum 
of operations. We will continue to develop organizations that create 
synergistic effects for the resources involved by adhering to the core 
values associated with unit-equipped missions, by integrating where it 
is smart or by creating other unique organizational structures. We will 
seek new missions, such as the F/A-22, Predator, missions in space and 
information operations, while modernizing systems that will increase 
mission effectiveness. We will recruit and retain the best the nation 
has to offer while developing our people into Total Force leaders. Our 
success will require the focused effort of all stakeholders to ensure 
the necessary capabilities will be available for Hometown America while 
leveraging the community experience of our members. While we face these 
challenges together, community, state and national leaders can be sure 
the Air National Guard will remain Ready, Reliable, Relevant . . . 
Needed now and in the future!

                 SUPPORT THE WARFIGHT ANYTIME, ANYWHERE

Total Force Partner in the Expeditionary Air and Space Force
    The Air National Guard has been and will continue integrating into 
the Air and Space Expeditionary Force employment concept. Since its 
inception, Air National Guard men and women in aviation and support 
packages routinely rotated to support exercises and real-world 
operations around the globe. As the Air Force adjusts this concept to 
meet current and future requirements, the Air National Guard adjusts as 
well to maintain Citizen-Airmen presence globally. Air National Guard 
capabilities are often singularly sought because of our experience and 
unique capabilities. Two such capabilities are the Theater Airborne 
Reconnaissance System and the ability to employ the 500-pound Joint 
Direct Air Munitions.
    Across the full spectrum of operations, Air National Guard men and 
women continue to volunteer for duty in record numbers. The Volunteer 
is a key attribute continuously leveraged to supply needed capabilities 
while giving commanders the ability to efficiently and effectively 
manage the most precious resource: People. Volunteerism combined with 
high experience levels and unique skills mean an outstanding support 
for the war fight.

Network Centric Warfare and the Air National Guard
    The Air Force's vision of Network Centric Warfare is a fully 
integrated digital system, which delivers seamless, survivable, instant 
capability to execute the Joint Force Commander's desired effects. This 
system provides Global Network Connectivity, network enabled weapons 
platforms, fused intelligence capability, real-time situational 
awareness and command and control. A dramatic transformation must occur 
in the Air Force and the Air National Guard in order to make the vision 
of this integrated digital system a reality.
    With this transformation initiative, our focus shifts from 
information technology to the management of information. Information 
technology personnel will no longer merely manage circuits, computers 
and the infrastructure, but also manage the movement of information. 
Information will be stored centrally, with authoritative ownership, in 
a common format. This will permit information to be accessed by anyone, 
across functional domains, in real-time. Governance of the information 
structure will be elevated to the Air Force global level, with tiered 
responsibilities down to the client device. Systems and their 
infrastructures will utilize standardized components and 
configurations. Applications, systems and content will be web-enabled, 
stored in the Global Combat Support System and accessed through the Air 
Force portal from anywhere, at any time.
    Transformation in the Information Technology domain is expensive. 
Information management initiatives affect every mission and member in 
the Air National Guard. Legacy systems must be retired; Information 
Technology infrastructure must be dramatically reduced and centralized. 
New systems and their infrastructures must be implemented even as 
existing systems continue to be used.
    These initiatives will reduce strategic decision cycles to minutes 
and tactical decision cycles to milliseconds. Transformation in the 
Information Technology domain is expensive, but participation in 
NetCentric Warfare brings continued relevance to the Air National Guard 
by ensuring that our weapon systems, command and control processes and 
information are fully integrated with the Air Force. We must remain 
linked with the Air Force's transformation efforts in order to remain 
responsive to combatant commanders and continue to be a responsive, 
enabled and reliable partner in the Total Force. Continued fiscal 
support in the Information Technology arena must be sustained.

Engineering Support to the Warfighter
    The Air National Guard civil engineering structure is based on a 
joint military-state cooperative agreement for the day-to-day operation 
of installations. This lean and efficient structure allows our 
organization to support the many missions of the National Guard while 
concentrating on support to the wider Air Force engineering mission. 
The Air National Guard contributes roughly 30 percent of the total Air 
Force engineering capability and has been involved in front line 
operations in Afghanistan and Iraq. Recent gains in operations and 
maintenance funding for mobility equipment allowed engineering teams to 
outfit for their prominent role in the current War on Terrorism. 
Important gains were made in acquiring equipment resources for more 
specialized items like chemical detectors and RED HORSE equipment. This 
is one area where an increased capability will ensure mission 
effectiveness.

Intelligence, Surveillance and Reconnaissance Systems and Support: 
        Holding the High Ground
    The Air National Guard's Intelligence, Surveillance and 
Reconnaissance personnel and systems play a vital role in the defense 
of our nation. Air National Guardsmen and women are essential to Air 
Force tasking, processing, exploitation and dissemination missions to 
support Global Hawk, Predator and U-2 collection missions in every 
combat theater today. Through Eagle Vision, a deployable commercial 
imagery downlink and exploitation system, the Air Force transformation 
keeps the Air National Guard a responsive, enabled and reliable part of 
the total force responding to the combatant commanders' requirements.
    The Air National Guard provides valuable support to aircrew mission 
planning and targeting, as well as imagery support for counter-
terrorism and natural disasters.
    Other developing Air Force capabilities entrusted to the Air 
National Guard include the F-16 Theater Airborne Reconnaissance System 
and the C-130 SCATHE VIEW tactical imagery collection system. The 
Theater Airborne Reconnaissance System emerged as a major impact 
capability in the Operation Enduring Freedom and Operation Iraqi 
Freedom theaters as the need for timely imagery became vital to the 
ground battles there. The presence of the Air National Guard Theater 
Airborne Reconnaissance System prompted Air Force leadership to 
conclude that manned tactical reconnaissance is still required in 
today's joint combat operations and will remain so into the near 
future. Consequently, Air National Guard is bolstering the airborne 
reconnaissance capability to include a Synthetic Aperture Radar, a 
streaming datalink and, eventually, a multi-spectral sensor to provide 
battle managers with real-time, allweather, 24-hour ``kill-chain'' 
support.
    SENIOR SCOUT remains the primary signal collection asset to support 
the nation's war on drugs and the Global War on Terrorism within the 
southern hemisphere. The expanding, ever-changing world of 
Intelligence, Surveillance and Reconnaissance promises to continue 
challenging the Air National Guard to remain a relevant part of the 
success of this vital mission for the Total Force.

          HOMELAND DEFENSE: HERE AND ABROAD FOR OVER 368 YEARS

Air Sovereignty Alert
    Since September 11, 2001, thousands of Air National Guard personnel 
have provided complete air sovereignty across the United States. 
Maximizing the traditional basing locations, capitalizing on high 
experience levels and leveraging a long professional history in Air 
Defense operations, the Air National Guard continues to serve as the 
backbone of this vital mission for the near future. A major improvement 
to the alert force manning posture is the current transition to a more 
``steady state'' force from the traditional mobilized force. In 
addition, the national command and control infrastructure, to include 
datalink connectivity, is undergoing a major upgrade to digitize air 
sovereignty information, allowing real-time assessments for the 
national-level decision-makers. The Joint Air Operations Center that 
enhances the protection of the Nation's Capital is one example of new 
hardware and software sets available to streamline alert operations and 
to reduce reaction and decision-making times to a fraction of the 
former capability. As we move toward the fiscal year 2006 Program 
Objective, the National Guard will continue toward a more modernized 
alert force and successfully execute this vital Homeland Defense 
mission.

Facilities Supporting Homeland Defense
    Air National Guard Civil Engineering infrastructure is available at 
87 locations across the United States. This level of unit distribution 
supports the Air National Guard missions by providing a broad base for 
recruiting and retention and enhancing the overall need for a response 
capability in the event of a terrorist attack or natural disaster. 
Civil support teams are a highly visible response capability within 
each state, but the disaster response capabilities of the Air National 
Guard civil engineering units located within each state are significant 
as well. Civil Engineering capabilities provide fully equipped fire 
departments staffed with personnel trained in hazardous material 
response, disaster preparedness specialists equipped with chemical and 
biological detection equipment and the full range of craftsmen and 
equipment operators that can be brought to bear for any situation in a 
matter of hours. Continued funding support will further strengthen this 
capability by providing an essential equipment package for emergency 
response--a capability already on hand at active duty bases but not yet 
deployed to Air National Guard locations. The post-September 11 
environment placed new requirements on the facilities program as well. 
Our efforts to implement appropriate anti-terrorism and force 
protection features are progressing, but there is much work ahead. 
Plans focus future efforts on improving base entry gates, perimeter 
security and internal circulation patterns and parking. These 
improvements will create a safer platform for execution of the Air 
National Guard's missions.

Medical Service Transformation--Dual Mission Concepts Supporting the 
        Warfight and Homeland Defense
    The Expeditionary Medical Support system provides highly mobile, 
integrated and multifunctional medical response capabilities. They are 
the lightest, leanest and most rapidly deployable medical platforms 
available to the Air National Guard today. This system is capable of 
simultaneously providing expeditionary combat support to the warfight, 
the Air and Space Expeditionary Force missions and Homeland Defense 
emergency response capabilities to the states and the Air National 
Guard Wings. ONE SYSTEM--TWO MISSIONS!
    The U.S. Central Command validated that the Expeditionary Medical 
Support System is a perfect fit for the Chief of Staff, U.S. Air Force 
Global Strike Task Force and Concept of Operations. The Expeditionary 
Medical Support System is currently utilized in Iraq to provide medical 
support to the combatant commanders and all components. The modular 
``building block'' capability of the system provides an advanced 
technology and an essential, tailored medical capability in a small, 
forward footprint expandable to meet situational needs.
    The National Guard Chemical, Biological, Radiological, Nuclear and 
High-Yield Explosives Enhanced Response Force Packages were mission-
tasked to deploy, on order, to a chemical, biological, radiological, 
nuclear or high-yield explosives incident to support both Department of 
Defense installations and civil authorities in conducting consequence 
management operations. The time of response for this capability is 
between six and 72 hours. This timeframe is the perceived gap between 
local and federal response times. This package will serve as a medical 
reach back capability for the National Guard, will ultimately ensure a 
seamless medical response between the local-state-federal agencies and 
will provide support to the Civil Support Teams.
    To date, Small Portable Expeditionary Aeromedical Rapid Response 
packages, which comprise the initial components of the Expeditionary 
Medical Support packages, are available in twelve states. Numerous 
state emergency plans cite emergency departments, operating rooms and 
medical bed expansion as serious constraints or shortfalls in 
effectively managing an incident. Expeditionary Medical Support systems 
will most definitely be able to provide medical triage and treatment 
until civilian sources are capable of absorbing patients into the 
civilian healthcare system. Future plans include at least one 
Expeditionary Medical Support system capability in each Federal 
Emergency Management Agency region and to complete the packages and 
provide training for the medical counter-chemical, biological, 
radiological, nuclear and high-yield explosives mission at each Air 
National Guard unit in each state not collocated with an active duty or 
reserve unit.
    The Air National Guard will continue to transform medical 
capabilities to support the warfight, support homeland defense and meet 
both federal and state requirements. This will be accomplished through 
the efficient, effective, and economical use of resources by developing 
dual tasked missions. ONE SYSTEM--TWO MISSIONS!

  TRANSFORMATION FOR THE 21ST CENTURY: RELEVANT NOW . . . AND IN THE 
                                 FUTURE

    Clearly a full partner across the spectrum of operations and in 
every theater, the Air National Guard will strive to maintain its 
proportionality across the major weapons systems as it transforms 
through the VANGUARD strategy. With experience levels normally higher 
than our active duty counterparts--especially in the pilot and 
maintenance communities--it is only natural that this experience be 
leveraged for future missions. The integration of the 192nd Fighter 
Wing, Virginia Air National Guard, with the active component's 1st 
Fighter Wing at Langley AFB, VA, to fly the F/A-22 Raptor; the stand-up 
of the first integrated Predator unit in which the California and 
Nevada Air National Guard are members; and the activation of a 
``Community Based'' F-16 unit with the Vermont Air National Guard are a 
few of our current initiatives. The Nebraska Air National Guard is 
continuing to use its unique capabilities to find new ways to support 
the 55 Wing at Offutt AFB, NE, Recent initiatives by the Air Force 
include a partnered Texas and Arizona Air National Guard Predator unit 
and a Distributive Ground Station with the New York Air National Guard. 
These initiatives show commitment by the current Air Force and National 
Guard Bureau leadership to transform air and space capabilities as a 
Total Force; however, Air National Guard leadership will use required 
resources to ensure the right mix of forces in future missions. It is 
also imperative that developing mission requirements be identified so 
units can more easily transfer from one mission to the next.
    The Air National Guard's 88 flying locations provide a broad 
spectrum of support to governors and the Nation as a whole. Mission 
areas such as Civil Engineering, Security Police, Medical and Civil 
Support Teams provide critical links from National Command Authority 
down to first responders in our local communities. The synergies that 
exist due to the Air National Guard Units locations on Civilian 
Airports strengthen ties to both National and state leadership that 
reinforce the homeland defense mission in ways not found on Active Duty 
installations. Efforts are underway to put appropriate anti-terrorism 
and force protection measures in place at all 88 flying locations, but 
much work and resources are required to complete the task. These and 
future improvements will create unique civilian and military 
capabilities in the homeland defense mission that cost the country very 
little, yet afford protections of vital transportation modes that are 
the economic engine of the United States.
    Continued transformation is needed in the joint battle arena to 
ensure full connectivity among the joint and coalition forces. Lessons 
learned from recent operations are flowing into the planning and 
modernization efforts across the Air Force and the Air National Guard. 
A current example of this effort to transform into a seamless joint 
force is the use of the Enhanced Radio Location Reporting System-based 
networks in ground operations. A U.S. Army developed tactical internet 
system, the network information provides positive location of all 
friendly forces, a particularly valuable piece of information in urban 
air operations.

Modernizing for the Future
    The Air National Guard modernization program is a capabilities-
based effort to keep the forces in the field fully mission capable. As 
a framework for prioritization, the modernization program is segmented 
into three periods: short-term, the current and next year's Defense 
budget; medium-term, out to fiscal year 2015; and long-term, out to 
fiscal year 2025 and beyond. In the short-term, the Air National Guard 
Modernization Program focuses on the ongoing Global War on Terrorism. 
Theaters of operation range from domestic efforts, such as fire 
fighting, to full partners overseas in Operation Iraqi Freedom and 
Operation Enduring Freedom. The modern battlefield demands that Air 
National Guard weapons systems and crews have identical or equivalent 
capabilities as joint and coalition forces. The results of the 
modernization program are graphically demonstrated in both Operation 
Iraqi Freedom and Operation Enduring Freedom. The Block 25/30/32 F-16s, 
with their laser designator LITENING II targeting pods, and the 
Enhanced Position Reporting System/Situation Awareness Data Links are 
the air weapons system of choice for the combatant commanders in both 
theaters, especially when performing very demanding close air support 
missions.
    Air National Guard weapons systems are crucial now and will 
continue to be vital as the Air National Guard transitions to new 
missions. The timeless warrior for ground forces, the A-10 requires an 
upgraded digitized cockpit, precision targeting pods, a tactical 
datalink, upgraded engines and a robust data processing capability to 
allow the accurate delivery of current and future weapons.
    During 2004, Air Guard F-16s provided crucial combat capabilities 
in Operation Noble Eagle, Operation Iraqi Freedom and Operation 
Enduring Freedom. The current modernization program includes the 
Commercial Central Interface Unit, Color Multifunctional Displays, the 
Heads-up Display Advanced Electrical Unit, the Radar Modernized 
Programmable Signal Processor, the AN/ALR-69 Radar Warning Receiver 
Antenna Optimization, Situational Awareness Data Link upgrade and the 
Electronic Attack upgrade. Fiscal year 2005 funding for the 40 Advanced 
Identify Friend or Foe upgrade kits was secured along with funding for 
six F100-PW-229 engines for Block 42 aircraft combat capability 
enhancements.
    The Theater Airborne Reconnaissance System became a key capability 
for the theater commanders after the recent deployment of the Air 
National Guard F-16s with this capability. The installation of the 
Forward Looking Infrared system, an essential capability during combat 
rescue operations, on the HC-130 is complete. The HC-130 is also being 
equipped with the Large Aircraft Infrared Counter Measure system that 
will increase survivability in face of the ever-increasing threat from 
hand-held missiles.
    The HH-60 program started installation of the new M3M .50 caliber 
door guns and replaced personal equipment for the pararescue jumpers 
with state-of-the-art weapons and technologies. The initiation of the 
Personnel Recovery Vehicle program to take the place of the HH-60 
replacement program will further slow modernization efforts.
    The Operational Support Aircraft Modernization Program leased two 
C-40s, the military version of the 737 Boeing Business Jets. These have 
become the aircraft of choice for the U.S. Congress and civilian and 
military leaders. The Air National Guard provides crucial first class 
support for the active duty Air Force by providing these aircraft to 
the airlift pool.
    Training the Air National Guard air and ground crews remains a top 
priority. This is evidenced by the Air National Guard investment in the 
Distributed Mission Operations infrastructure and facilities. The A-10, 
F-16, F-15 and E-8C Joint Surveillance and Target Attack Radar System 
have all attained various levels of service and provide valuable, 
theater-level warfare training. The continued development of the 
Distributed Training Operations Center in Des Moines, Iowa, makes it 
the hub of Distributed Mission Operations across the Air Force.
    The E-8C Joint Surveillance and Target Attack Radar System was 
deployed before the start of combat operations in support of Operation 
Iraqi Freedom, and remains in-theater as a constant presence and 
critical warfighting capability. The operators developed new techniques 
to fuse intelligence with other resources and sensors. When combined 
with a robust theater datalink network, Joint STARS becomes an 
especially formidable battlefield asset. Several key upgrades were 
highlighted by recent deployment and combat operations: re-engining to 
enhance reliability, maintainability and operational availability, in 
addition to installation of the Traffic Alert Collision Avoidance 
System to comply with Global Air Traffic Management standards.
    To retain critical tactical airlift capability, the Air National 
Guard is modernizing the C-130 fleet by installing the multi-command 
Avionics Modernization Program, acquiring the AN/APN-241 Low Power 
Color Radar, installing the Night Vision Imaging System and continuing 
the development of Scathe View. Other Air Guard programs include the 
AN/AAQ-24 (V) Directional Infrared Countermeasures System, propeller 
upgrades like the Electronic Propeller Control System and NP2000 eight-
bladed propeller and the final certification of the Airborne Fire 
Fighting System. Additionally, the Air National Guard continues to 
field new C-130J aircraft to replace the aging C-130E fleet.
    The KC-135 weapons system installed the cockpit upgrade and 
continued the R-model upgrades. Keeping the aging fleet modernized 
challenges the Air National Guard as the refueling operations evolve to 
meet the next mission.
    The Air National Guard Modernization Program is essential to 
fielding a relevant combat capability, ensuring the dominance of 
American air power for the next 15 to 20 years. An open and honest 
dialogue from the warfighter through Congress will maximize this 
investment of precious tax dollars. The modernization program is a 
process, not a goal. Recent combat successes validate that process and 
serve as a model for future transformation of the United States Air 
Force.

Facilities Supporting Transformation
    As the Air National Guard continues with transformational 
initiatives, the facilities program keeps pace. Drastically improved 
funding levels for both maintenance and repair and minor construction 
allow us to focus on both new mission infrastructures, like the 
conversion to C-5's at Martinsburg, WV, and Memphis, TN, as well as 
support improvements to existing facilities. As Air Force and Air 
National Guard transformation initiatives progress, there will be a 
continuing drain on the construction program to support these new 
missions. Although funding is currently secured to implement plans, 
continued support is vital so existing infrastructure and facilities 
are not neglected.

Recruiting, Retaining and Developing the Right People With the Right 
        Skills for Today and Tomorrow
    Air National Guard Recruiting and Retention programs play a vital 
role in supporting our Homeland Defense mission and our successful 
transformation to the future, and they are the driving factor as to how 
well we support the warfighter. The Air National Guard has been very 
successful in the past by recruiting quality members and retaining them 
by taking care of their needs. It is critical for us to access the 
right people and retain current members as we transform our force and 
transition to different missions.
    Provisions of the 2005 National Defense Authorization Act enhance 
recruiting and retention for the Reserve Components. Though provisions 
of the 2005 National Defense Authorization Act provide enhanced 
authority for bonus programs, the Air National Guard budget does not 
yet have the wherewithal to adequately fund these programs. Our ability 
to achieve recruiting and retention goals through fiscal year 2006 will 
undoubtedly be a key factor in how well we assume new missions and 
support Homeland Defense for the Nation. Continued support will 
establish a strong baseline from which to achieve future goals.

Diversity
    One aspect of the Force Development construct is ensuring 
implementation of the Air National Guard's national diversity strategy. 
This approach increases mission readiness in the organization by 
focusing on workforce diversity that assures fair and equitable 
participation for all. The Air National Guard developed a formal 
mentoring initiative that is ready for a nationwide rollout. This 
program will be a key component in the professional development of Air 
National Guard members with a keen focus on leadership. In today's 
unpredictable world, the Air National Guard builds on its diversity for 
a broader variation of career paths to include experience, education 
and training. Our nation is multi-cultured, and the Air National Guard 
strives to reflect that in our units.

Personnel Force Development
    The Air National Guard partners with the Air Force in multiple 
Total Force transformation initiatives. These initiatives are tied with 
the Office of the Secretary of Defense's new paradigm--Continuum of 
Service--and will require simplified processes and rules. Continuum of 
Service is a transformation for personnel management designed to remove 
legislative and policy barriers to the seamless transition of our 
members to and from the various military statuses in order to 
facilitate the way our members are employed in the full range of 
operational worldwide missions. A more integrated approach to military 
personnel management is imperative to face the emerging threats of the 
21st century.

                                 ______
                                 
          Prepared Statement of Major General Paul J. Sullivan

                          JOINT STAFF OVERVIEW

    In 2004, we reported on the many changes in the areas of 
Transformation, Jointness and Homeland Defense within the National 
Guard. These initiatives transformed the way we do business today and 
bring us fully in line with the Goldwater-Nichols era of jointness. We 
made significant progress in transforming into an organization that is 
doctrinally and functionally aligned like the Joint Staff of the 
Department of Defense.
    A parallel transformation to a joint headquarters continues in the 
states as well. In 2004, the Chief of the National Guard Bureau 
approved provisional operation of the Joint Force Headquarters in the 
50 states, Commonwealth of Puerto Rico, two U.S. Territories and the 
District of Columbia. A draft Joint Table of Distribution to make each 
a recognized joint activity was submitted to the Joint Staff in 
September 2004.
    We started the implementation of the Joint CONUS Communications 
Support Environment. It provides a common, secure means through which 
the Joint Force Headquarters State, U.S. Northern Command, U.S. 
Strategic Command and U.S. Pacific Command can coordinate their 
response to any domestic emergency. We continue to address emerging 
requirements with the combatant commanders as they develop. And we 
continue to work with the Adjutants General to leverage National Guard 
force capabilities through initiatives such as the regional Chemical, 
Biological, Radiological, Nuclear and High-Yield Explosive Force 
Packages and the reaction forces at the state level.
    These transformation initiatives capitalize on the unique nature of 
the National Guard--there is no other active or reserve component 
positioned and experienced to work in a joint interagency and 
intergovernmental environment through a single command authority 
(governor through the Adjutant General). In the Global War on 
Terrorism, the ability to work in a joint, combined interagency and 
intergovernmental environment is more important than ever.
    Our goal is to achieve full operating capability for our Joint 
National Guard Bureau and Joint Force Headquarters State by September 
2006. Improving the Department of Defense's access to National Guard 
capabilities is our principal focus. Our transformation will ensure 
that the Guard remains ready, reliable, essential and accessible!

                 SUPPORT THE WARFIGHT ANYTIME, ANYWHERE

State Partnership Program
    The National Guard State Partnership Program links states with a 
foreign nation partner to improve bilateral relations with the United 
States. The program's goals reflect an evolving international affairs 
mission for the National Guard. Specifically, it promotes regional 
stability and civil-military relationships in support of U.S. policy 
objectives, and at this moment it is helping to develop dependable 
collaborative partners for U.S.-led coalition operations in support of 
the Secretary of Defense's concept of global engagement.
    The program supports the combatant commanders in that cooperative 
security is achieved, and just as importantly, the National Guard 
personnel gain invaluable experience interfacing with people of diverse 
cultures. The state partners actively participate in a host of 
engagement activities ranging from bilateral familiarization and 
training events to exercises, fellowship-style internships and civic 
leader visits. The partner countries benefit from exposure to the 
concept of military support to civil authority as well as to a cost-
effective reserve component model.
    Since the last Posture Statement, the State Partnership Program has 
held more than 325 events between the partners and added six new 
partnerships--Florida-Guyana, Virginia-Tajikistan, Colorado-Jordan, 
Delaware-Trinidad & Tobago, North Dakota-Ghana and Wyoming-Tunisia. And 
because of the success of the program, the countries of the Bahamas, 
Serbia and Montenegro have also requested partnerships.
    The National Guard, with its ability to develop long-term 
relationships with people from other countries as well as develop 
contacts in both civil and military realms, is better positioned than 
the active components to enhance regional stability and promote civil-
military relationships.
    In fiscal year 2006 and beyond, we expect to take the program to 
the next level of security cooperation by working with geographic 
combatant commanders. We look for increased interaction at the action 
officer and troop level. The partner countries are eager for more 
hands-on (how to) engagement events. The National Guard will step up 
and accomplish these new objectives.

National Guard Family Programs
    Since 9/11, National Guard members have been deployed in greater 
numbers and in more locations than at any time since World War II. The 
role and support of the family has been and continues to be critical to 
mission success. The National Guard Family Program has developed an 
extensive communications and support infrastructure to assist families 
during all phases of the mobilization and deployment process. There are 
more than 400 National Guard Family Assistance Centers located 
throughout the 50 states, Commonwealth of Puerto Rico, two U.S. 
Territories and the District of Columbia. These centers provide 
information, referral and assistance for anything that families 
experience during a deployment. Most importantly, these services are 
available to any military family member from any branch or component of 
the Armed Forces. National Guard Online Community, which is comprised 
of the public website, www.guardfamily.org, as well as an internal 
Knowledge Management site and computer-based training modules to assist 
families and Family Program staff, supports the Family Assistance 
Centers.
    If family members are not prepared for deployments, a service 
member's readiness, morale and ultimately retention will be affected. 
The Family Program office provides support to program coordinators 
through information-sharing, training, volunteer management, workshops, 
newsletters, family events and youth development programs among other 
services. Since last year, the National Guard Family Program has 
initiated its Guard Family Team Building Program, which trains and 
educates families on National Guard missions and expectations, 
readiness responsibilities and systems to support more self-reliant, 
independent and self-sufficient lifestyles for all Guard families.

Employer Support of the Guard and Reserve
    The National Defense Strategy requires that the National Guard and 
Reserve be full partners in the Total Force. Our National Guard and 
Reserve members will spend more time away from the workplace defending 
the nation and training to maintain mission readiness. Employers are 
inextricably linked to a strong national defense.
    A nationwide network of local Employer Support volunteers is 
organized in Employer Support of the Guard and Reserve (ESGR) 
Committees within each state, the District of Columbia, Guam, Puerto 
Rico and the Virgin Islands. In this way, Employer Support programs are 
available to all employers, large and small, in cities and towns 
throughout our country. Today, nearly 4,500 volunteers serve on local 
ESGR Committees. With resources and support provided by the National 
ESGR Committee and the National Guard Bureau, the 54 ESGR state 
committees conduct Employer Support and Outreach programs, including 
information opportunities for employers, ombudsman services and 
recognition of employers whose human resource policies support and 
encourage participation in the National Guard and Reserve. In 
recognition of the importance of Employer Support to the retention of 
quality men and women in the National Guard and Reserve and the 
critical contributions of the ESGR state committees, the National Guard 
Bureau provides full-time assistance and liaison support to the Joint 
Forces Headquarters and the 54 ESGR state committees.
    The success of the nation's defense depends on the availability of 
the highly trained members of the Total Force. The basic mission of 
Employer Support of the Guard and Reserve is to gain and maintain 
support from all public and private employers for the men and women of 
the National Guard and Reserve, as defined by a demonstrated employer 
commitment to employee military service. The National Guard Bureau is 
committed to the additional mission of Employment Support. In today's 
environment, there is a strong need to provide employment opportunities 
for our redeploying service members with an emphasis on our disabled 
veterans. One of the most important tasks our country faces is ensuring 
that our men and women in uniform are fully reintegrated into the 
civilian workforce when they return from service to our country.

Youth ChalleNGe Program
    The award-winning National Guard Youth ChalleNGe Program is a 
community-based program that leads, trains and mentors at-risk youth at 
29 program sites throughout the country to become productive citizens 
in America's future. As the second largest mentoring program in the 
nation, the ChalleNGe program is coeducational and consists of a five-
month ``quasi-military'' residential phase and a one-year post-
residential mentoring phase. A Cadet must be a volunteer, between 16 
and 18 years of age, drug free, not in trouble with the law, unemployed 
or a high school dropout.
    Serving as a national model since 1993, the 24 states and the 
Commonwealth of Puerto Rico that offer the program graduated over 
55,800 young men and women. Participants graduate from the program 
equipped with the values, skills, education and self-discipline 
necessary to succeed as adults in society. Significantly, although many 
ChalleNGe candidates are from at-risk populations, over 70 percent of 
ChalleNGe graduates have attained either a General Equivalency Diploma 
or a high school diploma. Furthermore, approximately 20 percent of all 
graduates choose to enter military service upon graduation.

The National Guard Counterdrug Program
    In 1989, the U.S. Congress authorized the National Guard to perform 
drug interdiction and counterdrug activities under Section 112, USC 
Title 32. For more than 15 years, this program has built great 
credibility with over 5,000 law enforcement agencies through consistent 
and reliable support of counterdrug operations. That support has 
complemented America's homeland security through a visible deterrent to 
potential threats. The primary mission of the counterdrug program is to 
support law enforcement operations aimed at the importation, production 
and distribution of illegal drugs and, secondly, to support community-
based drug demand reduction programs, which touched nearly 2.5 million 
people in 2004.
    In fiscal year 2004 (October 1, 2003-September 30, 2004) the 
National Guard supported efforts that led to 61,029 arrests and 
assisted law enforcement in seizing the following:

------------------------------------------------------------------------

------------------------------------------------------------------------
Cocaine..................................  102,382 pounds
Crack Cocaine............................  7,162 pounds
Marijuana eradicated.....................  1,878,108 plants
Marijuana (processed)....................  842,509 pounds
Methamphetamines.........................  10,759 pounds
Heroin...................................  1,389 pounds
Ecstasy..................................  411,520 pills
Other/Designer Drugs.....................  14,870,793 pills
Weapons..................................  8,359
Vehicles.................................  15,102
Currency.................................  $216,000,270
------------------------------------------------------------------------

    There are six general counterdrug mission categories: program 
management; technical support; general support; counterdrug related 
training; reconnaissance and observation; and drug demand reduction 
support. In 2004, approximately 2,372 National Guard personnel in a 
Title 32 status provided counterdrug support, in addition to preparing 
for their wartime mission through required training.
    Due to the tremendous effectiveness of National Guard training 
programs and the growing need for specialized training, the National 
Guard also operates five congressionally authorized counterdrug 
training academies to provide training to both law enforcement and 
community-based officials. These no-cost school programs are open to 
both civilian and military personnel and offer courses in both supply 
interdiction and demand reduction training.
    The National Guard Counterdrug Program is an integral part of the 
synchronized cooperation between and among the Department of Defense 
and federal, state and local agencies across the full spectrum of 
homeland defense operations. With the annual authorization and 
appropriation by the Congress and the support of the Secretary of 
Defense, the governors' annual counterdrug state plans will become the 
framework for domestic operations. Through these operations, National 
Guard personnel assist nearly 5,000 law enforcement agencies at home 
each year. As we continue our support and engagement with the Global 
War on Terrorism, the National Guard Counterdrug Program provides 
critical complementary support to the combatant commanders in Northern 
and Southern Commands. By leveraging our unique military capabilities, 
national resources and community focus, we can play a central role in 
shaping our nation's response to drugs and associated transnational 
security threats.

          HOMELAND DEFENSE: HERE AND ABROAD FOR OVER 368 YEARS

National Guard Reaction Force
    The National Guard has over 368 years of experience responding to 
both the federal government's warfighting requirements and the needs of 
the states to protect critical infrastructure and ensure the safety of 
our local communities. To improve the capability of the states to 
respond to threats against the critical infrastructure within their 
borders, the Chief of the National Guard Bureau asked the Adjutants 
General to identify and develop a Quick Reaction Force-type capability. 
The goal is to provide a trained and ready National Guard force to the 
governor of each state or territory capable of responding in support of 
local, state and, when required, Department of Defense requests. The 
National Guard Bureau works with the states and territories to identify 
current response capabilities, as well as with U.S. Northern and U.S. 
Pacific commands to ensure that National Guard capabilities are 
understood and incorporated into their response plans. We have also 
begun to identify additional requirements for force protection and 
interoperability with civilian emergency responders. The National Guard 
Reaction Force is not a new capability or concept. What is new is the 
concept of standardized training and mission capabilities shared by the 
50 states, Commonwealth of Puerto Rico, two U.S. Territories and the 
District of Columbia, thereby enhancing those capabilities.

Full Spectrum Integrated Vulnerability Assessment
    The Full Spectrum Integrated Vulnerability Assessment program is 
another National Guard Homeland Defense initiative. Teams of National 
Guard Soldiers or Airmen are trained to conduct vulnerability 
assessments of critical infrastructure in order to prepare and plan 
emergency mission response in the case of a terrorist attack or natural 
disaster. This program is designed to execute the necessary pre-
planning to educate civilian agencies on basic force protection and 
emergency response; develop relationships between emergency responders, 
owners of critical infrastructure and National Guard planners in the 
states; and deploy traditional National Guard forces in a timely 
fashion to protect that critical infrastructure. In developing this 
concept, the National Guard Bureau worked with the Office of the 
Assistant Secretary of Defense for Homeland Defense to establish 
policies and standards. During 2004, the Guard Bureau trained six teams 
to conduct vulnerability assessments. With this new initiative, the 
National Guard continues its time-honored tradition of preparedness to 
respond at a moment's notice in defense of America.

Weapons of Mass Destruction Civil Support Teams
    The National Guard continued to strengthen its ability to respond 
to chemical, biological, radiological, nuclear and high-yield explosive 
events by adding twelve new Weapons of Mass Destruction Civil Support 
Teams during 2004. Since the September 11, 2001, attacks, the existing 
32 certified Civil Support Teams have been fully engaged in planning, 
training and operations in support of local and state emergency 
responders. These full-time teams were designed to provide specialized 
expertise and technical assistance to the incident commander by 
identifying chemical, biological, radiological or nuclear substances; 
assessing the situation; advising the incident commander on potential 
courses of action; and assisting the response team with innovative 
technology and expertise.
    Operationally, these teams are under the command and control of the 
governors through the respective Adjutant General in a USC Title 32 
status. The National Guard Bureau provides logistical support, 
standardized operational procedures and operational coordination to 
facilitate the employment of the teams and to ensure supporting 
capability for states currently without a full-time Civil Support Team.
    During fiscal year 2004, the National Guard Civil Support Teams 
were actively involved in assisting emergency responders throughout the 
country. This included 52 requests from civil authorities.
    In accordance with Congressional mandate and Department of Defense 
direction, the National Guard will add 11 new teams in fiscal year 2005 
so that each of the 50 states, Commonwealth of Puerto Rico, two U.S. 
Territories and the District of Columbia will have at least one full-
time team.

Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
        Enhanced Response Force Package
    The National Guard developed an initiative to equip and train 
existing traditional National Guard units in 12 states to provide a 
regional response in the event of a domestic Chemical, Biological, 
Radiological, Nuclear, and High-Yield Explosive attack. This Enhanced 
Response Force Package capability consists of traditional National 
Guard Soldiers and Airmen who are rapidly recalled and deployed in 
teams to assist emergency responders. These units can secure an 
incident site, search for and extract casualties, and conduct mass 
casualty decontamination. The Enhanced Response Force Package is 
designed to be a follow-on force that complements the detection and 
advisory functions of the Civil Support Teams.
    The National Guard Bureau identified 12 states to test this 
initiative and provided them with specialized equipment necessary to 
conduct mass casualty decontamination, medical triage, and casualty 
search and extraction. Individual and collective training on 
decontamination and medical triage tasks were successfully conducted 
during fiscal year 2004, with search and extraction training scheduled 
for fiscal year 2005.
    These traditional National Guard units are now organized, trained 
and equipped to perform this critical mission and are able to provide a 
regional response in support of both Defense Department installations 
and the civilian community should a Chemical, Biological, Radiological, 
Nuclear, or High-Yield Explosive attack occur.

National Security Special Events
    During fiscal year 2004, three National Security Special Events 
required National Guard leadership and forces to provide support to the 
Department of Homeland Security. These events were the G-8 Summit 
Conference in Sea Island, GA, the Democratic National Convention in 
Boston, MA, and the Republican National Convention in New York City. 
For each of these events, the National Guard provided support to local, 
state and federal agencies for security and protection to the 
participants and local citizenry.
    For the first time ever, these events formalized the use of a 
National Guard Officer, in a dual United States Code Title 10 and Title 
32 status as a Joint Task Force Commander. For these events, the Title 
10 and Title 32 forces were under a command and control configuration 
that promoted a single point of accountability for operations to the 
combatant command, U.S. Northern Command. It also ratified a concept of 
operations that provided unity of effort for both Homeland Security and 
Homeland Defense activities. These events and the concept of the 
operations involving the incorporation of the Title 32 forces 
established a baseline precedent that will serve this nation in the 
security and defense of its homeland.

Intelligence for Homeland Security
    During fiscal year 2004 and continuing into 2005, the National 
Guard Bureau's Joint Intelligence Directorate instituted a number of 
well-designed initiatives. An unclassified information system called 
Homeland Security Information System was installed and is operational 
in all 54 Joint Force Headquarters. An additional unclassified system, 
the Open Source Information System, is also operational at most of 
these headquarters, with training on the system either underway or 
completed at most sites. The directorate has provided daily 
intelligence briefings to these headquarters while developing 
intelligence architecture and standardized intelligence tools that 
result in a common operating picture, situational awareness and maximum 
efficiency for information-sharing. Working with the Joint Force 
Headquarters, the Intelligence Directorate has drafted a Joint 
Intelligence Table of Distribution and Position Description, which is 
under review for approval at the Department of Defense.
    The directorate continues to evolve within the National Guard 
Bureau. We have produced the Joint Intelligence mission statement and a 
mission essential task list. A classified information system is being 
installed at the Joint Operations Center to provide information-sharing 
at the classified level. The directorate continues to establish 
partnerships with national-level intelligence agencies for information-
sharing and to leverage training opportunities. In addition, 
intelligence support to National Security Special Events and to 
Homeland Security joint exercises is a top-priority of Joint 
Intelligence. National Guard Bureau leaders receive regular 
intelligence briefings on such events, as well as briefings on world 
and local events.

                  TRANSFORMATION FOR THE 21ST CENTURY

Transformation to a Joint National Guard Bureau
    The central elements of our historic dual mission are to provide 
policy, coordination and resources that permit the augmentation of the 
Army and Air Force with federalized National Guard forces in time of 
war or national emergency and to support the governor and combatant 
commanders with non-federalized forces to meet homeland defense needs.
    The National Guard Bureau crafts the strategies that will result in 
the implementation of the Secretary of Defense's guidance to improve 
National Guard relevancy and support to the War on Terrorism, Homeland 
Defense and Homeland Security. The National Guard Bureau has presented 
the concept and implementation plan to achieve formal recognition as a 
joint activity of the Department of Defense to the services, which 
would formally establish the National Guard Bureau as the Joint 
National Guard Bureau.

Joint Force Headquarters-State
    In fiscal year 2004, the Chief of the National Guard Bureau 
approved provisional operation of the Joint Force Headquarters in each 
of the 50 states, Commonwealth of Puerto Rico, two U.S. Territories and 
the District of Columbia. These headquarters serve as joint activities 
and exercise command and control over all assigned, attached or 
operationally aligned forces. They provide situational awareness of 
developing or ongoing emergencies and activities to federal and state 
authority and, as ordered, provide trained and equipped forces and 
capabilities to the military services and combatant commanders for 
federal missions. They support civil authority with capabilities and 
forces for homeland security and domestic emergencies.
    The National Guard Bureau is working to obtain approval of Joint 
Force Headquarters-State as a recognized joint activity, and submitted 
a draft Joint Table of Distribution to the Joint Staff in September 
2004.

National Guard Enterprise Information Technology Initiatives
    The National Guard continues to aggressively promote and support 
the use of its Enterprise Information Technology for our warfighters in 
the execution of their missions at all levels, including Homeland 
Security and Homeland Defense. The National Guard Bureau is 
implementing new initiatives as part of the National Guard Enterprise 
to support the Guard's expanding role for Homeland Defense, as well as 
for mobilization and deployment. The initiative will utilize National 
Guard telecommunications resources, specifically distributed learning 
classrooms and video teleconferencing assets to link Civil Support 
Teams in thirteen states. In March 2004, the National Guard resources 
assisted the Department of Homeland Security with the ongoing 
development of Buffer Zone Protection Plans. These are a vital 
component to the overall protection of the country's key assets and 
critical infrastructure. Use of this technology saved thousands of 
dollars in travel costs; promoted sharing and collaboration among 
senior homeland security coordinators and advisors in the 50 states, 
Commonwealth of Puerto Rico, two U.S. Territories and the District of 
Columbia; and helped standardize information and guidance for the 
field.
    Another initiative is the development of the Virtual Mission 
Preparation capability. This is a prototype that provides a web-based, 
portal technology with the capability to display real-time unit status, 
as well as overall mobilization readiness status down to the individual 
Soldier level. It was developed in Pennsylvania to support the 28th 
Division's rotation to Bosnia. It is now being applied to Operation 
Iraqi Freedom and to stand up the 56th Stryker Brigade of the 
Pennsylvania Army National Guard. The system provides functionality 
that has application across the Army National Guard to improve 
deployability and capability to meet Department of Defense and 
emergency response missions.

Homeland Security Joint Interagency Training Centers
    In April 2004, the Chief of the National Guard Bureau commissioned 
a study on the feasibility of creating a Homeland Security Center of 
Excellence with sites in the eastern and western United States. These 
centers would function as Joint Interagency Training Centers (JITC), 
which would provide the needed education and training to National Guard 
personnel and our intra- and interagency partners in Homeland Security 
and Homeland Defense.
    The study recommended that:
  --Camp Dawson, WV, be known as JITC-East, with the primary focus on 
        Chemical, Biological, Radiological and High-Yield Explosives 
        and Continuity of Operations
  --The National Interagency Civil Military Institute relocate from 
        Camp San Luis Obispo to the Naval Air Station at San Diego, 
        enabling the establishment of JITC-West with the mission focus 
        on maritime/port security and cross border security.
    The mission of the centers is to provide a joint training 
environment that focuses on the detection, prevention and deterrence of 
the terrorist cycle over the near-term and supports the transformation 
of the Armed Forces for the long-term to win the Global War on 
Terrorism. The centers will be dual-use, military and civil support; 
provide a range of training consistent with the June 2003 Department of 
Defense Training Transformation Implementation Plan; and educate, train 
and exercise Department of Defense and Intergovernmental, Interagency 
and Multi-national partners/organizations in conjunction with ongoing 
Homeland Defense operations in accordance with guidance from the 
National Guard Bureau.

Joint CONUS Communications Support Environment
    Under USC Title 10, one of the National Guard Bureau's purposes is 
to be the channel of communications between the National Guard of the 
several states and the Departments of the Army and Air Force. That role 
includes providing an interface for communications between federal and 
state agencies concerning incidents involving homeland security. U.S. 
Northern Command, U.S. Pacific Command, U.S. Strategic Command and 
other federal agencies require ``continuous situational awareness'' of 
incidents occurring in the states related to homeland security and the 
associated activities of the National Guard while acting under state or 
federal control. A command and control requirement exists when both the 
president and governor agree to designate a National Guard commander 
under the provisions of USC title 32, Section 325 for National Security 
Special Events. This was the case during 2004 for the G8 Summit and 
both national political conventions.
    In 2004, the National Guard Bureau initiated implementation of the 
Joint Continental United States Communications Support Environment. 
This state-federal network connectivity concept involves national-level 
management and integration by long haul, tactical and other service 
communication capabilities. This system will provide U.S. Northern 
Command, U.S. Pacific Command, U.S. Strategic command and the Joint 
Force Headquarters-State with connectivity to and through state 
networks to an incident site. The system environment includes 
information technology support to the National Guard Bureau Joint 
Operations Center, a Joint Force Headquarters-State communications 
element, network-centric connectivity state-to-state, vertical 
connectivity to incident sites (to include mobile wireless capability) 
and both radio and satellite systems to provide a National Guard 
Homeland Security Communications Capability. This approach was used in 
real world situations during the political conventions and the 
hurricanes in Florida with outstanding results.

Transforming the Mobilization and Demobilization Process
    The Logistics Directorate of the National Guard Bureau is charged 
with the responsibility for monitoring the mobilization process of 
National Guard units. Transformation of these processes is essential to 
maintain a strong, reliable National Guard and to support the combatant 
commanders during wartime.
    Mobilization of the National Guard is continuing at historic 
proportions. Not since World War II have the numbers of reservists who 
have been called to active duty been as high as they are today. 
Currently, more than 40 percent of the Soldiers, Sailors, Airmen and 
Marines participating in Operation Enduring Freedom and Operation Iraqi 
Freedom are Reservists. The Guard alone has mobilized over 100,000 
Soldiers and Airmen since the attack on the United States on September 
11, 2001.
    Transformation and reform of the mobilization and demobilization 
process go hand-in-hand for the National Guard. In 2003, the United 
States Joint Forces Command was tasked to transform the mobilization 
and demobilization processes. The National Guard Logistics Directorate 
worked with the command and the other services and components to report 
recommendations to the Chairman of the Joint Chiefs of Staff in the 
fall of 2004. Many of those recommendations have been instituted by the 
services, either as a result of that report or as self-initiated better 
business practices.
    Greater time efficiency is achieved by improving the mobilization 
process. Several of the recommendations focused on the readiness of 
Reserve units prior to their mobilization date. Implementing those 
recommendations resulted in a reduction in the length of time a unit or 
Guardsman spends at a mobilization station.
    The mobilization and deployment processes at the onset of the 
Global War on Terrorism were designed for the Cold War era. Today, 
there is a more immediate and urgent demand for the National Guard. We 
must transform the process to be more efficient and effective in 
putting more ``boots on the ground'' . . . Protecting America at Home 
and Abroad!

                        STATE ADJUTANTS GENERAL

    Major General (Ret) Crayton M. Bowen, The Adjutant General, 
Alabama.
    Major General (AK) Craig E. Campbell, The Adjutant General, Alaska.
    Major General David P. Rataczak, The Adjutant General, Arizona.
    Major General Don C. Morrow, The Adjutant General, Arkansas.
    Major General Thomas W. Eres, The Adjutant General, California.
    Major General Mason C. Whitney, The Adjutant General, Colorado.
    Major General William A. Cugno, The Adjutant General, Connecticut.
    Major General Francis D. Vavala, The Adjutant General, Delaware.
    Major General (DC) David F. Wherley, Jr., The Adjutant General, DC.
    Major General Douglas Burnett, The Adjutant General, Florida.
    Major General David B. Poythress, The Adjutant General, Georgia.
    Colonel Jerry M. Rivera, The Adjutant General, Guam.
    Major General Robert G. F. Lee, The Adjutant General, Hawaii.
    Major General (ID) Lawrence F. Lafrenz, The Adjutant General, 
Idaho.
    Brigadier General (IL) Randal E. Thomas, The Adjutant General, 
Illinois.
    Major General R. Martin Umbarger, The Adjutant General, Indiana.
    Major General G. Ron Dardis, The Adjutant General, Iowa.
    Major General (KS) Tod M. Bunting, The Adjutant General, Kansas.
    Major General (KY) Donald C. Storm, The Adjutant General, Kentucky.
    Major General Bennett C. Landreneau, The Adjutant General, 
Louisiana.
    Brigadier General (ME) John W. Libby, The Adjutant General, Maine.
    Major General Bruce F. Tuxill, The Adjutant General, Maryland.
    Major General (Ret) George W. Keefe, The Adjutant General, 
Massachusetts.
    Major General Thomas G. Cutler, The Adjutant General, Michigan.
    Major General Larry W. Shellito, The Adjutant General, Minnesota.
    Major General Harold A. Cross, The Adjutant General, Mississippi.
    Brigadier General (MO) King E. Sidwell, The Adjutant General, 
Missouri.
    Major General (MT) Randall D. Mosley, The Adjutant General, 
Montana.
    Major General Roger P. Lempke, The Adjutant General, Nebraska.
    Major General Giles E. Vanderhoof, The Adjutant General, Nevada.
    Brigadier General Kenneth R. Clark, The Adjutant General, New 
Hampshire.
    Major General (NJ) Glenn K. Rieth, The Adjutant General, New 
Jersey.
    Brigadier General (NM) Kenny C. Montoya, The Adjutant General, New 
Mexico.
    Major General Thomas P. Maguire, Jr., The Adjutant General, New 
York.
    Major General William E. Ingram, Jr., The Adjutant General, North 
Carolina.
    Major General Michael J. Haugen, The Adjutant General, North 
Dakota.
    Major General (OH) Gregory L. Wayt, The Adjutant General, Ohio.
    Major General (OK) Harry M. Wyatt, The Adjutant General, Oklahoma.
    Brigadier General Raymond C. Byrne, Jr., The Acting Adjutant 
General, Oregon.
    Major General (PA) Jessica L. Wright, The Adjutant General, 
Pennsylvania.
    Brigadier General (PR) Francisco A. Marquez, The Adjutant General, 
Puerto Rico.
    Major General Reginald A. Centracchio, The Adjutant General, Rhode 
Island.
    Major General (Ret) Stanhope S. Spears, The Adjutant General, South 
Carolina.
    Major General Michael A. Gorman, The Adjutant General, South 
Dakota.
    Major General Gus L. Hargett, Jr., The Adjutant General, Tennessee.
    Major General Wayne D. Marty, The Adjutant General, Texas.
    Major General Brian L. Tarbet, The Adjutant General, Utah.
    Major General Martha T. Rainville, The Adjutant General, Vermont.
    Major General Claude A. Williams, The Adjutant General, Virginia.
    Brigadier General (VI) Eddy L. Charles, The Adjutant General, 
Virgin Islands.
    Major General Timothy J. Lowenberg, The Adjutant General, 
Washington.
    Major General Allen E. Tackett, The Adjutant General, West 
Virginia.
    Major General Albert H. Wilkening, The Adjutant General, Wisconsin.
    Major General (WY) Edward L. Wright, The Adjutant General, Wyoming.

    Senator Stevens. General Schultz.

STATEMENT OF LIEUTENANT GENERAL ROGER C. SCHULTZ, 
            DIRECTOR, ARMY NATIONAL GUARD, UNITED 
            STATES ARMY
    General Schultz. Thank you, Mr. Chairman. Mr. Chairman, 
thanks for recognizing the soldiers here with us today and 
Michelle Nelson, our family volunteer. This team and those they 
represent have answered every call, been up to every task. To 
this subcommittee and your colleagues, you have made what we do 
possible and we say thanks.
    Mr. Chairman, for us in the Army National Guard, we have 
$618 million being considered in the supplemental and I am here 
to tell you we need that money in both the operations and the 
personnel accounts. Without favorable consideration, we will 
not be able to make it through the May timeframe within our 
current budgets. Mr. Chairman, that same condition would not be 
found inside the active component budgets today, and anything 
that you can do to help encourage the process through the 
supplemental reviews would be most important for the Army.
    Mr. Chairman, I stand by for your questions.
    Senator Stevens. General James.

STATEMENT OF LIEUTENANT GENERAL DANIEL JAMES, III, 
            DIRECTOR, AIR NATIONAL GUARD, UNITED STATES 
            AIR FORCE
    General James. Thank you, Mr. Chairman and members of the 
subcommittee. It is always a pleasure to come here and speak 
before this subcommittee because of the support that you have 
provided to our National Guard and Reserve components. Without 
your support and help, we would not have the readiness levels 
and the quality of life that we enjoy today as the 21st century 
Minutemen and women.
    Also, thank you for your recognition of these fine soldiers 
and family members that are here today. They all serve in their 
own capacity and we could not do our job without them.

                         AIR SOVEREIGNTY ALERT

    As we sit here today, I reflect on the members of this 
subcommittee and every face that I see has a member, on this 
subcommittee, has an organization that is now engaged in the 
war on terrorism, whether it be on air sovereignty alert, where 
the Happy Hooligans and the Green Mountain Boys and the Tacos 
from New Mexico are sitting alert today and the Warriors from 
the F-15 squadron in Hawaii are also sitting alert.
    We truly guard America's skies and we are very proud and 
capable of doing that. We want to continue to do that because 
we bring great value to our Nation.

                   AIR NATIONAL GUARD FLYING MISSIONS

    The C-130J is being introduced for the 175th there in 
Maryland. The C-17, the premier airlifter in Air Mobility 
Command and U.S. Transportation Command, from the 172nd in 
Jackson, Mississippi, is engaged in their conversion and will 
soon be mission ready, but they are already still flying 
missions in theater as part of their training. Of course, we 
will have involvement in the C-17 in Hawaii in a unique 
arrangement with the active component as well, and possibly in 
the future in Alaska. So this diverse missioning that is 
represented by the members that are here today does not go 
unnoticed.
    The men and women of the Air National Guard have had 
another very exceptional year. We have been engaged both in 
theater and around the world in different exercises, but most 
importantly in the war, in the global war on terrorism. We 
believe, as the Chief mentioned, that our primary mission is in 
homeland defense, but one of the things that allows us to do 
that mission is that we are trained for a Federal mission. 
Homeland defense in depth is our primary mission and we also 
want to make sure that we have the capabilities that our 
Governors need when called upon, whether it be for a natural 
disaster or a man-made emergency.
    We will continue to perform both the homeland defense 
mission and the expeditionary missions as our organization 
transforms to meet our future requirements.
    I thank you again for your support and I look forward to 
entertaining your questions.
    Senator Stevens. Thank you very much.
    We will have a 5-minute rule now and we will recognize 
members in the order in which they came to the subcommittee's 
table, with the exception of the chairman. Mr. Chairman.
    Senator Cochran. Mr. Chairman, thank you very much.
    I am happy to hear the report about the combat brigade. We 
are really proud in Mississippi that the 155th Combat Brigade 
is on duty and discharging their responsibilities in a 
professional way, with a lot of courage and skill. We 
appreciate their service. I remember that we had that similar 
brigade mobilized 10 years ago in Desert Shield/Desert Storm. 
They did not quite make it to the theater that time. They ended 
up in the training center when the war was over. But they went 
through training in Fort Hood and were ready to go if needed as 
a round-out brigade of the First Cavalry at that time. So we 
are very proud of our soldiers and all of them have acquitted 
themselves honorably, I am advised.
    General James, you mentioned the aircraft, the C-17 in 
Jackson, Mississippi. We were very proud to be selected as a 
port, as a facility, as an airfield for those planes. Do you 
see this continuing to be part of a plan of the Air National 
Guard forces? You mentioned Hawaii. Are there plans to also 
deploy those C-17's elsewhere in the country at National Guard 
facilities?

       BASE REALIGNMENT AND CLOSURE (BRAC) AND FUTURE TOTAL FORCE

    General James. We cannot say exactly where they will be 
deployed. With the impact of BRAC and future total force, we 
will make an adjustment where we can. Right now, with the buy 
as set at 180, we do not have any other aircraft that are being 
designated to go to National Guard units in the country.
    That is why we have used the different type of structures. 
We have an associate type unit in Hawaii, where we have active 
duties and National Guard members flying the aircraft in 
Hawaii, as opposed to what we call a unit-equipped unit in 
Jackson. I look forward to a day when we will have community 
basing and where we will have active duty members coming to 
Jackson, living in the community, and flying there. That would 
impact the connection to the community in the very positive way 
that General Blum mentioned earlier.
    Also, I believe--and my colleague Lieutenant General John 
Bradley will probably talk about this--there is an associate 
Active and Reserve associate C-17 unit that will be operating 
in Alaska. But if the buy goes past 150, then we will have 
additional assets to look at stationing in other places in the 
United States, continental United States or overseas.
    Senator Cochran. General Blum, you mentioned the incentives 
that you are suggesting that we consider providing funding to 
support for reenlistments and streamlining the process from 
active duty to Reserve units or National Guard units. Do you 
have any cost estimates of what the impact will be on the 
budget, if any, for these initiatives that you are suggesting?
    General Blum. Yes, Senator. What we have done is we have 
consulted with all of the 54 adjutants general (TAGs) that are 
responsible to recruit and retain citizen soldiers and airmen 
in their States and territories. We have distilled this down 
into the top 10 initiatives that we think that we will require 
some additional authorities or policies adjustment to be able 
to do that.
    Then what we did is our best estimate of what those 
policies or authorities might mean in terms of dollars amount 
or in terms of authorizations that would have to be associated 
with them. We have provided that to this subcommittee. I am 
comfortable with 8 out of 10 of these. Two of them are shown 
as--essentially, you could read this as cost-neutral, but I do 
not think they really are. I would, rather than put ``not 
available'' (NA) on this chart, I would rather put ``unknown.'' 
There is some associated cost to it, but I am not prepared to 
tell you what that is today. I would have to take that for the 
record and do a little bit of homework for those two.
    But the rest--but the authorities are exactly what the 
adjutants general have advised the three of us as the tools 
they will need to be able to achieve end strength in 
Mississippi and Hawaii and Maryland and every other State and 
territory in the country.
    Senator Cochran. General Schultz, there was some question 
10 years ago. I mentioned the experience of the 155th being 
mobilized. There was concern about the physical conditioning of 
the troops and whether or not they were ready for combat 
situations. I am told that that is not a problem now, that this 
is a situation with recent experience that the physical 
condition and the physical readiness of the troops were such 
that no delay was needed, and that is one reason we were able 
to see troops transferred directly to the theater where they 
were needed to take part in active combat operations.
    Is that a correct assumption that I am making?
    General Schultz. Mr. Chairman, that is a correct 
assumption. Average age of the Army National Guard soldiers on 
active duty today is 31 years, so perhaps slightly older than 
an Active component peer. But we track statistics all the time 
in terms of medical condition, reasons soldiers leave the 
theater, and the issue of fitness is not a question.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman.
    General Blum, the State of Hawaii as a territory and as a 
State has always stood high in sending their sons and daughters 
to serve when called upon. I notice from your chart here that 
the State of Hawaii has 51 percent of the Guard committed and 
mobilized, to a low of 5 percent for some other States. What is 
the policy that brings about this divergence of percentages?
    General Blum. That is an excellent question, Senator 
Inouye. The contribution Hawaii made in this particular case 
was a decision made by the adjutant general and the Governor in 
consultation with the National Guard Bureau and the Department 
of the Army as to how much of the 29th Brigade Combat Team we 
wanted to take out of Hawaii and how much was going to actually 
remain in State. There was some flexibility offered to the 
State. Governor Lingall and General Lee felt that we could take 
the entire brigade, as we did. In fact, they almost insisted on 
it, and they felt comfortable that we had leveraged enough Air 
National Guard and Army National Guard units remaining in 
Hawaii to provide them 49, just about 50 percent, about one-
half of the capabilities, which is what we promised the 
Governor we would do.
    In addition, because of Hawaii's unique location and who 
lives there in terms of Department of Defense equities that are 
there, they have a fairly robust Navy and Air Force and Coast 
Guard contribution that is also, because the joint force 
headquarters exists in Hawaii, they are able to leverage those 
capabilities as well. So Governor Lingall is quite comfortable 
that if anything were to happen in Hawaii she has the Civil 
Support Team, she has one of these CERFP packages, this 
enhanced response, weapons of mass destruction (WMD) force 
packages. One of those is existing in Hawaii today. It is there 
now. She has and General Lee has over just one-half of their 
joint capabilities between the Army and the Air National Guard.
    You notice that Hawaii is the lowest, the lowest percentage 
of capability that we left in the States. All of the other 
States--red is good on this chart, by the way, for those of you 
that are not used to looking at a chart with red on it and 
seeing it as good. The larger the piece of the pie that is red, 
the better it is for the Governor. That means the more 
capabilities that are still home and available to them.
    You can see that all of those pie charts, almost three-
quarters of the pie is still there, even though we have such a 
large number of troops deployed. That is done in conjunction 
and collaboration with General Schultz with the Army Guard, 
General James of the Air Guard. And frankly, the United States 
Army, General Schoomaker and United States Air Force, General 
Jumper, have worked very closely with us to make sure we had 
the flexibility to not pull too much capability out of any 
State and leave any State or Governor uncovered such if a 
natural disaster or terrorist attack should occur in their 
State.
    Sir, does that address your concern?
    Senator Inouye. In other words, General, are you telling me 
that if the Governor had resisted or requested a smaller force 
to be mobilized Hawaii would have had a smaller force?
    General Blum. Yes, sir, they would have. We would have left 
another battalion in Hawaii and we would have taken another 
battalion from another State that has a much larger piece of 
the pie, so to speak, left in State. I think that is the right 
way to defend America, frankly, and I think also modularity, 
the Army modular force, will even give us greater flexibility 
in the future as we move to that, because we will be able to 
plug and play pieces and elements, where in the past we would 
have to pull a big unit out of one State and leave that State 
with no capability to respond here at home.
    Senator Inouye. So in a State that has 5 percent mobilized, 
I would assume that the Governor did not want the troops to be 
sent out?
    General Blum. No, that is not the case, sir. I do not want 
to mislead anybody. A State that only has 5 percent mobilized 
right now on a chart 6 months or 1 year ago may have had 40 or 
30 or 20 percent of that State gone. It just means that we have 
probably used those soldiers already and now it is someone 
else's opportunity to serve.
    Senator Inouye. General Schultz--thank you very much, 
General Blum.
    General Blum. Thank you, sir.
    Senator Inouye [continuing]. I note that the Guard is 
having problems with recruiting and retention. Can you tell us 
about it?
    General Schultz. Yes. Senator, we have today reached 97 
percent of our end strength objectives for the year. Now, as a 
data point that sounds okay, but what we are really in need of 
today is recruiting performance, more enlistments. Today both 
in the prior service and the non-prior service marks we are off 
our objectives by some measure.
    General Blum has already outlined March was a 5,200 plus 
enlistment month. We expect April to be another 5,000 plus 
enlistment month.
    Mr. Chairman, as we talk about recruiting I would just 
outline that incentives make a difference. For example, in the 
area of retention we have, by comparison with last year's 
reenlistment rates, three times the number of soldiers 
reenlisting than we did just 1 year ago. So a 3 to 1 ratio in 
terms of an incentive that this committee helped clear last 
year from the Congress. So those items in terms of incentives 
are making a difference.
    Our challenge is in recruiting and that is the target that 
we have had at the recruiters and no doubt given more focus out 
in the States.
    Senator Inouye. Thank you, sir.
    Senator Stevens. General Blum, following up on that 
enlistment bonus, I am told we have bonuses that range from 
$1,000 for a 2-year enlistment to $20,000 for a 6-year 
enlistment and that you have been reviewing those. We have in 
the bill already before us a $10,000 increase for enlistment 
from the Air Force to the Army--from active duty into the Guard 
or Reserve.
    Now, what you just said is going to mean I am going to face 
an amendment on the floor pretty clearly. Why can you not use 
the money we have got now? You have authority to go up to 
$20,000 if you want to do it. Why do you ask now for a change? 
In effect, you are asking for a change in our bill today; you 
know that, General?
    General Blum. Well, that would be the second order effect, 
yes, Mr. Chairman, I understand that. But if we have the clear 
authority to go beyond the $10,000--here is my concern----
    Senator Stevens. You do have that authority up to $20,000 
in special circumstances.
    General Blum. Then we would have no issue. If I have that 
authority, then we can make the programmatic change.
    Senator Stevens. Am I correctly informed? It is based on 
critical skills to go above the $10,000.
    General Blum. Well, if we have that authority and we have 
the authority to determine what the critical skills are and 
what the needs are, then I have adequate authority and we can 
reprogram the money we have.
    Senator Stevens. Senator Inouye and I are reluctant to see 
a start of amendments to this bill of ours at the last minute. 
So I would hope that we will try to take it into conference the 
way it is, and you let us know if you do not have the authority 
you need. I am sure in conference both House and Senate will 
respond to your needs, but I just do not want to have a flood 
of amendments here at the last minute trying to add to this 
bill.
    General Blum. I appreciate that, Mr. Chairman. I think, 
based on what you just outlined to me, we have adequate 
authorities to move forward with this and I appreciate, 
frankly, the significant change in the bonus offering because I 
think it will have a dramatic effect.
    Senator Stevens. That is our intent, to work with you. I do 
think recruitment is absolutely essential, that we pay a great 
deal of attention right now. There is no question a substantial 
number of reenlistments are necessary to maintain the force we 
have.
    General Schultz, we provided $95 million for the Guard and 
Reserve equipment in the 2005 bill. General Schultz--General 
James, we had the same amount for the Air National Guard. Are 
those going to fulfil your requirements?
    General Schultz. Mr. Chairman, they have filled critical 
needs for us. Most of the items, much of the equipment we 
bought with that amount of appropriations, you will find in 
Iraq and Kuwait and Afghanistan today. We bought critical items 
of need for our units deploying and of course we deploy units 
at the highest level of readiness: machine guns, night vision 
devices, trucks. We bought all kinds of things that our units 
were short prior to their deployment into the combat theater. 
So we have applied those units to our readiness-related 
requirements.
    But we do still have a shortage, but our priority across 
the Guard is to get units ready for their combat tours, and we 
are able to do that by cross-leveling some of the items that 
this community has provided for us.
    Senator Stevens. General James, the same question to you 
about the $95 million that we provided you.
    General James. Well, first of all thank you for that. That 
account is one of the ways that we are able to fund some 
programs that do not make the cut with the program objective 
memorandum (POM) at the Air Force level. The Senate has been 
very generous in doing that.
    We do feel we still do have some requirements that we would 
like funded. However, we have prioritized that, filled the 
critical ones that we have. It has given us the opportunity to 
do some things that we need to do, but there are still some 
issues that need funding. One of them is the large aircraft 
infrared countermeasures systems, the LAIRCM modification. I 
have a list of how the moneys are being spent that I can give 
the staff and I can highlight some of the areas that you can 
give us some additional help if it is there.
    Senator Stevens. Well, as you indicated, I just finished 
visiting the 172nd at Fort Wainwright and Fort Richardson in my 
State and they are in transition now to go over with their new 
equipment. The items you mentioned, are they available for 
units such as that?
    General James. The C-130 has a high priority in getting an 
updated large aircraft infrared system.
    Senator Stevens. Thank you very much.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    General Blum, I wrote down one of your statements and I 
think I am probably quoting you correctly. Correct me if I am 
wrong. You said you were not certain that the Air Staff 
understands the value and benefit of a community-based Air 
National Guard.
    That set off a lot of alarm bells and sort of reconfirmed a 
fear I have. I appreciate your candor. It is helpful to us. I 
hope it is not hurtful to you. But let me ask about that. We 
are going into a BRAC round where there will be decisions made 
that can have a profound impact on the Air Guard. Can you 
amplify on this statement that you are not certain the Air 
Staff understands the value and benefit of community-based----
    General Blum. Yes, Senator. And it is not only the Air 
Staff. There is nothing evil in this. It is sort of like high 
frequency hearing loss.
    Senator Dorgan. That is even more candor, General.
    Senator Stevens. We can all tell you something about that.

            COMMUNITY-BASED CITIZEN SOLDIER AND AIRMEN FORCE

    General Blum. The Active component I do not think has an 
intrinsic appreciation for the fact that when you call out the 
Guard you call out America. That is very, very powerful for 
this Nation. The reason that when you call out the Guard you 
call out America is that you are calling up every home town, as 
you can see from the charts that we have been showing and as 
you can tell from your constituents. They feel the people that 
are at war in this Nation really are those that are serving and 
the families and employers of those people. When you are 
talking about families and employers you are only usually 
talking about the Reserve component, and the Guard has an 
extremely high number of this contribution.
    I do not want to lose the goodness of a community-based 
citizen soldier and airman force. I am afraid that some well-
intended people who put their programmatics together or their 
analytics together for the future force did not factor in the 
fact that if you do not have a community base you probably do 
not have a community-based force, and pretty soon you do not 
have the capability that we have come to expect and call upon 
in this Nation for the last at least 32 years. The next time we 
need it, we will not be able to regenerate it or reestablish 
it.
    So if it puts some alarm bells off, that is good. I think 
it should and I think it should be a tough question that 
defense planners and senior military people like myself should 
have to be able to answer as we talk about how we are going to 
defend the Nation in the future and how we are going to shape 
the Army and the Navy and the Air Force of the future.
    Senator Dorgan. General, I share those concerns and I think 
every State has an Air Guard. Some have more than one Air Guard 
unit. There is a lot of concern about where we might be after 
BRAC. Especially if homeland security is a priority, when you 
take a look at what is implied with respect to the retiring of 
the number of airplanes in the Air Guard, you wonder how that 
can square with the top priority being homeland security.
    I would like to mention, General James, I spent Monday with 
the Happy Hooligans, which is the Air Guard unit in Fargo. You 
are well familiar with them. They have had more accident-free 
hours in F-16s than anyone else in the entire world. They are 
the only Air Guard unit that has ever won the William Tell 
Trophy three times. This is an Air Guard unit which flies in 
the worldwide meet to test pilots and crews against the best of 
our Air Force and the best in the world. They are the only Air 
Guard unit that has won it three times, the only F-16 unit that 
has won the Hughes Award.
    In fact, they are flying fighter cover over our Nation's 
Capital, as you know, out of Langley. But the best pilots in 
the world happen to fly the oldest iron, the oldest F-16s, 
which are set to retire in 2007. Then we see coming from the 
Pentagon discussions about the number of F-16s and the older 
planes that will be retired, a dramatic percentage. In my 
judgment that seems at odds with the top priority of homeland 
security.
    I wonder if you could tell me your impression of that and 
perhaps also General Blum.

                      AIR NATIONAL GUARD AIRCRAFT

    General James. Well, Senator, you are right. The Air Force 
has a difficult decision to make. They have to program for the 
new aircraft that are coming, and we know that there will be 
dramatically fewer aircraft, i.e., the F/A-22 and the Joint 
Strike Fighter, the F-35 as it has been designated. Because 
there will be fewer, we still will have the capability because 
these aircraft are more capable.
    Our problem becomes one in the National Guard, in the Air 
National Guard, that the F-16s that we have are more what they 
call the legacy airplanes. The Block 15s that you have and that 
we have in Tucson, in the unit in Tucson, the foreign training 
unit, are the oldest, and then the Block 25s and the Block 30s. 
Right now the Block 25s and some of the Block 30s are slated to 
go out of the inventory.
    I would propose that we look very closely at this after 
BRAC comes out and work very closely with the adjutants general 
and with the programmer for the Air Force, Lieutenant General 
Wood, to make sure that we do this in such a manner that if we 
do not have aircraft to replace those aircraft that come out, 
that we do have new missions to replace those aircraft that 
come out. Otherwise, we could get in a situation where I call 
it the units would be uncovered, in other words they would not 
have a Federal mission.
    In my mind that really sets off bells, because the Air 
Force has told us that they are going to sustain our current 
level of manpower, however I am not sure that folks in other 
parts of the Pentagon will see that as sustainable in fact if 
we have units uncovered. So we are going to work very hard to 
get missions to those units that lose aircraft.
    Senator Dorgan. Could either of you just address that 
question of the top priority being homeland security with a 
substantial----
    Senator Stevens. Your time has expired.
    Senator Dorgan. All right, Mr. Chairman.
    Senator Stevens. Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman, and to the 
Generals and to the men and women that you represent at this 
table.
    I would like to come back to the issues related to 
recruitment and retention and to focus on retention, because I 
think that has been a troubling aspect. General Blum, when you 
talked about those bonuses and that they have been effective, 
are those bonuses tax free?
    General Blum. Senator Mikulski, they are tax free if you 
take advantage of them in the combat zone. For instance, I 
watched 256 soldiers from Louisiana reenlist in theater, which 
is quite remarkable in itself. They were from the 256th Brigade 
Combat Team. They reenlisted en masse. Each one of them would 
have had a tax-free reenlistment. All 15,000 would have been.
    Senator Mikulski. But for anyone else reenlisting--it is 
only tax free in a combat zone, is that correct?
    General Blum. That is correct. Sorry. That is correct.
    Senator Mikulski. And we understand why. I mean, they are 
literally in the line of fire and it is a way of thanking them 
for being willing to re-sign up.
    Is this an issue also, for those who are not in the combat 
zone? Would a tax free status be helpful in terms of retention 
or a way that does not exacerbate tensions with those that are 
literally in the line of fire? This is a tricky question. It is 
not meant to be a trick question. But it is delicate or 
possibly prickly.
    General Blum. A simple candid answer is that incentives 
work. So the more of it that you get to keep, the more of an 
incentive it is.
    Senator Mikulski. The more cash they end up with.
    General Blum. Of course, yes.
    Senator Mikulski. I understand.
    Now, when we look at retention, we also know that there has 
been, as you said in your own testimony, the inequities at 
times with active duty. Again, we do not want to exacerbate 
problems between active duty and Guard and Reserve, but what is 
one of the most significant drawbacks that the troops have told 
you about retention? Is it the operations tempo (OPSTEMPO)? Is 
it the fact that they are called up so frequently? Is it the 
fact that there is such a big pay gap that their family is 
enormously suffering because of this?
    What are the retention flashpoints?
    General Blum. There are two that come to mind. And General 
Schultz, if I fail to cover them, you jump in on this. There 
are two that come to mind.
    The first one, which you would least expect, is that 
soldiers have told me they will redeploy to the combat zone 
again, but they will not go through the mobilization process 
again, they would get out first. So that tells me we need to 
really look at the mobilization process hard and make sure that 
it is not as painful as it appears to be, is perceived to be by 
those who have to live it and go through it, not the ones that 
conduct it, the ones who actually have to suffer through that 
process.
    Then the other item is that about one-third of our soldiers 
suffer financial losses to the point that it is almost 
untenable for them.
    Senator Mikulski. What would be the recommendation on that? 
We have heard horror stories in Maryland. I worked hands-on 
with you when your duty assignment was Maryland, with General 
Tuxell, our Air Force guy, now head of our Maryland National 
Guard. What are these issues?
    We, Senator Durbin and I, have talked about the Federal 
Government making up the pay gap. What would be some of the 
concrete steps that we could take to deal with this financial 
hardship that families are facing, not for a few months, but 
now for multi-years? I talked to one marine who has come back 
and he has lost $20,000 a year for 3 years. That is $60,000. 
That could have put his son or daughter through the University 
of Maryland for 4 years.
    General Blum. Senator, there are three elements to having a 
sound and functional Army and Air Guard. One is the citizen 
soldier. We have to get the right people, the right incentives 
to be able to compete in a level playing field for a recruited 
force. That is what we are talking. They are all volunteers, 
but they are recruited.
    The second is we have got to make sure the families do not 
suffer too extremely while they are deployed----
    Senator Mikulski. Right, and how do you want to do that? 
What are your recommendations?
    General Blum. Then the third is the employer. I think that 
we probably need to look at some way to ensure that families 
are not financially ruined for answering the call.
    Senator Mikulski. What are your recommendations and what 
does the top civilian leadership at the Pentagon say?
    General Blum. Well, I will tell you what. I will take that 
for the record and I will provide you some ideas that we have 
come up with. But it really would be for this body and Congress 
to decide what they would like to legislate. The tax relief----
    [The information follows:]

    The top three recommendations for Personnel Benefits 
provided below will assist the National Guard in meeting their 
recruiting and retention goals.
    First, BAH II should be eliminated or the threshold should 
be reduced for paying BAH II in lieu of BAH. BAH II is the 
housing allowance that is presently authorized for reservists 
serving on active duty for fewer than 140 days. The net 
averages of the difference between BAH II and BAH have been 
approximately $300 per member per month. This has a direct 
impact on bottom line take home pay. Active duty and reserve 
component members serving side-by-side should be compensated at 
the same rate. Therefore, BAH II should either be eliminated 
completely or at least the threshold for paying BAH II should 
be reduced from the current 140 days threshold.
    Second, we want to have the authority and funding to pay 
the $15,000 affiliation bonus which would allow us to 
transition someone directly from active duty into the National 
Guard. In the Supplemental which was passed in May 2005, we 
received the authority to pay a $10,000 affiliation bonus, 
however this authority will expire on September 30, 2005 unless 
a new authority is passed. The reason we need this affiliation 
bonus at the $15,000 mark is because Prior Service members 
without a Military Service Obligation (MSO) are eligible for a 
Prior Service enlistment bonus of $15,000. This means there is 
a built in incentive for a Prior Service member with the MSO to 
wait for the MSO to expire and then enlist without the MSO to 
receive the $15,000 bonus. Therefore, if we are able to offer 
the $15,000 affiliation bonus, it would help us recover these 
members who are already trained from their active service.
    Third, as you know the National Guard is comprised of both 
the Army National Guard and the Air National Guard and, in this 
case, we have slightly different requirements which could meet 
their needs. For the Army National Guard, we would like to 
expand the parameters of offering the tax-free reenlistment 
bonus to include all members who deploy for one year, even if 
the actual reenlistment doesn't occur while they are in the 
combat zone. We believe all our members who deploy for one year 
should be eligible for this tax-free benefit without penalizing 
those members who will deploy, however, not have their 
reenlistment occur during the actual deployment. Air National 
Guard members are deployed for shorter periods of time and few 
would be eligible for the tax-free reenlistment bonus. Since a 
much larger number of Air National Guard members will be 
substantially impacted from BRAC, we want an increase in the 
retraining bonus from the current $2,000 to $10,000. By using 
this $10,000 retraining bonus, we could entice members to stay 
and retrain and therefore save money we would otherwise have to 
spend on recruiting. We believe this increased retraining bonus 
will serve us well in retaining our Air National Guard members 
during the difficult BRAC transition period.

    Senator Mikulski. But I would like to know the top three.
    General Blum. I would think that employers would benefit 
greatly. They are full partners in the defense of this Nation. 
They would benefit from some form of tax relief for being able 
to make up the differential for the employee's salary.
    Senator Mikulski. General, I would welcome those ideas.
    My time has expired, but we are all Team USA here and we 
need to make sure we not only recruit, but retention is another 
form of recruitment----
    General Blum. Absolutely.
    Senator Mikulski [continuing]. To keep the best and, as you 
said, these wonderful men and women are coming back with 
exceptional capabilities. They are going to serve Maryland, 
they are going to serve the Nation. We have got to really show 
that we are on their side and on the side of the families.
    So thank you, Mr. Chairman.
    Senator Stevens. Thank you very much, Senator.
    Senator Leahy.
    Senator Leahy. Thanks, Mr. Chairman.
    I would like to follow up on this question that there are 
sometimes inequities with the National Guard and Reserve at a 
time when, as you know, we go into active areas and you really 
cannot tell who is Guard and who is Active military. For 
example, when a member of the National Guard or Reserve is 
called to active duty for a period of less than 140 days, that 
citizen soldier, airman, or marine receives a lower BAH II, 
basic allowance for housing. Actually that can be as much as 
$300 per month less than he or she would receive on regular 
active duty.
    Now, I raise this because last year Congress enacted a 
piece of legislation sponsored by me and Senator Bond as the 
Guard Caucus co-chairs. It authorized greater use of the Guard 
for national homeland security missions.
    A number of soldiers from the Vermont National Guard were 
called up to help increase security along the northern border, 
where we have far less people deployed than our southern 
border. They worked side by side with their active duty 
counterparts, but they received $300 per month less in housing 
allowance. They are doing exactly the same thing.
    I think it is unfair. I want you to take a look at BAH II. 
Is there any justification for keeping this lower tier of 
housing allowance in place?
    General Blum. No, sir. The way we look at it is as a 
general rule when you are called to active duty you should get 
all the rights and benefits and entitlements as anybody else 
that is serving right alongside of you in the same status, 
performing the same duty. I will go back and look at that. If 
there is something that we can do, we will do it. If not, if we 
need some assistance with legislation, we will come back to 
you, sir.
    Senator Leahy. Please let us know because I am actually 
looking forward to introducing some legislation on this. I want 
to make sure it is bipartisan legislation. So whatever you can 
give us for information will be very helpful.
    General James, Senator Dorgan was talking about the future 
total force initiative you and I have talked about this because 
of the talk of significant cuts in the Guard's aircraft force 
structure. At the same time, we are starting city basing. It is 
going to begin imminently with the Vermont Air National Guard 
in Burlington, Vermont. Active duty pilots and maintainers are 
going to come to Guard bases. I think it creates a synergy 
where the total may be greater than the sum of the parts.
    Can this basing arrangement be a model for the whole Air 
Force? Because if it would be, does that bring about an 
argument against making significant cuts in the Air National 
Guard's force structure?
    General James. Senator, the answer to that is yes, it could 
be. Community basing, as we call it now, is, as the Chief 
pointed out, a way of balancing the needs of the Air Force in 
terms of their skill levels. We have very experienced people. 
Sixty-two percent of our maintainers are seven skill levels, 
seven or higher, whereas the majority of theirs are three level 
skills.
    So it takes the best of the Guard and helps balance some of 
the needs of the Air Force. Now, the debate comes down to can 
the active duty folks who go there have the same quality of 
life. I say yes, they can. If you select Jackson, Mississippi, 
and have community basing there with active duty crews coming 
to Jackson, I think they can have the same quality of life 
there. There are some other places where there are even bases, 
like Kirtland in New Mexico, where you could have active duty 
folks there and supported by the base and flying with the New 
Mexico Air National Guard.
    So I think the community basing, city basing concept is an 
excellent way of balancing the force, giving the personnel 
system options to station people throughout the United States, 
and when they rotate back from an overseas deployment or an Air 
Expeditionary Force (AEF) involvement they have more options as 
to what assignment, where they can be assigned. I think it will 
be--I think it could turn into a win-win force.
    Now, those folks--there are people who say, no, we cannot 
do that, it is not appropriate to do that, they will not have 
the quality of life and we cannot afford it. I think we should 
look into it. I do not think this should be just a random test 
case that falls off the table. I fully support the concept of 
community basing and community involvement of the National 
Guard and the active duty.
    Senator Leahy. Thank you.
    Senator Stevens. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    General Blum, you were spelling out the three elements that 
you thought were important and I want to make sure I heard the 
third one, which I do not believe you had a chance to say a 
word on: the citizen soldier, the family support, and then you 
said employer; did you not?
    General Blum. Yes, sir.
    Senator Durbin. Could you just say a word or two about 
that?
    General Blum. Well, I talk about a three-legged stool, the 
seat being the National Guard, the Army and Air Guard, but the 
legs that hold that stool up are these three elements: the 
soldiers themselves, the uniformed member; their families, 
because you may enlist soldiers, but you retain the families. 
And frankly, you are not going to have either one if the 
employer does not stay a willing partner. So just like a three-
legged stool, if you pull one leg away the stool is very 
unstable and will fail. That is why I think we need to pay 
particular attention to the employers and the employer-employee 
relationship, the family member relationship, as well as the 
citizen soldier-airman relationship.
    Senator Durbin. Thank you.
    If I am not mistaken, we maintain a program and a web site, 
the Employer Support of Guard and Reserve, ESGR, and we 
acknowledge companies and employers that make up the 
differential in pay for Guard and Reserve. Is this a positive 
element when it comes to recruitment and retention of members 
of the Guard and Reserve?
    General Blum. Of course, sir, of course it is. Any time 
someone--there is enough angst with changing from a civilian to 
a soldier to go in a combat zone or go have separation from 
your family, your loved ones, and your employer, to have added 
to that the concern that you are not going to have your job 
when you get back or you are not going to have employment when 
you get back or you are going to suffer financial ruin while 
you are gone I think was not intended by anyone and probably we 
should address that wherever we can.
    Senator Durbin. So the survey, when they ask for the 
reasons that Guard and reservists do not re-up and are not 
retained, said that family burden was number one, 95 percent. 
Too many activations and deployments, 91 percent. Deployments 
too long, 90 percent. Income loss, 78 percent. Conflict with 
civilian job, 77 percent. So that really kind of tells the 
story as to the retention challenge that we have.
    Now, some members seem to believe that there is a 
resentment among the active military when a Guard or Reserve 
member is receiving this pay differential, meaning that that 
Guard or reservist may be actually getting more money each 
month than the active soldier. Have you heard of this?
    General Blum. I do not actually think that that exists, 
frankly, Senator. There are no two soldiers that ever existed 
or ever will exist that had exactly identical income. I mean, 
you know that some soldiers get chocolate chip cookies from 
their mom, they get their family sends them extra money. That 
does not mean there is angst in the ranks over that.
    It is very, very rare that two soldiers sharing a foxhole 
are going to talk about their income tax returns or how much 
money they make. They are worried about doing their mission and 
defending their Nation.
    Senator Durbin. That is the point that Senator Mikulski and 
I have made in our bill here, because it turns out that 10 
percent of the Guard and Reserve happen to be Federal employees 
and it turns out that the Federal Government is one of the 
few--I should not say one of the few--is one of the major 
employers which does not make up the difference in pay. So we 
have introduced a bill together--this is our third try--to make 
that--do away with that inequity, to make sure that the Federal 
Government makes up that pay differential.
    But I wanted to address the necessity, number one, and the 
most common complaint, that active soldiers would resent it, 
which you have addressed as well. So thank you very much for 
doing that.
    General Blum. Thank you, sir.
    Senator Durbin. General James, you mentioned an unfunded 
need for large aircraft infrared countermeasures. Could you 
tell us a little bit more about that?

                LARGE AIRCRAFT INFRARED COUNTERMEASURES

    General James. The newer equipment that comes on, the C-17s 
and so forth, have built-in infrared countermeasure protection. 
One of our highest priorities is to fund that for our C-5s and 
our C-17s and even the C-130Js I do not believe have that. That 
is why it is at the top of our list. We have such a high 
OPTEMPO there in those airplanes with the two-theater or two 
locations of the conflict that is going on.
    I can give you the exact numbers. I do not know that I have 
what the shortfall is, but I would be more than happy to 
furnish that.
    Senator Durbin. Would you please do that, provide some 
detail for us? I would appreciate that very much.
    [The information follows:]

    The Air National Guard is currently installing Large 
Aircraft Infrared Countermeasures (LAIRCM) on Special Mission 
HC/MC-130s in two of our three Combat Search and Rescue 
Squadrons. We have also made strides in installing LAIRCM on 
our combat delivery C-130s. As Air National Guard (ANG) force 
structure changes, every aircraft we employ and deploy must be 
as survivable as possible. With this philosophy in mind, the 
ANG has invested in excess of $42 million of fiscal years 2004 
and 2005 National Guard and Reserve Equipment Account funding 
on LAIRCOM to modernize our Special Mission/Combat Delivery C-
130 fleet. We have an overall requirement to equip 152 C/HC/MC/
EC-130s with LAIRCM.

    Senator Durbin. Mr. Chairman, I will not use the rest of my 
time, but I would like to take what is remaining and 
acknowledge in the audience here Sergeant Tara Niles, who is 
from the Illinois National Guard, who has been activated, 
served in Iraq, left two children behind with godparents who 
were happy to watch them, and she is now back home in 
Springfield, Illinois, going to school and working at Camp 
Lincoln. I want to thank her and all of the soldiers here for 
their service, particularly the Guard and Reserves that I have 
had a chance to meet and to share some of those experiences 
with.
    Thank you very much, Mr. Chairman.
    Senator Stevens. Thank you very much.
    For the information of the subcommittee, there are 
amendments now pending on the floor that directly impact this 
subcommittee. Senator Inouye has gone to watch the floor for 
us. We will continue here into the next panel.
    Senator Domenici.
    Senator Domenici. Mr. Chairman, I am sorry that we have to 
stay on so long, but some of us have some urgency about our 
questions.
    First, I say to all three of you Generals, I do not believe 
the active military leaders had ever contemplated that we would 
place such burdens on the National Guard and Reserves. As a 
consequence, I believe you are treated as second class 
generals. And I hate to tell you that, but I do.
    For instance, as they talk about in the Pentagon, about the 
new kind of military we are going to have in the future, you 
have heard the Secretary of Defense talk about how it is going 
to be different. I just wonder, maybe you could tell me, 
General Blum, how much input have they asked of you in terms of 
how that new force structure, new military, is going to look 
like under this streamlined, changed military of the future?
    General Blum. Senator Domenici, are we talking about the 
Army or the Air Force?
    Senator Domenici. I do not care. You tell me all of them, 
each one of you.
    General Blum. I do not wait, Senator. I have got a clear 
record. First of all, I do not consider myself nor my two 
colleagues second class in any respect.
    Senator Domenici. Oh, that is all right. I am a Senator; I 
can say what I want. You can say what you like.
    General Blum. We do not often wait to be asked. We have our 
opinions and our inputs. They are not always considered--I 
mean, they are not always accepted, but they are always 
considered, at least at the highest levels. General Jumper on 
the Air side and General Moseley and General Schoomaker and 
General Cody on the Army side, we have their ear. We can get 
our thoughts in to them when we need to.
    The head of the snake, I think, the heads of the two snakes 
are solid. The problem is that there is a whole lot, there is a 
whole lot of snake that pig has to go through in the Pentagon 
before it comes out. So while the head can agree----
    Senator Domenici. You have got it right.
    General Blum [continuing]. The process can take it many, 
many different directions, and often does, and we have to stay 
very vigilant to that to make sure that what the senior leaders 
agree to and accept ends up happening.
    Senator Domenici. I want to clarify the record. I was not 
suggesting that you are second class Generals. You are first 
class Generals.
    General Blum. I did not take it that way, sir. I just want 
to make sure you know that they do not treat us as second 
class. I do not perceive it at all.
    Senator Domenici. Well, let me tell you. The record seems 
to me to reflect that they do, and it seems to me that if they 
ever are going to learn that you cannot have two armies, two 
air forces, and expect them to be ready to fight the same war 
on the same trenches and the same skies, then you cannot have 
different equipment, you cannot have different training, and 
you cannot treat one as a purely citizen group and another as a 
ready army.
    There has got to be more meshing of the two or you are 
going to have the problems we all heard about. You all know the 
problems were there. You had your people going over there, 
especially the Army, with lesser equipment, lesser protection. 
And they got over there and then we found out about it. In 
fact, some of that had to be ascertained by people telling us. 
Defense did not come up here and tell us. We found out kind of 
by freedom of the press, to be honest with us, and military 
people being worried.
    I do not want to argue with you.
    General Blum. No, no, sir.
    Senator Domenici. But you go ahead. If you want to comment 
on that, fine.
    General Blum. I would tell you that what you said is 
entirely true until this last, until this last generation of 
senior leadership in the Army and the Air Force. Quite 
different than anything I have seen in my entire adult life 
before that. I would never have stood before this committee 3 
years ago and said anything other than what you just said. But 
with General Schoomaker's leadership of the Army and Secretary 
Harvey, they are committed to exactly what you just said 
happening.
    Senator Domenici. Are you saying the same thing, General 
James?
    General James. I agree with the Chief on that. I will tell 
you there is a differential in our staffs unlike you may have 
in your staffs. Many of our directorates are led by full 
colonels and their counterpart on the Active component is a 
one-or two-star general. So they have to be very careful about 
the way they present National Guard equities and it takes a lot 
of tact and it takes timing.
    So at the highest level there is no question of how they 
feel and look upon us and how they value us, but when it is 
time to get down to the details and slug it out for what we are 
going to really do here with this force or with this budget or 
with this weapon system, sometimes our people, they are out-
horsepowered.
    Senator Domenici. How about General Schultz?
    General Schultz. Senator, the points you raise about 
equipment inequities were initially existing. We have taken 
those issues on and, with the support of the senior leadership 
in the Army, we have addressed those items of concern and made 
fairly serious progress in the journey here. In some cases 
Guard units are actually receiving equipment ahead of their 
active counterparts.
    Senator Domenici. Look, I have never asked the chairman how 
he felt about this, so I do not know. I understand it is hard, 
that there are two different institutions and it is not always 
that we are going to have the same kind of need to fit as we 
have right now. But we have had two in a row. One is very 
different than the other because of time.
    General Blum. I honestly think it will be more important in 
the future than it is even now, so we have got to get this 
right.
    Senator Domenici. I believe that is right. Look, I am 
talking about the F-16 versus the F-22 and F-35. Right now we 
already know they have fewer of the new ones ordered. We 
understand that. But you are not included in that at the 
offset. You are left out.
    My last question--I know I am out of time, but I want to 
say to all of you I am very worried about the fact that we have 
post-traumatic injuries to a far greater extent in this war 
than we had even in the Vietnam war, and they are real. I want 
you to be sure you look at and urge that there be adequate 
military--adequate doctor help for those that have that kind of 
problem.
    Thank you, Mr. Chairman.
    Senator Stevens. I would agree with the Senator, but we 
have to move on because we have another panel.
    Senator Domenici. Thank you.
    Senator Stevens. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    I join with my colleagues in welcoming Generals Blum, 
Schultz, and James. As the co-chair with Senator Leahy of the 
National Guard Caucus, I share the concerns that Senator 
Domenici has just expressed, particularly when the National 
Guard has 50 percent of the combat force in Iraq and 40 percent 
of the total force. We know that the Guard is being called on 
and we are very much concerned that you are getting short 
shrift.
    Now, progress has been made on the Army side, but let me 
address something--let me just address this to General Blum. I 
continue to hear concerns from the TAGs about the future total 
force strategy of the Air Force. I have two letters. Mr. 
Chairman, I would like to make these part of the record.
    The first one is from Brigadier General Stephen Koper, 
President of the National Guard Association. In that letter, 
addressed to Congressmen Hunter and Skelton, he talks about the 
Air National Guard. But he said, ``Our membership is expressing 
grave concerns about the direction of the future, the future 
total force (FTF) plan, and its immediate negative impact on 
Air Guard force structure. Such concerns include,'' among other 
things, ``the limited role the adjutants general have played in 
developing the FTF plan and the impact these force structure 
reductions will have on Air Guard basing in anticipation of 
BRAC.''
    Major General Ratacrak, the President of the Adjutants 
General Association, in his letter to General Jumper said: ``As 
BRAC draws near, I am becoming increasingly convinced that the 
process has been designed to validate a predetermined view of 
the futile--future total force as defined strictly by the 
active Air Force, without the substantive input of the Air 
National Guard.''
    I apologize, I had a freudian slip. I said ``the futile 
total force.'' I meant ``the future total force,'' because 
there is no substantive input from the National Guard.
    [The information follows:]

                                                    March 17, 2005.
The Honorable Duncan L. Hunter,
Chairman, House Committee on Armed Services, 2120 Rayburn House Office 
        Building, Washington, DC 20515-6035.
The Honorable Ike Skelton,
Ranking Minority Member, House Committee on Armed Services, 2120 
        Rayburn House Office Building, Washington, DC 20515-6035.
    Dear Chairman Hunter and Congressman Skelton: This decade our 
military forces have faced some of the greatest challenges in our 
nation's history. By supporting successful missions in Operation 
Enduring Freedom, Noble Eagle and Operation Iraqi Freedom, while at the 
same time transforming to face the threats of the future, our Air 
National Guard has played a critical role in supporting U.S. strategic 
interests at home and abroad.
    Currently, the Department of the Air Force is developing its 
transformation plan, called Future Total Force (FTF). Over the years, 
the ANG has proven its willingness to transform and evolve. However, 
our membership is expressing grave concerns about the direction of the 
FTF plan and its immediate negative impact on Air Guard force 
structure. Such concerns include: continuation of the Air Sovereignty 
missions; funding to transition personnel from current missions to 
``future missions;'' the limited role that The Adjutants General have 
played in developing the FTF plan; and the impact these force structure 
reductions will have on Air Guard basing in anticipation of BRAC.
    As you and your staff continue holding hearings, NGAUS respectfully 
requests that the House Armed Services Committee conduct a hearing on 
Future Total Force. Should any hearing be scheduled, we respectfully 
request that the National Guard Association of the United States 
(NGAUS) be invited to testify on behalf of the National Guard and its 
membership to outline the Guard perspective in relation to FTF. In 
addition, we offer to coordinate with you and your staff the selection 
of appropriate Adjutants General that could also offer relevant and 
critical testimony.
    The NGAUS recognizes a need for the Air National Guard to remain a 
ready, reliable and relevant component of our total air force 
capability. We also believe it is imperative that any future force 
modernization discussions that impact the Air National Guard involve a 
cooperative and collaborative interaction with the Adjutants General.
            Respectfully,
                                          Stephen M. Koper,
                          Brigadier General, USAF (ret), President.
                                 ______
                                 

        Adjutants General Association of the United States,
                                     Washington, DC, March 9, 2005.
General John P. Jumper,
Chief of Staff, United States Air Force, HQ USAF/CC, 1670 Air Force 
        Pentagon, Washington, D.C. 20330-1670.
    Dear General Jumper: The Adjutants General of the 54 states see the 
USAF transformation strategy known as Future Total Force (FTF) having a 
profound effect on the Air National Guard (ANG). We want to help the 
Air Force shape a strategy and force structure that uses the ANG to its 
full potential. Homeland defense is a critical issue for us as we are 
responsible to our Governors for homeland security matters.
    Adjutant General involvement with the FTF initiative only began 
recently with three Adjutants General being invited to participate on 
the AF/XP sponsored General Officer Steering Committee (GOSC). 
Lieutenant General Steve Wood has actively engaged us since coming on 
board late last year. His focus on open exchange of information is 
refreshing and is setting a course that will benefit all.
    From our initial perspective the FTF initiative seems to focus on 
accelerated reductions of current weapon systems located predominately 
in the Air National Guard and the relocation of ANG units to active 
duty bases. The loss of flying units will be compensated by rolling ANG 
force structure into new missions to sustain its end strength. Issues 
exist that could be very detrimental to the National Guard to the point 
of irreversible deterioration. In particular, we fear the initiative as 
we understand it will cause serious gaps in our capability to defend 
the homeland.
    Our concern compels us to ask you to undertake actions to refine 
and improve the FTF initiative. These proposals are necessary to 
preserve the Air National Guard, ensure defense in depth of the 
homeland, and provide the most lethal and cost effective force in the 
future.
    The Adjutants General can add significant value to Air Force 
modernization initiatives. First, we feel we should be involved with 
developing and vetting options, and be given the opportunity to 
contribute data and analysis to various studies. Through our Adjutants 
General Association of the United States (AGAUS) we can offer valuable 
ideas and critiques in a timely manner that will enhance the FTF 
initiative by making it more palatable to a broader range of interested 
parties.
    Second, the Air Force should thoroughly evaluate the air 
sovereignty mission after receiving USNORTHCOM requirements from which 
to develop a realistic force structure plan for homeland defense. The 
evaluation should consider weapon system dispersion as well as 
lethality and determine more precisely the extent other services will 
support this vital mission.
    Third, we want to work with the Air Force to develop a roadmap to 
2025 that uses proportionality as a key principle for determining roles 
and missions for the Air National Guard. This is not to say that 
current proportionality must be strictly adhered to. But rather, it is 
a starting point for determining the best mix of active and reserve 
component forces for future operations. We believe increasing full time 
strength for key weapon systems in the ANG deserves evaluation. The ANG 
may more effectively support critical Air Expedition Force rotations 
and other vital missions with a different mix of full time and 
traditional Guard personnel in units.
    Fourth, the community basing plan should be expanded immediately to 
include additional sites and different weapon systems for a more 
comprehensive evaluation. The Adjutants General believe very strongly 
that community basing is a key to sustaining the relevant and ready Air 
National Guard which has performed so magnificently in homeland defense 
and contingency missions.
    Fifth, to sustain an effective ANG end strength of approximately 
107,000 the FTF schedule must be adjusted to slow aircraft retirements 
while accelerating the assumption of new missions by the ANG to avoid a 
lengthy gap between mission changes during the transitory period. A gap 
will cause the loss of experienced personnel while impeding our 
transition to the Air Force of the Twenty-first Century.
    Sixth, the ANG should field new Air Force aircraft weapon systems 
in ratios consistent with our contribution to the war fight and 
interspersed throughout each system's fielding plan. The nation will be 
well served by involving the Air National Guard early on during the 
fielding F/A-22, C-17, and F-35 weapon systems. This would also apply 
to the new tanker and other flying systems (such as intra-theater lift) 
as they emerge from development. The Adjutants General can provide the 
Air Force valuable support if given a clear picture showing ANG 
participation throughout weapon system fielding.
    The Adjutants General have an obligation to nurture the rich 
heritage of the Air National Guard and ensure its readiness and 
relevance. We have defined several principles that will guide our 
actions in influencing the make up of the future of the Air Force.
    1. Retain the militia basing concept which connects the Air Force 
to communities dispersed throughout the nation and provides for agile 
and quick responses to dispersed threats;
    2. Leverage the cost efficiencies, capabilities, and community 
support generated by ANG units in the several states by including them 
as an integral part of the Future Total Force structure;
    3. Each state needs a baseline force for homeland defense which 
includes civil engineering, medical, and security forces;
    4. The Air National Guard maintains essential proportions of flying 
missions to nurture and sustain direct connectivity with America's 
communities while supporting the expeditionary Air Force cost 
effectively, captures the extensive aircrew and maintenance experience 
of the Air National Guard;
    5. The nation is well served by a continuing dialog involving the 
Air Force, National Guard Bureau, and the Adjutants General as new 
missions emerge and threats change.
    Our desire is to work with the National Guard Bureau in developing, 
vetting, and implementing initiatives. We provide perspectives from the 
field that when aligned with the programmatic expertise of NGB will 
result in sound courses of action with solid support from the several 
states.
    Sir, we truly understand and appreciate your Herculean efforts to 
transform the greatest Air Force in the World into something even 
better. We only ask that we are allowed to help in the process.
            Respectfully,
                                         David P. Rataczak,
  Major General, AZ ARNG, President, Adjutants General Association.

    Senator Bond. Can you, General Blum, give me your 
assessment of the Guard's role in the development of the future 
total force strategy of the Air Force? And I refer to the input 
of the TAGs from States with significant Air Guard assets.
    General Blum. Sir, we cannot pull in a committee of 54 to 
do that, although we have brought senior members of the Air 
Staff, to include the Air Force Vice Chief, General Moseley 
himself, and General Jumper has actually addressed all of the 
TAGs, the adjutants general, on the future total force.
    The problem is there is not great fidelity on the future 
total force because of exactly the process as you talked--
Quadrennial Defense Review (QDR), BRAC, some other things that 
nobody knows how it is going to shake out yet. So in 
uncertainty there is always discomfort and paranoia.
    I am not ready to say that--I think it bears close watching 
for exactly the reason I said. I cannot have a community-based 
force if we do not have a community base. I think once you lose 
that community base, I cannot think of a place in this country 
where you can open up a new military airport in our lifetime. 
So if you lose that capability, you will never reclaim it.
    I think those things need to be factored in. We have 
engaged with the senior leadership of the Air Force and 
expressed our concerns. We have not been dismissed. They do 
listen to this and they are making adjustments. Now, how it 
will all come out I do not know, but we will watch it very 
closely. And we do have members, representatives, from the 
adjutant generals who are involved in this process, but it is 
clearly the business of the National Guard Bureau to be the 
interface between the Air Force and the States and we will 
discharge our duties.
    Senator Bond. General, I have to--I will say regretfully, 
we are not paranoid. They really are after us. I have heard 
reports about closing of National Guard, Air National Guard 
facilities that I think are absolutely unwarranted in the BRAC 
process and would cause me grave concern about the BRAC process 
if they are not fully engaged.
    I have fought long and hard to get upgraded radars on the 
F-15s because that will make them fully homeland defense 
capable, and I would like to see support for it.
    Let me ask one last thing. Equipment requirements. General, 
can you expand on your pie chart about the Guard equipment 
requirements? What is being done to address the equipment 
shortfalls?
    General Blum. Put up chart 4, please.
    On this part you notice, the part in green are the soldiers 
that are deployed around the world and they are on active duty 
right now in the Army Guard for 18 months. In the Air Guard it 
varies, different times. The average is about 120 days.
    The yellow, the yellow part of the chart, are those that 
are getting ready to replace those in the green sector. The 
part in red is what is available to the Governors of the States 
and territories for homeland defense and support to homeland 
security. We have, as we described earlier, have worked very 
closely with the Governors and the adjutants general to ensure 
that as we call up Army and Air Guard units we leave at least 
50 percent of their capability in the State for command and 
control, maintenance, medical, communications, transportation, 
security, and engineers and other critical skills.
    What I am concerned about is that the Pentagon is very 
willing to resource us adequately, in fact superbly, 
unprecedented equipping of the National Guard for an overseas 
war fight, but when they come home to the Governor of whatever 
State or territory, I do not want them to be without the 
equipment they need to provide the Governor the capabilities 
that that Governor requires in terms of tornadoes, floods, 
hurricanes, or counterterrorist acts or critical infrastructure 
protection missions that may be required in today's 
environment.
    That is where I share some concern that we get adequate 
resources in the red part of that chart.
    Senator Bond. Thank you very much, Mr. Chairman.
    Thank you, Generals.
    Senator Stevens. Thank you. We thank you very much.
    General Blum, I hope we can find some way to deal with the 
problem that was mentioned about this increment of pay that 
people lose when they are called up. We have had to oppose 
those because there is no ceiling. I think there are some 
people that enter the Guard or Reserve when they are in college 
or first starting out in business, and 10 years later they find 
they are making $1 million a year.
    Now, these amendments say we are going to make up the 
difference. In terms of Government employees, of course, there 
is no million dollars a year, but there are people that are 
paid $175,000, $200,000 in specialty pay in various Government 
agencies and they are in the Reserve or Guard. Now, I think 
there ought to be some limit, upper limit, on what that makeup 
is in that gap between the pay of a person in the service and 
the pay that they are getting performing different skills in 
the civilian branch of Government.
    Doctors, psychiatrists, lawyers, a bunch of things, we have 
discretion to pay some people much higher than the normal rate 
of general service.
    So I hope that you will study that and give us some 
recommendations. This has been a bruising fight on this floor 
so far and the amendment that has been passed has no limit. It 
has happened twice before and we have dropped it in conference. 
I do not think that is fair, but I do think that we have to 
have a fair upper limit to what the difference is if we are 
going to pay that automatically when people are called up.
    I hope you will help us find that upper limit. If you can, 
we might come out of this conference with success this year.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you all very much. We appreciate your service and 
your testimony here today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General H Steven Blum
              Questions Submitted by Senator Thad Cochran

                        GUARD MOBILIZATION SITES

    Question. General Blum, as the regular Army continues to transform 
to the modular force and garrison space at home stations become more of 
a premium, the use of National Guard facilities will increase as 
reserve component units are mobilized for deployments. Critical to 
mobilization is having the necessary infrastructure to support all 
aspects of mobilization, especially medical screening and training 
facilities.
    Is the Army providing the necessary funding to ensure that key 
mobilization sites are resources to support units preparing to deploy 
in support of the Global War on Terrorism?
    Answer. The Army continues to provide adequate funds to resource 
mobilization sites to ensure our soldiers are receiving the very best 
training possible prior to being deployed in harms way. Typically, Army 
National Guard mobilization site funding requirements are validated by 
their respective Continental U.S. Army and Forces Command 
representatives. After the requirements have been validated, the 
Continental U.S. Army and Forces Command organizations provide the 
approved funding. As we utilize these sites more in the future, we need 
to consider long term Military Construction investments.
    The Army National Guard programmed $284 million in the Future Years 
Defense Plan that will provide facilities such as barracks, maintenance 
facilities, dining facilities, and unit administrative facilities. 
These programmed projects will directly support our mobilizations 
sites. Moreover, we have worked with the Army to establish an 
Operational Readiness Training Complex model to enable our training and 
deployment capabilities of our mobilization sites. The monies we have 
programmed can be indirectly associated with the Operational Readiness 
Training Complex model.

                      RESERVE SOLDIERS EMPLOYMENT

    Question. General Blum, recently there have been several news 
articles citing examples of employers not allowing reserve soldiers 
coming back from deployment to return to their jobs. This is especially 
troubling in light of the debate about the overuse of the reserve 
component, and the challenges with meeting recruiting and retention 
goals.
    How prevalent of a problem is this, and specifically, how many 
soldiers and airmen are being denied their right to return to their 
jobs?
    Answer. There are not a significant number of soldiers and airmen 
who are being denied their rights to return to their jobs at this time. 
The majority of service members return to their place of employment 
with little or no problem. In calendar year 2004, the Nation called 
76,952 Army National Guard and 33,397 Air National Guard men and women 
to federal active duty. Of these, the National Committee for Employer 
Support of the Guard and Reserve (ESGR) show less that 2,100 with 
employment or reemployment incidents that required mediation (1,500 for 
the Army National Guard and 500 for the Air National Guard). That is 
0.02 percent of our mobilized population. Of that group, only 2 percent 
reported being denied the right to return to work. ESGR resolves such 
problem via its Ombudsman Volunteers. Using education and mediation, 
these volunteers resolve 95 percent of all cases. Those that cannot be 
resolved are referred to the Department of Labor for formal 
investigation.
    ESGR is the Department of Defense's outreach agency whose mission 
is to educated employers about their legal requirements under the 
Uniformed Services Employment and Reemployment Rights Act (USERRA, U.S. 
Code 38, sections 4301-4334). ESGR also provides free ombudsman 
services to our military members and their employers concerning 
employment and reemployment issues.
    Service Members may also seek remediation of possible USERRA 
violations via the Department of Labor (DOL). In its 2004 report to 
congress, DOL reported a total of 440 cases, for all services, 
specifically concerning a refusal to reinstate or reemploy an 
individual following a period of military service.

                                 ______
                                 
       Questions Submitted to Lieutenant General Roger C. Schultz
               Question Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities you believe 
would be more helpful then what you currently have?
    Answer. The PS bonus of $15,000 and the reenlistment bonus of 
$15,000 both are working extremely well. The ARNG PS recruiting mission 
YTD is 99.3 percent and the retention mission is at 106 percent of YTD 
mission.
    The following are new authorities that we believe would be helpful 
in meeting our fiscal year 2006 recruiting and retention mission:
  --Increase Enlistment NPS Bonus authority to equal that of Active 
        Component;
  --Provide the ARNG with an every Soldier a Recruiter referral bonus 
        of $2,500;
  --Provide AC to RC soldiers a one time $15,000 affiliation bonus;
  --Allow RC prior Service soldiers to receive PS Enlistment bonus;
  --Increase MOS conversion bonus from $2,000 to $4,000 and allow 
        concurrent receipt of bonus;
  --Allow the RC to offer a separate quick ship bonus;
  --Allow flexibility to offer multiple combinations of reenlistment 
        bonus;
  --Allow a variable term retention bonus beyond 16 years of service; 
        and
  --Increase Montgomery GI Bill for SELRES to 50 percent of the AC 
        benefit.

                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                         LEFT BEHIND EQUIPMENT

    Question. General Shultz, Mississippi has a proud history of 
contributing to our nation's defense through both the deployment of 
troops and the production of military supplies and equipment. We are 
proud of the 155th Armor Brigade, Mississippi National Guard, which 
deployed to Iraq this past December and January. I understand that many 
reserve component units have redeployed home and left their equipment 
behind for follow-on units.
    Once the 155th Armor Brigade returns from Iraq, will it, along with 
other forces returning home, have the equipment necessary to perform 
future training and missions?
    Answer. The 155th was equipped to deploy with 100 percent of their 
Modified Table of Organization and Equipment (MTOE) requirements as 
well as additional mission required items. Some of that equipment has 
been designated as Stay Behind Equipment (SBE), equipment that will 
remain in theater to assist follow-on reserve or active component units 
is subsequent missions. The SBE typically consists of the following 
equipment: Armored tactical vehicles, newer versions of small arms/
electronics and specified specialty equipment.
    The SBE order from the Department of the Army for the 155th has not 
been published. Once published, the SBE order will articulate the time 
the equipment is expected to remain in theater. Historically, this can 
range from one year to an undisclosed period of time (end of 
hostilities). Assuming the $2.94 billion fiscal year 2006 Army National 
Guard Supplemental is approved, additional items will be fielded to the 
155th Brigade Combat Team in accordance with production and Army 
policies calling for S-3 (approximately 70 percent) at conversion/
employment date and S-1 (approximately 90 percent) at employment date 
plus 24 months. Additional equipment may be funded by other sources.
    Any of that equipment subsequently not deployed (identified as not 
required for the specific mission or available in theater as SBE from 
the unit relieved, such as armored vehicles) was left in CONUS or 
returned from theater without use.
                                 ______
                                 
      Questions Submitted to Lieutenant General Daniel James, III
               Question Submitted by Senator Ted Stevens

                          RECRUITING/RETENTION

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful then what you currently have?
    Answer. The Reserve Component cash bonuses are our most effective 
incentives in today's difficult recruiting and retention environment, 
and the increase in bonus authorities authorized by the Fiscal Year 
2005 National Defense Authorization Act are a big reason for our 
success. However, there are two incentives that we believe could be 
improved to be even more effective. We feel the retraining bonus will 
be critical as we attempt to retain as many members as possible through 
Future Total Force and Base Realignment and Closure. We will be asking 
thousands of members to move and/or retrain and, the current $2,000 
retraining bonus is not a sufficient incentive to ask them to do that. 
We would like to see the retraining bonus increased to $10,000. In 
addition, the reserve affiliation bonus of $50 per month for every 
month remaining on a member's military service obligation, has not 
changed since the late 1980's, while all other incentive programs have 
increased substantially. We would like to see the reserve affiliation 
bonus increased to at least $10,000, to make it a more viable 
recruiting tool for these fully qualified prior service members who 
save us millions in training dollars.

                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                          AIR TRAFFIC CONTROL

    Question. General James, I have been informed that the Air National 
Guard has the critical mission of air traffic control in operational 
theaters. I have also been told that the equipment the air traffic 
controllers' use was developed long before many of them was born. Could 
you describe to this committee the efforts the Air Force is taking to 
modernize tactical air traffic control systems for the Air Force and 
the Air Guard? Is the Air Guard making use of the Mobile Approach 
Control System?
    Answer. The primary Air Force deployable Air Traffic Control 
Systems (ATCALS) are the TPN-19 and the MPN-14K. These systems include 
an airport surveillance radar, precision approach radar and operations 
center. The Active Duty Air Force is currently using the TPN-19 and the 
Air National Guard is using the MPN-14K. The MPN-14K was designed and 
purchased in the late 1950s while the TPN-19 was designed and purchased 
in the early 1970s. Both systems have already exceeded their expected 
life-cycle and are reaching unsupportable levels. The Air Force has an 
on-going acquisition program to replace these systems called the Mobile 
Approach Control System (MACS).
    The Air Force has defined a requirement to purchase 18 systems for 
both the Active Duty and Air National Guard. To date, two test units 
and three pre-production systems have been procured. These systems will 
support developmental testing at Duke Field, Florida this summer and 
operational testing in early 2006 at Shaw AFB, South Carolina. 
Additionally, these pre-production units will support training for 
maintenance personnel and air traffic control operators. The remaining 
13 MACS systems will be procured after completion of the operational 
testing. Using these systems, an initial operational capability is 
planned in 2007.
    Funding for the remaining 13 systems was not within the Air Force 
fiscal year 2006 budget. However, the high operations tempo and 
increased use of tactical radar systems to support Operation Enduring 
Freedom and Iraqi Freedom resulted in MACS being elevated to number 
four on the Air Force's fiscal year 2006 Unfunded Priority List. The 
current shortfall is $121 million.

                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                           FUTURE TOTAL FORCE

    Question. General James, Future Total Force (FTF), as currently 
proposed by the Air Force, presents a significant challenge to our 
citizen-airmen because it disproportionably impacts the Air National 
Guard. Currently, the Air National Guard maintains at least one flying 
unit in every state. This structure is a vital component to homeland 
defense. How do you propose securing our homeland or responding to a 
major disaster when no units are available to our Governors because FTF 
has removed them?
    Answer. We recognize the fact that a preponderance of legacy 
aircraft reside in the Air National Guard (ANG) and are now working 
with the Air Force to ensure that the Future Total Force vision does 
not simply mean taking flying missions away from the Air National Guard 
without a viable, meaningful mission to replace it whether it is 
existing legacy aircraft or new emerging missions. We are making every 
effort to work with the Air Force to ensure that we ``bridge the gap'' 
between our divestiture of legacy systems and our stand-up of these new 
and emerging missions.
    In fact, we want to ensure that we retain one of our most valuable 
assets--our high experience base. There will be some changes, but we 
will continue to work with the Air Force to make sure that we minimize 
the loss of the valuable experience resident in the Air National Guard. 
From our perspective, one of the most exciting changes underway is the 
``Community Basing'' concept test in Vermont recently approved for 
implementation by the CSAF and SECAF.
    The Community Basing concept should provide us with a model that we 
can expand to other guard locations. By placing active duty personnel 
at Air National Guard locations, we can take full advantage of the 
experience that resides in the Air Guard and increase our utilization 
across the entire Total Force. As this concept matures, we will be able 
to maintain a dispersion of our ANG forces with their inherent 
Expeditionary Combat Support capability that can be dual-used for 
defense of the homeland and to meet Combatant Commander requirements. 
Our role in defense of the homeland doesn't include just Air 
Sovereignty Alert; we maintain a vast skills base in Expeditionary 
Medical Support to Chemical Biological Radiological Nuclear and High-
yield Explosives Enhanced Response Force Packages (CERFPs), Civil 
Support Teams, secure communications, fire fighting, etc. The Community 
Basing concept is a Future Total Force vehicle that will allow us to 
keep these dual-use skills where they are needed.
    Question. Under the Future Total Force plan, there appears to be a 
significant time lapse between when airframes are removed from a unit, 
and when that same unit would receive a follow-on mission. What do you 
propose to do with those airmen in that timeframe? How are you working 
with the Air Force to solve this problem?
    Answer. The Air National Guard (ANG) agrees that the need exists to 
modernize our force structure and bring online new and emerging 
missions. We are making every effort to work with the Air Force to 
ensure that we ``bridge the gap'' between our divestiture of legacy 
systems and our stand-up of these new and emerging missions. Our 
greatest concern, as you have noted, is ending up in a position where 
we have transferred out of a system prematurely, thereby losing our 
most valuable asset--our experienced guardsmen. As we move forward we 
will continue to keep a watchful eye on the training pipelines for 
these new roles and ensure our guardsmen have adequate access to 
training. In addition, we are working with the Air Force to identify 
adequate resourcing for these new and emerging mission areas. We will 
make every effort to ensure our future guardsmen are equipped and 
trained for their new role.
    Because we await the basing decisions of BRAC 2005, we cannot 
predict with any certainty which units will get which missions, but as 
soon as the BRAC announcements are made, please be assured that the Air 
National Guard will work with the Air Force to make any ANG unit 
transition, if deemed necessary, as smooth as possible.

                              RECRUITMENT

    Question. Recruitment for the National Guard is down. Would you 
agree that removing units from states, therefore forcing Guardsmen to 
travel long distances for drill weekends, will only hurt recruitment? 
Do you have any plan as to how you will combat this problem?
    Answer. Yes, recruiting is currently down in the Air National 
Guard, specifically Non-prior service (NPS) recruiting.
    We do understand that removing units from states will not only 
affect recruiting, but retention as well. As we transition through 
Future Total Force and Base Realignment and Closure, we will be asking 
our members to move, retrain into another career field, or leave 
earlier than expected. We do anticipate some unexpected losses, thus 
having to recruit to these losses. However, we must move forward with 
these transitions to new missions to not only remain relevant, but to 
also support the war fighter of the future.
    Our plan to combat this potential problem is to use all the 
personnel force management tools available, to include incentives, 
transition authorities, and training opportunities. Additionally, 
leadership will undoubtedly play a large role in the transition to new 
missions. We will continue to take great care of our members, as we 
have in the past. We have always had one of the best retention rates 
and plan to keep it that way.

                           FUTURE TOTAL FORCE

    Question. It is my understanding that the Guard will lose 60 
percent of their airframes due to the newer F-22 and JSF coming on-
line. In the past, both the Air Force and Guard leadership have stated 
that due to FTF, end strength won't be reduced. However, if there are 
fewer planes, and therefore less flight time for the same amount of 
Guard personnel, what will these Guardsmen being doing? Do you really 
believe a trained pilot or maintainer would happily take a desk job?
    Answer. We recognize the fact that a preponderance of legacy 
aircraft reside in the Air National Guard (ANG) and are now working 
with the Air Force to ensure that the Future Total Force vision does 
not simply mean taking flying missions away from the Air National Guard 
without a viable, meaningful mission to replace it. As previously 
stated, we are making every effort to work with the Air Force to ensure 
that we ``bridge the gap'' between our divestiture of legacy systems 
and our stand-up of these new and emerging missions. As we move forward 
we need to continue to keep a watchful eye on the training pipelines 
for these new roles and ensure our guardsmen have adequate access to 
training. In addition, we are working with the Air Force to identify 
adequate resourcing for these new and emerging mission areas. Through 
the addition of new and emerging missions, as well as, the increased 
crew ratios and new organizational constructs, we believe all of our 
guardsmen will be key players in relevant missions well into the 
future.
    To remain a key part of the Air Expeditionary Force and provide for 
the Air Defense of the Homeland, it will be necessary for the United 
States Air Force to continue cascading existing modern aircraft and 
ensure the Air National Guard is also participant in new aircraft.
    There will be some changes, but we will continue to work with the 
Air Force to make sure that we minimize the loss of the valuable 
experience resident in the Air National Guard. From our perspective, 
one of the most exciting changes underway is the ``Community Basing'' 
concept test in Vermont recently approved for implementation by the 
CSAF and SECAF.
    The Community Basing concept should provide us with a model that we 
can expand to other guard locations. By placing active duty personnel 
at Air National Guard locations, we can take full advantage of the 
experience that resides in the Air Guard and increase our utilization 
across the entire Total Force.

                                RESERVES

STATEMENT OF LIEUTENANT GENERAL JAMES R. HELMLY, CHIEF 
            AND COMMANDER, ARMY RESERVES, UNITED STATES 
            ARMY
    Senator Stevens. Let us now hear from the commanders of the 
Reserve forces: Lieutenant General James Helmly, Chief of the 
Army Reserve; Vice Admiral John Cotton, the Chief of the Naval 
Reserve; General Dennis McCarthy, Commander of the Marine Force 
Reserve; and Lieutenant General John Bradley, Chief of the Air 
Force Reserve.
    We welcome you, gentlemen. General Bradley, you are making 
your first appearance before the subcommittee. We welcome you 
and look forward to hearing from you. We also acknowledge, 
General McCarthy, that this is your last statement before us. I 
understand you have had 38 years in the Marine Corps and we 
wish you the best for the future.
    I must say to you, you have seen the subcommittee has sort 
of disappeared. They are on the floor and there are several 
amendments pending, as I have said before, that affect this 
panel and this hearing. But I do wish to have your statements.
    By the way, all the statements that are presented today by 
the general officers will appear in the record as though read.
    I welcome whatever statements you all would like to make 
here this morning. I do not know whether any of my colleagues 
will come back. I may be called to the floor to vote before you 
are finished. But let me ask, who will open this? General 
Helmly.
    General Helmly. Sir, the Army is the senior service. We 
will be happy to oblige.
    Sir, I am Ron Helmly. I am an American soldier and it is 
with great professional pride and personal humility that I come 
before you today to discuss the posture of our Army Reserve 
with my fellow chiefs of Reserve components. Let me state first 
that I am proud to be in their company as well.
    One thing. While we are, as was noted earlier, 
institutionally charged in law separately, funded separately, 
and we do different things for our services, the facts are that 
we are blessed with an exceptionally strong joint team, not 
only across the components but also across the services. So it 
is a distinct privilege for me to serve with these gentlemen to 
my left.
    I am also privileged this morning to introduce two of our 
soldiers: Captain Damon A. Garner and Sergeant First Class 
James J. Martin. They represent the centerpiece of our 
formation across all components of our services, our people, 
our uniformed members and in turn their families, and our 
civilian employees.

                           PREPARED STATEMENT

    I look forward to your questions during the course of the 
hearing. Thank you for allowing us to be with you this morning.
    [The statement follows:]

        Prepared Statement of Lieutenant General James R. Helmly

    The Purpose of the Army Reserve ``. . . to provide trained units 
and qualified persons available for active duty in the armed forces, in 
time of war or national emergency, and at such other times as the 
national security may require, to fill the needs of the armed forces 
whenever more units and persons are needed than are in the regular 
components.''----Title 10 USC, subsection 10102
    ``. . . The Army isn't just an ordinary institution, it's a great 
institution with an unparalleled set of enduring core values, a long, 
rich tradition, and a demonstrated ability to change and adapt to new 
situations . . . We must . . . develop a future force that is better 
able to meet the challenge of our security environment by transforming 
the way the Army fights and the way it does business . . . We will keep 
the best of the past, while transforming to be better able to meet the 
challenge of the future.''----Secretary of the Army Francis J. Harvey, 
Welcome Ceremony, December 6, 2004

                  RECOGNIZING THE NECESSITY FOR CHANGE

Dual Missions for Citizen-Warriors
    We are your Army Reserve. We are waging two battles simultaneously. 
First, we are 205,000 Citizen-Soldiers, serving with our Army at war, 
an integral and complementary part of our Army's capabilities, 
decisively engaged with the Army in joint and expeditionary operations 
around the world. In all, about 130,000 Army Reserve Soldiers have 
served on active duty since 2001, waging the Global War on Terror, and 
deploying in support of Operations Noble Eagle, Enduring Freedom, and 
Iraqi Freedom. We are an integral component of the world's best army, 
complementing the joint force with skill-rich capabilities. 
Simultaneously, we are an Army Reserve decisively engaged in the 
process of change, transforming itself to better meet the challenges of 
the 21st century and beyond. We are reinventing ourselves as Warriors 
even as we fight the war. The change is essential and profound, of a 
scope unprecedented in our history.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

A Smaller Army: an Army Reserve Refocusing
    After nearly 50 years of Cold War and a victory, our Armed Forces 
were reduced in size--our active duty Armed Forces by 33 percent; our 
Army Reserve force by 36 percent. Throughout these reductions, The Army 
essentially remained a smaller version of its Cold-War self, still 
oriented on large-scale, maneuver warfare appropriate to a campaign in 
the Fulda Gap and to Armageddon on the plains of Germany. Post-Cold War 
campaigns taught us that the wars of the 21st century would be a 
different item altogether. Future, regional conflicts would not be 
fought on open plains, by superpowers' massed armored formations, but 
by smaller units maneuvering their way though devastated urban areas 
and congested villages of the third world. Local warlords and strongmen 
with private militias would replace regular forces as adversaries. 
Speed, mobility, agility, and the correlation of forces became 
ascendant military virtues. An expeditionary force (Active and Reserve) 
would be the weapon of necessity to fight our country's battles, while 
essentially retaining campaign qualities. The roles of intelligence, 
special operations, psychological operations, and civil affairs forces 
were moving to center stage and beginning to expand and proliferate. 
Moreover, the fact that after Operations Desert Shield/Storm, Reserve 
component support had leveled off and was maintaining a steady-state of 
about 12.5 million mandays per year (up from an average of less than a 
million mandays per year in the mid-eighties), raised some very 
interesting issues about overall force balance for Total Force 
planners. Things were changing profoundly, indeed.
    During this period, the Army Reserve, reacting to these reductions 
realigned its internal command and control structure. Smaller commands 
were folded into one another wherever possible to increase command 
efficiency and reduce the size of the force structure. Command 
boundaries were redrawn and aligned with existing federal 
administrative regions to improve emergency planning, coordination, and 
response. Economies of scale and focus were achieved, while enhancing 
responsiveness and flexibility. All of this took place before September 
11, 2001. Then the world changed.

Filled With a Terrible Resolve
    In the wake of the attacks of September 11th, came the Global War 
on Terror, and Operations Enduring Eagle, Enduring Freedom, and Iraqi 
Freedom. The reduced Army and its smaller Reserve components were at 
war, and the system was being stressed. The need to change radically 
the operational paradigms of the Army and its Reserve components became 
ever more apparent. The Army leadership embarked on an ambitious and 
far-reaching program of change intended to redefine, realign, 
rebalance, and refocus the force to meet the new realities of the 21st 
century and beyond. The focus and expectations had changed because the 
realities of war had changed.
    In a time of war when there were no secure rear areas, the Army's 
Chief of Staff declared that every Soldier would be a rifleman, a 
Warrior. The twenty-first century Reserve Soldier would become a new 
model Citizen-Warrior, who, though he would remain a citizen first and 
foremost, would always be a Warrior. Operations Enduring Freedom and 
Iraqi Freedom tested the mettle of these Warriors.
    At the same time, long-accepted Cold-War planning assumptions and 
expectations concerning duration of operations required continuous 
adjustment and recalculation to accommodate a period in which offensive 
operations had widely ceased, but in which counter-insurgency, combat, 
pacification and stability intermeshed in high tempo. Rotation 
timetables and troop levels were subject to frequent adjustments. 
Predictability was becoming a morale issue, and the potential adequacy 
of available troop levels was also being questioned in light of 
foreseen and developing strength management shortfalls. The problem was 
institutional.
    The management problems that were emerging were clearly tied to 
obsolete, Cold-War models, based upon legacy force structure, personnel 
management and policy, and operational responses to unconventional and 
asymmetrical military threats. The key to meeting this challenge would 
have to be the development of a coherent and integrated plan that would 
change Army Reserve force structure, manpower planning training, 
equipping, and employment policies, and merge the results into an 
entirely new approach to future combat operations. Transformation and 
change were recognized not as processes separate from fighting the war 
on terror, but as necessary preconditions to successfully waging the 
war. Change became a strategic imperative.

                       EMBRACING PROFOUND CHANGE

A Catalyst for Change
    The Federal Reserve Restructuring Initiative (FRRI).--In 2003, the 
Army Reserve, having assessed its organization and many of its legacy 
management policies, began implementing the FRRI, an integrated 
structural and manpower reorganization program that would realign force 
structure, and focus assets, resources, and policies on improving 
wartime readiness rather than peacetime, organizational-support 
missions. The project was an ambitious one that sought to remedy a 
hollow force and its inherent lack of readiness; build rotational depth 
into the force; create a command and control system that produced 
active duty-ready Soldiers and units; and established Soldier lifecycle 
management. It realigned support commands to focus their efforts on 
mobilization readiness rather than peacetime operations. It introduced 
a Reserve human resources lifecycle management system that offered 
personalized, centralized management, scheduled professional 
development education, facilitated assignments among all portions of 
the Selected Reserve. It developed leaders, and fully manned and 
resourced the Reserve structure. In sum, the FRRI prepared the way for 
many personnel and force management features that support change and 
the Army Reserve Expeditionary Force (AREF).

Mobilization Issues
    One other issue that the FRRI addressed was the mobilization 
system. During the Cold War, mobilized Army Reserve units were 
typically sequenced to flow in a prescribed order at a modest readiness 
level. Preparation and qualification time were built into an alert-
mobilize-train-deploy model, that was linear and rigidly sequential in 
nature. This system protected unit integrity and presupposed extensive 
post-mobilization training and that unit sets of mission-essential 
equipment would also be issued after mobilization. The old system also 
provided predictability in the process and a minimum of 30+ days from 
alert to mobilization. Partial mobilization authority allowed for a 
full year or more of employment in theater.
    During the Bosnia and Kosovo period, Presidential Selected Reserve 
call-up authority was used to call up smaller numbers of Soldiers in 
accordance with the old model. However, because total Army Reserve 
requirements were relatively modest, we did not reach deep into the 
force and exhaust any one set of skill capabilities. The old system 
held up--for the time being.

Even as We Speak
    Current mobilization practice (the new model) is built around 
combatant commanders' requests for forces (RFF) and deployment orders 
(DEPORDs). Typically RFFs could consist of as little as one Soldier or 
range up to an entire unit. (Fifty-two percent of the Army Reserve's 
mobilizations under OEF and OIF have been for 6 Soldiers or less.) 
Typically, multiple RFFs are made and each element is placed on alert. 
Some have received short-fused DEPORDs in as few as a couple of days, 
while other elements have been left on alert awaiting orders for 
months. There has been little predictability in the process as required 
forces have been deployed from virtually anywhere on our troop list. A 
much higher deployment criterion was regularly called for, and this 
required the Army Reserve to perform extensive reassignment of Soldiers 
and realignment of equipment. Today, on average, 35 percent of the 
Soldiers in a deploying unit are reassigned from elsewhere. This has 
presented us with an extremely difficult challenge--manage the current 
mobilization process to keep it from breaking the readiness of not-yet-
alerted units. These remaining units will be needed later in the 
warfight and, if ``cherry-picked,'' will not be able to reach 
deployment standards themselves without additional personnel 
reassignments.

                     TOWARD AN EXPEDITIONARY FUTURE

The Army Reserve Rotational Concept and the AREF
    The centerpiece of the Army Reserve's change to the future is its 
expeditionary force packages, an integrated rotational model that grows 
out of the Army's efforts to transform itself and restructure its 
forces to remain relevant and responsive in an era of uncertainty and 
change.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Army Reserve Expeditionary Force (AREF) synchronizes Army 
Reserve structures, programs, and operations to sustain responsive, 
effective and available support of the Army mission. The AREF is a 
major institutional response to the changing nature of war, and a 
significant departure from historical Army mobilization and management 
models that had not contemplated sustained Reserve deployments as an 
essential feature of military campaigns. It supports the Army's concept 
of modularity, and the brigade combat teams that are organized under 
that concept to be more readily deployable and more capable of meeting 
combatant commanders' needs. The AREF is intended to make the Army 
Reserve's provision of campaign quality combat support and combat 
service support forces to the combatant commanders more sustainable.

AREF: the Lynchpin of Army Reserve Readiness
    In August 2003, the Army Reserve, building upon the Federal Reserve 
Restructuring Initiative, and Active component expeditionary 
structures, began to refine and implement a complementary expeditionary 
support force concept. The Army Reserve Expeditionary Force (AREF), 
which itself reflects and complements Active component management 
models, provides available and ready Army Reserve Soldiers, and 
synchronizes Army Reserve equipping and training cycles to develop and 
sustain the readiness of Reserve component forces required to support 
Active Army formations, readiness, and operations.
    The Global War on Terror was as much as any other single factor, 
responsible for the development of the Army's expeditionary force 
concept and its Army Reserve counterpart, the AREF. The protracted 
nature of the GWOT as well as the heavy investment in equipment 
required to carry it out, mandated that certain planning factors had to 
be addressed for the long term if the war on terror was to be waged 
successfully. The expeditionary force concept is a solution to that 
problem. It allows a force of limited size to sustain a campaign for a 
long, if not indefinite period, by cycling its limited, though 
renewable, assets and resources through a synchronized, progressive, 
and focused schedule of deployments, engagements, and regeneration, 
refit, and retraining to achieve serial, selective readiness.
    When we speak of assets and resources, we mean the personnel, 
equipment, and training needed for units to be campaign-ready when 
required for a predetermined period. In this case, we mean an 
institutional goal of units capable of deploying to the theater of 
operations for 9 months on 120 hours' notice every 5 years. We must 
generate the force; equip the force; and train the force to achieve 
adequate campaign readiness. We are focusing our efforts and assets on 
these areas in turn as the constituent units of the AREF move through 
their service cycles.
    The Army Reserve will provide units supporting Army Expeditionary 
Force Packages (AREP), consisting of trained and progressively 
mobilization-ready forces. The first two expeditionary packages (AREP) 
are expected to be ready for deployment in the fall of 2005. Army 
Reserve expeditionary packages will contain a number of units, each of 
which will move through a progressive readiness cycle. In a steady 
state, each Army Reserve expeditionary package has a planned activation 
period of 270 days to capitalize on the Presidential Reserve call-up 
with 6-7 months' ``boots on the ground.'' The goal is a package 
rotation of one deployment in five years. Our analysis indicates that 
single-package availability to the combatant commands is sustainable 
over an indefinite period of time. In a surge state, the Army Reserve 
can make available up to 4 packages (roughly 40 percent of our force) 
for a limited period. Based on surveys from both in-theater and 
recently returned Soldiers, the Army Reserve believes this new strategy 
is sustainable over the long term. ``Transformation and change were 
recognized not as processes separate from fighting the war on terror, 
but as necessary preconditions to successfully waging the war.''
    The benefits of these new training and equipping strategies to the 
Army are many. Most notably, they allow the Army Reserve to provide 
fully trained and equipped units and Soldiers, while reducing the need 
to reassign personnel and equipment upon receipt of mobilization 
orders. These strategies also position the Army Reserve for 
transformation to support the modular force structure of the Army.

                          GENERATING THE FORCE

The New Force
    The all-volunteer Army is required by its nature to constantly 
regenerate itself quantitatively and qualitatively if it is to survive. 
As with any living entity, it must change to accommodate external 
forces and events that impinge upon it and its mission. In the face of 
external change, the Army Reserve is restructuring its forces and 
rebalancing its skill inventories to support the Army Reserve 
Expeditionary Force. It also seeks to provide sustainability and 
predictability in mobilization and utilization of Reserve forces (while 
avoiding wholesale cross-leveling and its inevitable results). At the 
same time, we want to improve management efficiency, and focus training 
on skills and specialties required by the combatant commanders. These 
force-generation changes mirror similar major initiatives throughout 
the rest of the Army. Because they are being pursued concurrently while 
we are at war, they are complex, intricate, time-consuming, and 
dynamic; but once completed, they will enable us to remain engaged as 
an integral, complementary, participant in an expeditionary army with 
campaign qualities. As we noted earlier, they are an essential 
precondition to winning the war on terror.

Restructuring the Force
    Significant changes originally undertaken as a part of the Federal 
Reserve Restructuring Initiative remain central to the Army Reserve's 
strategic vision for regenerating and transforming its command and 
control force structure. In keeping with the National Defense Strategy, 
the National Military Strategy, OSD's comprehensive review of Reserve 
Component Contributions to National Defense, and the strategic global 
military environment, these changes provide the basis and rationale for 
moving from the older Army Reserve regional support commands, to 
operationally deployable commands. Peacetime command and control has 
been replaced with wartime readiness.

Optimizing the Force
    The Army Reserve's Citizen-Soldiers have been continuously 
mobilized since 1995. Prior to September 11th, the annual manday usage 
for the Reserve components had leveled off at a steady state of about 
12.5 million per year (the equivalent of more that two traditional Army 
divisions). From the very beginning of the Global War on Terror, we 
have known that it would be a long war that had to be sustainable in 
order to be won. Because many of our military formations were 
misaligned to meet the current threat, our legacy force structure was 
being stressed in ways that we had not anticipated by missions that we 
had not contemplated (or if we did envision them, we did not foresee 
the degree and frequency to which they now occurred). This was 
particularly true in some military specialties that were assigned 
entirely or nearly so to the Reserve components. Military police, 
transportation, petroleum and water distribution, civil affairs and 
psychological operations units were among those finding themselves 
spread thin by heavier-than-anticipated demands for their specialized 
support services. They had been aligned for a different war than we 
were now fighting, a war based on a whole other set of operational 
assumptions that were no longer useful and functional. As a result, 
these units were experiencing sufficient stress to potentially 
challenge our ability to sustain the long push needed to bring the 
second Gulf War and the Global War on Terror to successful conclusions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Based upon an analysis ordered by the Secretary of Defense, the 
military services undertook a comprehensive assessment of their forces 
and components, seeking ways to relieve the stress on certain high-
demand-low-density units, particularly those that are found primarily 
in the Reserve components. ``Optimizing'' is intended to refocus Total 
Army assets on current and emerging missions. It will allow us to trim 
away low-demand force structure and convert it to directly usable 
forces to meet missions that would otherwise require more frequent 
repetitive mobilizations and deployments. More than 100,000 Active, 
Army National Guard, and Army Reserve spaces have been earmarked for 
restructuring and in some cases elimination between 2004 and 2011 as 
Cold-War over-structure. Specifically, the intent of optimizing is to
  --Develop a flexible, modular force structure with a proper force mix 
        and depth to sustain homeland defense, major combat operations, 
        smaller-scale contingencies, stability operations, and other 
        requirements of our defense strategy.
  --Optimize the Army's ability to respond with a predominantly AC 
        force within the first 15 days of an operation and ensure 
        sufficient AC-RC force structure depth to sustain and support 
        both operational rotations and contingencies.
  --Develop plans to fully man Active and Reserve component units and 
        improve the readiness of all our formations.
  --Resource high-demand unit requirements by eliminating less-utilized 
        force structure and capabilities.
    Optimizing paves the path to modularity, stability, and 
predictability. It successfully regenerates and restructures the force, 
creating a flexible, modular Army Reserve that provides stability and 
predictability for our Soldiers, their families, communities and 
employers. This initiative will result in a rapid and responsive, 
campaign-quality Army, while maintaining the depth necessary to meet 
any threat across the full spectrum of conflict. We will eliminate 
unnecessary Cold-War over-structure to pay the bill; there will be no 
reduction in the number of Soldiers. Sustained operations will be the 
norm for the future, so we must optimize our capabilities to meet this 
reality.
    Our formations must be relevant to the defense and military 
strategies--modular, interoperable, and agile. They will optimize our 
capabilities and sustainability by expanding in specialties that are 
most in demand. We remain convinced that manning our forces at 100 
percent will increase readiness and reduce turbulence for Soldiers and 
their units. We further believe that building rotational-based, modular 
force packages will provide predictability and sustainability for 
Soldiers in the Army Reserve.

The Army Modular Force
    Closely aligned to these force structure changes is the issue of 
the Army Modular Force. The Army has historically favored mobilizing 
its assets as discrete units. This practice helps ensure unit 
efficiency and morale as well as effectiveness by allowing Soldiers who 
have trained and worked together to be mobilized and to serve together. 
One of the lessons of the campaigns of the last 15 years is that our 
traditional NATO/Cold-War divisional structure is no longer optimal for 
the nature of the wars we are now fighting. Expeditionary formations 
must be smaller, more adaptable, and provide combatant commanders 
greater flexibility when they task organize their forces to meet 
emerging threats and evolving situations. The intent is to develop 
interchangeable units (modules) that can be assigned with a minimum of 
cross-leveling of assets, across a spectrum of task-organized forces in 
what the Army calls its ``plug and play'' mode. All of the components 
of the Army share this organizational imperative. The Army Reserve is 
incorporating this principle in its restructuring and rebalancing 
initiatives, and has allocated 30,000 spaces to support modularization 
of its force.

                  FORCE GENERATION MANAGEMENT PROGRAMS

The Test
    When we discuss ``generating the force,'' we address issues that 
range from recruiting and retention and the tools associated with those 
functions, to the broader topic of human resource management and its 
supporting programs and policies. Ultimately, the issue is people--
attracting, retaining, and managing the best, most motivated and 
qualified people and Soldiers we can to make up our Army and its Army 
Reserve.
    The Global War on Terror is the first real test of our all-
volunteer force. It will sorely try the soul of our Armed Forces and 
our ability to recruit, retain, and manage the human resources we need 
to defend ourselves and our interests over time.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Recruiting and Retention
    The Army Reserve has been working very hard to meet its programmed 
manpower goals. The challenges that we face in this area have caused us 
to reconsider our historic approach to manpower recruiting and 
management. We recognized the need to take more active steps toward 
meeting our Soldiers' needs and structuring their careers. While our 
level of success in this endeavor remains to be seen, the array of 
initiatives and incentives to service that we have developed with the 
help of the Army and the Congress bodes well for the future. Among 
these initiatives are the following:
  --Expanded Recruiting Force--we have reassigned 734 more Active Guard 
        and Reserve (AGR) NCOs to the USAR recruiting force. This 
        brings our recruiting force total to nearly 1,800.
  --Incentives--During the preparation of the fiscal year 2005 National 
        Defense Authorization Act, we worked closely with members of 
        the congressional oversight committees to improve the 
        attractiveness of the Selective Reserve Incentive Program, 
        enhance prior-service enlistment and reenlistment bonuses, and 
        establish a $6,000 officer accession bonus.
  --For our own part, we have moved aggressively to
    --Realign Individual Ready Reserve and troop program unit mission 
            responsibilities to increase retention.
    --Place 49 recruiting NCOs at transition points to work with 
            Soldiers leaving the Active Army and help them find units 
            to continue serving the nation.
    --Resource the start-up costs for the 734 new AGR recruiters.
    --Realign funding to support increased bonuses and program 
            enhancements.
    --Increase funding support for national and local advertising.

Officer Recruiting
    Currently, Army Reserve troop program units reflect a shortage of 
company grade officers. The Army is taking the following actions to 
remedy this shortfall:
  --We have increased officer accessions into the Army Reserve. U.S. 
        Army Cadet Command now has a formal mission for Reserve 
        Officers Training Corps (ROTC) for 670 cadets a year. In 
        February 2005, we also implemented the officer accession and 
        affiliation bonuses that were authorized in the fiscal year 
        2005 National Defense Authorization Act (NDAA). These tools 
        will enable us to attract more officers to serve in the Army 
        Reserve and will help us with our accession mission.
  --We have implemented the Army Reserve Green to Gold pilot program 
        and plans are being made for its expansion. The Green to Gold 
        program, which began at the University of Pittsburgh and now 
        has been expanded to six universities, is managed by the 80th 
        War Division (institutional training). Army Reserve-wide there 
        are approximately 35,000 enlisted service members who meet 
        minimum requirements for appointment as commissioned officers.
  --Active component and National Guard officer candidate schools 
        remain a strong venue for appointment of company grade 
        officers.
  --Direct appointment remains a strong commissioning source.
  --The Army has also implemented several initiatives that will greatly 
        improve the retention of our junior officers. Some of the 
        initiatives include: (1) We've increased the number of officer 
        basic course training seats and are reducing the time it takes 
        for a reserve officer to get to training; (2) we are now 
        assigning newly commissioned officers directly to a troop unit 
        rather than to the Individual Ready Reserve; (3) we've 
        streamlined promotions to first lieutenant and changed 
        promotion policy for centralized promotion boards. These 
        changes will enable us to increase retention while improving 
        readiness.

Medical Officer Recruiting
    The Army Medical Department (AMEDD) continues to be mindful of the 
challenges to the recruiting of medical professionals. We have taken 
active steps to address challenges and will continue to monitor these 
numbers to determine if additional changes are required. One of the 
most frequently cited barriers to effective AMEDD recruiting is 
repeated mobilizations. To address this we have implemented the 90-day 
boots-on-the-ground program for many critical, hard-to-recruit medical 
positions This change, which allows shorter deployments, was developed 
from input from our Reserve component AMEDD personnel, and today we 
believe it is successful. However, we will continue to monitor these 
types of challenges to ensure we maintain a ready force and will 
continue to work with AMEDD recruiters to develop initiatives tailored 
to meet current and emerging requirements.

Individual Augmentation Program
    One of the significant force-generation challenges the Army Reserve 
faces is the large number of taskings to provide the Army with 
individual Soldiers, or small, nontask-organized groups of individuals 
to fill specific individual mobilization requirements. To fill these 
requests, the Army Reserve has typically had to mobilize groups of six 
or less Soldiers, making personnel tracking and accountability 
extremely difficult. To re-engineer and streamline the individual 
mobilization process and improve accountability, we established the 
United States Army Reserve Command Augmentation Unit (UAU) as a holding 
element for individual mobilized Soldiers.
    Soldiers living in areas without a unit that supports their MOS or 
grade may be assigned to the UAU and attached to a troop unit near 
their home of record for training. Individual Augmentees may also 
support force generation requirements by being temporarily attached to 
fill critical MOS/grade shortfalls in mobilizing Army Reserve units.
    Currently there are more than 7,500 Army Reserve Soldiers 
registered in the IA Program Volunteer database.
    Since October 2003, the IA Program has provided approximately 1,200 
volunteers to fill individual augmentee mobilizations, replacement 
operations, World-wide Individual Augmentee System requirements, or be 
cross-leveled to fill critical military occupational specialties in 
deploying units.

Full-Time Support
    The Army Reserve is a full partner in Army transformation, the 
Global War on Terror, and support for ongoing strategic operations in 
Iraq and other parts of the world. Full-time support (FTS) levels 
directly affect all facets of force generation and unit readiness--
personnel, training, and equipment--by providing the core expertise and 
continuity required to effectively prepare for and efficiently 
transition to war. The Congress has long recognized that adequate 
levels of full-time support, both Active Guard and Reserve (AGR) and 
military technicians (MILTECHs), are essential for units to attain and 
maintain the heightened levels of mobilization readiness demanded the 
Global War on Terror and ongoing strategic operations.
    The current FTS ramps for AGRs and MILTECHs, established in January 
2001 by the Army, in cooperation with the Army Reserve and the Army 
National Guard, were designed to gradually achieve minimum essential 
resource levels (73 percent of requirements) in support of RC unit 
readiness.
    The Army Reserve historically has had the lowest FTS percentage of 
any DOD Reserve component, including the Army National Guard, and this 
will still be the case when the current approved ramps reach end-state 
in fiscal year 2010. The fiscal year 2005 DOD average FTS manning level 
is 21 percent of end strength, while the fiscal year 2005 total for the 
Army Reserve is 11.3 percent.
    In fiscal year 2005, the Army Reserve was tasked with additional 
FTS mission requirements above and beyond programmed requirements, 
including:
  --Replacing 223 Active component training advisers (Title 11) to the 
        Reserve components who will be reassigned to support Active 
        component missions.
  --Providing U.S. Army Recruiting Command 734 additional recruiters 
        for fiscal year 2005 and fiscal year 2006.
    In cooperation with the Department of the Army, the Army's Reserve 
components are revalidating their FTS requirements to ensure that 
existing FTS models and support structure remain relevant to current 
missions and the needs of the Soldier. We expect that, as a result of 
this effort, requirements may increase, not decrease. It is imperative 
that the programmed resourcing of full-time support not only be 
maintained, but increased, as the Army Reserve restructures to move to 
a more ready, campaign-capable, and accessible future force.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   FORCE GENERATION SUPPORT PROGRAMS

Army Reserve Well-Being Program
    As a major element of its long-term force generation plan, the Army 
is formalizing the concept of well-being. The Army Reserve Well-Being 
Program enhances the institutional strength of the Army Reserve through 
a comprehensive strategy that integrates all well-being resources to 
enable Soldiers, civilians, retirees, veterans, and their families to 
become more self-reliant and better able to meet their personal needs 
and aspirations. Army well-being integrates and incorporates existing 
quality of life programs into a framework that supports performance, 
readiness, recruiting, and retention.
    The Army Reserve's well-being program consists of more than 30 
elements. Our goal is to raise awareness and an understanding of the 
relevance of well-being and its impact on Soldiers, civilians, family 
members, and The Army. We are developing strategic communications that 
inform, educate, and engage each Army Reserve well-being constituent. 
The Deployment Cycle Support Program, the Army Reserve Family Program, 
Army Reserve Rear Detachment Operations, and ``Welcome Home, Warrior'' 
program are among the most significant of the initiatives that provide 
force generation support for deployed Soldiers and their families.

            Deployment Cycle Support Program
    The Deployment Cycle Support Program (DCS) supports all Soldiers 
and units undergoing reconstitution upon completing a deployment. It is 
a three-phase program. Phase 1 (redeployment) begins when the unit is 
released from its mission and reports to the rear assembly area in 
theater. Phase 2 (demobilization) involves five days of DCS/
reintegration focus training at the facility from which the unit 
mobilized. Phase 3 (reconstitution) consists of a series of sustainment 
activities at home station.
    Army Reserve units and individual Soldiers (including Individual 
Ready Reserve and Individual Augmentee Soldiers) will return to Reserve 
status as quickly as possible, consistent with mission accomplishment, 
achieving required levels of readiness, and the need to complete key 
DCS tasks.
    The Army Reserve is developing a DCS assistance team to support the 
completion of reconstitution activities at home station. Part of this 
effort will include reinforcement of key information previously 
provided at demobilization stations (e.g., information regarding 
medical and dental entitlements, Veterans Administration services, Army 
Career and Alumni Program (ACAP) services, and family reunion 
workshops). We are developing a DCS program (tools and techniques) to 
ensure that our Soldiers complete all DCS elements, and ensure that 
they have full access to all services throughout their personal 
reintegration.

            Army Reserve Family Program
    Support to Army Reserve Soldiers and their families has been 
paramount to our senior leadership since the beginning of the Global 
War on Terror. The Army Reserve is committed to providing a full range 
of essential support and service to all Soldiers and their families. 
Many initiatives implemented since September 2001 continue to be 
refined as funding becomes available.
    The Army Reserve has nearly 150 full-time and contract family 
program staff members providing essential services to Reserve Soldiers 
and their families. Services are provided through 10 regional readiness 
commands and 26 other general officer commands or separate units in the 
continental United States, the 7th Army Reserve Command in Europe, the 
9th Regional Support Command in Hawaii, and United States Army Civil 
and Psychological Operations Command (Airborne).
    Services provided by Family Program personnel include support and 
assistance to unit leadership. Training programs include the following:
  --Fundamental and Developmental Family Program Academy (FPA). 
        Fundamental training includes the basics that help establish 
        and maintain a viable, functioning family readiness group at 
        the unit level. Developmental FPA training builds on those 
        basics and enhances the participants' capability to sustain and 
        enhance unit family programs.
  --Operation READY (Resources for Educating About Deployment and You) 
        curriculum is a series of training modules, videotapes, and 
        resource books published for the Army as resources for staff in 
        training Army families affected by deployments.
  --Chain of command training is designed to assist the personnel staff 
        from the headquarters through the unit leadership in learning 
        more about the scope of family programs within the Army 
        Reserve.
  --Deployment Cycle Support training provides instruction for unit 
        personnel who assist and manage Soldiers and families during 
        the mobilization, deployment, sustainment, and reunion phases 
        of the deployment cycle.
  --Mobilization/deployment and reunion briefings are provided by 
        family program directors or coordinators at the unit level at 
        the time mobilizations, deployments or reunions occur.
  --Senior Volunteer Resource Instructor (SVRI) training provides 
        initial and advanced training to volunteer instructors who 
        represent the regional readiness command and Army Reserve.
  --The Army Reserve provides direct support to families of Individual 
        Ready Reserve and Individual Augmentation Soldiers. The staff 
        contacts families by telephone within 48 hours of Soldier 
        mobilization and follows up with additional information and 
        points of contact. Assistance and support is currently being 
        provided to 6,400 families.

            Army Reserve Rear Detachment Operations (ARRDO)
    The Army Reserve is reviewing its Rear Detachment Operations 
(ARRDO) procedures to identify systemic problems and develop solutions 
that update current guidance and outline the way ahead.
    Inadequate information flow from forward command elements to rear 
detachment commanders, pay issues, and family support have surfaced as 
continuous challenges for Soldiers.
    Given the magnitude and the unique nature of Army Reserve rear 
detachment operations, full-time support is critical to providing the 
stability to support current and future contingency operations.
Welcome Home Citizen--Warrior Program
    This program is intended to ensure that each returning Citizen-
Warrior understands that his contribution to accomplishing the mission 
and making the homeland more secure for all of our citizens is 
recognized and appreciated by the nation and The Army. The program is a 
vehicle for conveying public recognition and private gratitude that 
might otherwise slip by in the press of demobilization tasks and events 
and the rush to reunite families and friends. Each returning Soldier is 
presented with a shadow-boxed American flag, a Welcome Home, Warrior-
Hero flag, a Soldier and spouse pin set, and a commemorative coin. The 
Soldier and family reactions at these award ceremonies, which are held 
within 30 days of the units' return to home station, have been 
overwhelmingly positive, and suggest that recognition effort is 
sincerely appreciated.

Medical Readiness and Medical Hold Improvements
    The Army Reserve has listened to the concerns of all its Soldiers 
and their families, and we have sought ways to provide the best 
healthcare possible and improve administrative processes for Soldiers 
and their families--before, during, and after mobilization. Since 
combatant commanders need a force that is medically fit and ready, the 
Army Reserve has placed increasing stress on medical readiness.
    During the alert phase, the 90 days of pre-mobilization TRICARE 
benefits authorized in the fiscal year 2004 National Defense 
Authorization Act (NDAA) and made permanent in the fiscal year 2005 
NDAA is used to improve medical readiness of Army Reserve Soldiers. The 
Federal Strategic Health Alliance, also known as (FEDS-HEAL), is a huge 
success story for the Army Reserve. FEDS-HEAL is a joint venture 
between the Army Reserve and the Department of Health and Human 
Services. This unique program utilizes civilian medical and dental 
services across the United States to provide care to Army Reserve 
Soldiers in their neighborhoods. The program allows alerted Soldiers to 
receive required medical and dental services before they arrive at the 
mobilization site so they are medically ready to deploy with their 
units.
    Because of its remarkable effectiveness, the FEDS-HEAL Program has 
expanded eightfold in the past four years, e.g., Army Reserve Soldiers 
received 47,500 dental exams; 20,600 physical exams; 58,100 
immunizations; 3,600 eye exams; and 4,000 dental treatments through 
FEDS-HEAL in fiscal year 2004, a tremendous boost to Army Reserve 
medical readiness.

Mobilized Soldier Pay
    One of the difficulties that Reserve Soldiers have had to deal with 
while mobilized and deployed is pay discrepancies. The Army Reserve has 
worked hard to find effective short- and long-term solutions to these 
problems and to improve pay processing for our troops and their 
families. Pay support for tens of thousands of Army Reserve Soldiers 
deployed worldwide was significantly improved during the past year. 
Major actions to improve pay support include:
  --Reserve Pay Training.--The USAR Pay Center has assumed a vital role 
        in training mobilizing USAR and ARNG finance units. Since April 
        2003, the Army Reserve pay inquiry team has answered over 
        23,000 pay inquires from mobilized Army Reserve Soldiers around 
        the world.
  --Publications and Soldiers' Guides.--The Army Reserve published the 
        ``Army Reserve Finance Guide for Mobilizing Soldiers'' in 
        October 2004, and officials at the U.S. Army Finance Command, 
        in conjunction with the Defense Finance and Accounting Service 
        (DFAS), the Army Reserve, and the Army National Guard, have 
        recently published a finance mobilization/demobilization 
        standard operating procedure manual that clearly defines the 
        roles and responsibilities of the various pay offices involved 
        throughout all phases of a Soldier's mobilization.
  --Automated Mob Pay Transactions.--The Army Reserve has developed 
        software applications to improve the timeliness and accuracy of 
        mobilization pay. One application allows units to initiate 
        mobilization pay and entitlements for Soldiers prior to their 
        reporting to the mobilization station. Additionally, it reduces 
        the amount of manual pay entitlement processing at the UPC and 
        the mobilization station. We are also developing and testing 
        software for the Forward Compatible Payroll system. DFAS is 
        currently conducting software acceptance testing and an 
        operational assessment. Once these tests are completed, three 
        Army Reserve units will be serviced in a field test. Current 
        plans call for the rest of the Army to come on board by mid-
        summer 2005.

                          EQUIPPING THE FORCE

The Mother of Invention
    The prolonged nature of the GWOT and the campaigns in Afghanistan 
and Iraq prompted our Army to adopt an expeditionary force structure 
that supports long-term military actions. Our Army's efforts to 
``modularize'' its structure to achieve depth, flexibility, agility, 
and predictability testify to the necessity of such a change in 
strategies. Equipping the resultant expeditionary force requires no 
less effort or innovation.
    One of the lessons learned in the first Gulf War, which has been 
strongly reinforced in the second, is that wars in the deserts of 
Southwest Asia are as hard on equipment as they are on Soldiers. Our 
ability to equip our forces adequately for a prolonged campaign has 
become a major factor in our ability to close that campaign 
successfully.
    For the Army Reserve, this means profound and enduring change in 
the way we do business. Our previous equipping strategy no longer fits 
how we go to war. The Army Reserve faces several challenges in 
equipping--wartime losses, compatibility, modernization, and resources. 
To focus our attention on this critically important aspect of war 
fighting, we have designated 2005 as the ``Year of Equipping'' in the 
Army Reserve.
    Everything is aimed at the units' in the expeditionary packages 
being able to deploy to support contingency operations. Such units must 
have priority of equipment fill when they deploy; however, as a result 
of the heavy equipment wear associated with desert operations, the use 
of stay-behind equipment, and other related issues, it is not possible 
for us to support full equipment issue for all of our units all of the 
time. Rather, we must intensively manage the equipping of our units not 
only in the theater of operations, but also during all of the stages of 
preparation and training leading to deployment to the theater. Using 
this staged process, we can ensure that each Soldier in each unit has 
the equipment he needs when he needs it.
    We are losing equipment that has been destroyed in combat, and our 
aging inventory is wearing out under extremely heavy usage. The Army 
Materiel Command's projections from the theater indicate that battle 
losses and attrition will be as much as 12 percent of the equipment we 
sent to Iraq and Afghanistan. Additionally, to better equip incoming 
units, the Army has directed that a portion of Army Reserve equipment 
remain in theater as Stay-Behind Equipment (SBE). Wartime losses and 
SBE decrease equipment available for training for Army Reserve units 
preparing for deployment, homeland defense, or other contingency 
requirements.
    Because the Army Reserve is 75 percent equipped to its authorized 
levels, and due to equipment losses, we must take extreme care of what 
we have available. Sustaining on-hand equipment is resource intensive 
and places great demand on Operations and Maintenance accounts. The 
Depot Maintenance Program is the Army Reserve's strategic sustainment 
base, and its only source to fully recondition, overhaul, and rebuild 
equipment to meet subsequent readiness requirements. Therefore, it is 
imperative that the Army Reserve maintain its current depot maintenance 
funding levels to meet mobilization equipment requirements, extend 
service life, reduce lifecycle costs, and improve safety for Army 
Reserve Soldiers.
    The National Guard and Reserve Equipment Appropriation (NGREA) are 
essential to the Army Reserve equipping program and over the past five 
years has addressed a number of critical shortfalls. During that time, 
the Army Reserve has received an average of $35 million annually to 
procure additional equipment that would have been impossible to procure 
from our base budget. Although the Army Reserve received $40 million in 
NGREA funding for fiscal year 2005, an equipment shortfall totaling 
more than $1 billion still remains. We are continuing to work with Army 
and OSD leadership to resolve our equipping shortfalls, but additional 
congressional support remains the most viable solution.

New Equipping Strategy
    The Army Reserve is actively working to help itself with equipment 
readiness. We have adopted an equipping strategy that is synchronized 
with the five-year AREF rotation cycle. As units progress through each 
year of the five-year cycle, their state of readiness increases 
incrementally. Units ready to deploy, are at the highest level of 
readiness (Year One). Units reconstituting from a deployment, are at 
the base level of readiness (Year Five). Units that are between 
reconstitution and deployment (Years Two-Four), receive the full 
complement of modernized equipment compatible with AC. This will allow 
Army Reserve units to train with their go-to-war systems prior to 
mobilization and deployment.
    The equipping strategy goes one step further by identifying the 
equipment for the individual Soldier training that is done in Year Five 
and for collective training in Years Two through Four. The Army Reserve 
will rotate this equipment on the five-year AREF cycle through its five 
training readiness platforms in California, Texas, Wisconsin, New 
Jersey, and Arkansas. In Year Four, units will draw minimum-essential-
equipment-for-training sets, which they will use through Year One for 
individual training at home station. Our goal is to fully equip units 
going into a theater of operations.
    There are two important benefits that result from applying these 
equipping strategies. First, reduce the need to cross-level equipment 
upon receipt of mobilization orders. Second, the Army Reserve will 
provide transformed units that are fully interoperable and integrated 
into the Army's modular framework.
    The Army Reserve is also investing aggressively in Depot 
Maintenance and Cascading of equipment. In the Depot Maintenance 
Program, operated by Army Material Command, the Army Reserve is 
overhauling and rebuilding hundreds of aging tractors into the newer 
configuration. In the area of recapitalization, the Army has provided 
the funding to rebuild hundreds of Army Reserve High Mobility Multi-
Purpose Vehicles, Heavy Expanded Mobility Tactical Trucks, and Heavy 
Equipment Transporter Systems.
    Cascading, is the transfer of Active Army equipment to the Reserve 
components and is an essential method of equipping the Army Reserve. By 
cascading, we have integrated hundreds of tactical wheeled vehicles and 
almost a thousand M16A2 rifles into our inventory. We expect that the 
continued cascading of the newer model M16A2 rifles, coupled with NGREA 
funding, to eliminate the over 10,000 older, non-deployable, model 
M16A1 rifles still on-hand. Finally, the Army Reserve has initiated 
equipment conversion programs, such as the gas-to-diesel conversions we 
perform on generators, air compressors, and decontamination equipment. 
The conversion program allows us to be more interoperable with the 
Active force.
    We are continuing to work with the Active Army and OSD leadership 
to resolve our equipping shortfalls, and we appreciate continued 
congressional support of our transformation efforts.

                           TRAINING THE FORCE

Cyclic Training
    The term ``cyclic'' suggests how the Army Reserve will train and 
develop a sustainable force capable of supporting the Joint Force and 
Army requirements. Tied directly to the rotational structure of the 
Army Reserve Expeditionary Force (AREF), cyclic readiness will 
simultaneously establish priorities for resources, synchronized 
readiness levels, and provide predictable training and deployment time 
frames for Army Reserve Soldiers, families, and employers. Cyclic 
readiness reflects a dramatic change in the Army resulting from the 
Global War on Terror and renders many of the manning, equipping, 
modernization, and training models and policies of the past simply 
irrelevant.
    Train-Alert-Deploy.--In the past the Army Reserve used a ``tiered'' 
system of readiness. The assumption was that the Army Reserve would 
have the time after being alerted to resource, train and deploy units 
when they were ready.
    The strategic environment today does not afford us this luxury. The 
Army Reserve is not a supplemental force, but a force complementary to 
the Active Army. Thus, we must be ready to deploy whenever and wherever 
military forces are needed. Further, our force must be ready to deploy 
to support the combatant commander and also to perform homeland defense 
missions in support of civil authorities. Our forces must be ready to 
conduct their missions with very little time for pre-deployment 
training. Therefore, our readiness paradigm has changed from alert-
train-deploy to train-alert-deploy. This means that we must start with 
a firm individual readiness base and devote the resources we have to 
training the Army Reserve Expeditionary Packages (AREPs) to ever higher 
states of collective readiness as they progress through each year of 
their five-year cycle. Our strategy is based on having a full array of 
combat support (CS) and combat service support (CSS) capabilities ready 
and available to the nation.
    Readiness Assessment.--The readiness and training expectations for 
Army Reserve forces are the same as those for the Active component. 
While the standards are the same, the conditions under which the Army 
Reserve prepares for its missions are significantly different. The 
limited ``train, alert, and deploy'' training time for our Citizen-
Soldiers competes with numerous priorities and must be used effectively 
and efficiently.
    Leadership.--The Army Reserve is strengthening its leaders by 
executing the Army Reserve Leadership Campaign Plan. The future Army 
Reserve demands leaders who are self-aware, adaptable and agile, and 
life-long learners. The quality of Army Reserve leadership is the 
foundation for achieving Army Reserve readiness and relevance for the 
21st century. Institutional leader development consists of officer, 
warrant officer, noncommissioned officer, civilian, and MILTECH 
training. The operational aspects of leader development occur in 
company-team leader and pre-command courses (battalion and brigade), 
battle staff simulation exercises, combat training center (CTC) or 
``CTC-like'' events, and culminate in mission-rehearsal exercises. The 
self-development aspects of revitalized leader development include 
improved mentorship programs, a leader development assessment program 
that includes command climate surveys (also part of operational 
experiences), and use of Battle Command Knowledge System (BCKS) 
products.
    Training Support.--The integrated training divisions (ITD) provide 
support to AREF leaders. These ITDs will provide full-spectrum support 
for individual through collective training. All Army Reserve 
organizations are transforming. Separate divisional forces that support 
training (training support and institutional training divisions) are 
becoming integrated training divisions, with some current institutional 
training division capabilities migrating to the 84th Army Reserve 
Readiness Training Command (ARRTC). ITDs provide specialty 
reclassification training as a part of the NCO educational system 
throughout the five-year AREF cycle. In addition, these elements 
provide skill reinforcement and refresher training through the use of 
mobile training teams that partner with ITD collective training support 
organizations. Collective training support elements consist of training 
exercise developers, trained and certified observer/controllers, and 
simulations support elements. The ITDs are multi-component 
organizations composed of Active component, Army National Guard, and 
Army Reserve personnel. Thus, the ITD includes a combination of combat 
arms, combat support, combat service support, and simulations skills 
capable of simultaneously supporting both post-mobilization validation 
(if required) as well as pre-mobilization training support during years 
two and three of the AREF cycle.
    Army Reserve Installations are a vital part of training and 
deployment activities we continue to upgrade and modernize our four 
major installations--Fort Dix, NJ, Fort McCoy, WI, Fort Hunter-Liggett/
Parks Reserve Forces Training Area, CA, and Fort Buchanan, PR. We are 
also partnering with the Army National Guard to provide mutual and 
accessible training areas and ranges for Reserve component units.

                          SHELTERING THE FORCE

More than Bricks and Mortar
    Today, the Army Reserve owns and operates buildings and facilities 
in a thousand communities across the nation. Our Reserve centers are 
frequently the most visible evidence of the presence of our Citizen-
Warriors in their communities. These Reserve centers (many of them 
joint centers, operated with the Reserve components of other services) 
are representative of our Soldiers and the federal government to 
members of the community at large. They speak of us and of our 
commitment to the national defense and our national interests.
    Our training, storage, and maintenance facilities stand as 
reminders of the nobility of service and the duty that all citizens owe 
to their country. They reflect upon our Soldiers' commitment, 
dedication, and professionalism. We are judged to some degree at least 
on the public face that our facilities present to those who see them 
daily and who mark their fortunes by what they see. Citizens who see 
clean, well-maintained, and modern facilities judge their occupants by 
appearances and measure their occupants' professional competence, in 
part, by the impression that these facilities present. Attractive, 
adequate facilities raise our fellow citizens' trust and confidence in 
their Army and its Reserve components.
    In a time when recruiting and retention are challenging our best 
efforts, these facilities can be a great advantage if they tell the 
right story and assure our Soldiers that their leaders are concerned 
about their surroundings and the facilities in which they work and 
train, daily, weekly, monthly, and often at their own expense. Good 
facilities reflect the nation's esteem and priorities and encourage 
good Soldiers to stay with the program and to recruit others to the 
mission that they have themselves undertaken and that is symbolized by 
the facilities in which they train. Modern, uncrowded facilities speak 
eloquently of the investment that the federal government has made in 
the competence, well-being, morale, and dedication of its Citizen-
Warriors. Investment in new Reserve facilities and maintenance and 
restoration of existing facilities are more than bricks and mortar, 
they are strong and indisputable evidence of the nation's recognition 
and gratitude, and the belle-weather of our commitment to our Citizen-
Warriors who train and work within their walls.
    The fiscal year 2006 budget request includes four new Reserve 
training centers and second phases for two others, as well as the first 
phase of an NCO academy and six training ranges. When complete, the 
Reserve centers will support over 2,700 Army Reserve Soldiers, and the 
training ranges will support over 130,000 Soldiers from all Army 
components and other services. These projects are currently under 
design and will be ready for award in fiscal year 2006. We can do more 
if we can do more.

                           READYING THE FORCE

The Cost of Readiness
    A trained and ready Army Reserve is essential to the Army's ability 
to execute the national military and security strategies. Currently the 
Army Reserve is fully engaged in the Global War on Terror, meeting the 
needs of the combatant commanders, transforming, and preparing for 
future mobilizations. Over the past 39 months, the Army Reserve 
mobilized and deployed units at much higher personnel and equipping 
levels than authorized and resourced. All of this has not been without 
cost in resources and readiness.
  --Army Reserve readiness requires adequate resources--specifically in 
        Reserve Personnel, Army (RPA), Operations and Maintenance, Army 
        Reserve (OMAR), and Other Procurement, Army (OPA) funding--to 
        be fully operational, properly maintained, and mission capable.
  --A large number of the Army Reserve's units will be required in 
        follow-on rotations. In order to meet future requirements, the 
        Army Reserve is working with the Active Army and OSD leadership 
        to develop balanced, responsive, and effective strength 
        management policies and programs.
  --The Army Reserve needs support to modernize and re-equip its force 
        in support of a modular Army engaged in the GWOT.

                               CONCLUSION

    The Army Reserve is changing daily as it advances in the Global War 
on Terror. We face a battle with two fronts, each one feeding and 
feeding on, the other. The Global War on Terror drives us to rethink, 
reform, regenerate, and optimize our force so we can carry out our 
mission with greater efficiency and more effectively support the nation 
and the troops who are themselves supporting the same mission. 
Simultaneously, realigned, reset, and re-oriented, our Citizen-Warriors 
cycle through a progression of serial stages of preparation, 
mobilization, deployment, engagement, and regeneration in support of 
the same global campaign that precipitates the cycle. The military and 
political world of the 21st century has changed dramatically and 
exponentially in the past few years and the changes show no hint of 
slowing down. Your Army Reserve continues to perform its vital mission 
under Title 10, USC, providing trained, equipped, and ready individuals 
and forces to meet the nation's military needs. With the help of the 
Congress and our fellow citizens, we will continue to serve as an 
increasingly essential element of our Army and our nation.

    Senator Stevens. Thank you very much, and we welcome you. 
Would you tell me again your names and where did you serve?
    General Helmly. Sir, Captain Damon Martin--I am sorry. 
Captain Damon Garner and Sergeant First Class James Martin. I 
would ask them to stand at this time.
    Senator Stevens. Captain, where did you serve?
    Captain Garner. Iraq, sir.
    Senator Stevens. Very good. How long were you over there?
    Captain Garner. One year, sir.
    Senator Stevens. Sergeant.
    Sergeant Martin. I have been in Schofield Barracks, Hawaii, 
sir, with the infantry, 25th Infantry Division. Also, presently 
I am with the 99th Region Readiness Command (RRC).
    Senator Stevens. Very good. Thank you very much for joining 
us here today. We appreciate it. These hearings are sort of 
difficult when we have the Senate in session, but we are glad 
to have you visit. Thank you very much.
    General Helmly, are you the first?
    General Helmly. Yes, sir.
    Senator Stevens. Admiral Cotton.

STATEMENT OF VICE ADMIRAL JOHN G. COTTON, CHIEF, NAVAL 
            RESERVE, UNITED STATES NAVY
    Admiral Cotton. Good morning, Mr. Chairman. Thanks for this 
opportunity to address everyone.
    The Navy's Reserve component is more ready, responsive, and 
relevant than it has ever been. Last year when I appeared 
before this subcommittee I stressed Active-Reserve integration 
and especially alignment. I would like to say that has 
continued and I am very encouraged by the way that we have 
worked with Navy leadership. We have been blessed by two 
leaders who understand the total force and its importance, 
Secretary of the Navy Gordon England and of course our Chief of 
Naval Operations (CNO), Admiral Vern Clark.
    We have over 23,000 reservists on orders right now 
providing operational support to the fleet, over 4,000 
mobilized, with 3,000 in Central Command providing critical 
support to our operations there. We have worked together 
closely in the past year on all initiatives--BRAC, Quadrennial 
Defense Review, and our budgets. I am proud to say that we are 
acting as a team like never before.
    I look forward to your questions, sir.
    Senator Stevens. Thank you very much.
    [The statement follows:]

           Prepared Statement of Vice Admiral John G. Cotton

                                OPENING

    Mr. Chairman and members of this subcommittee, thank you for the 
opportunity to speak with you today about some of the important changes 
that are happening in the Navy and its Reserve Force, and to give you a 
report on our accomplishments and current state of readiness.
    Last year, Admiral Vern Clark challenged us with the statement, 
``Change to make us better is completely necessary--to make our Navy 
even better and to build the 21st century Navy, and the Reserve is a 
key part of our growth and our future.'' We have met this challenge and 
have attained dramatic improvements, changing our culture and the shape 
of the Force, moving away from an obsolete Cold War construct to one 
that provides the flexible capabilities needed to fight the 
unconventional threats of the 21st century.
    You can't change culture with money; it takes leadership. I want to 
thank this distinguished panel for the leadership demonstrated in 
voting for the 2005 National Defense Authorization Act, which provided 
the legislative basis for the Secretary of the Navy to facilitate 
changing our name from the United States Naval Reserve to the United 
States Navy Reserve. We soon hope to have Presidential approval, and 
are in the process of complying with the provisions of the Act, 
including future submission of the required conforming legislation to 
Congress. Once we have become the U.S. Navy Reserve, the Chief of Naval 
Operations (CNO) intends to promulgate guidance to ``drop the R,'' like 
the Marines did in 1997. Our great Sailors have always been in the 
Navy--they are the RE-serve component of the greatest Navy ever. The 
initials USNR, USNR-R, USNR TAR will no longer be used--we are all in 
the Navy. We will still have Reserve Component (RC) commissions and 
designators that put us in the right personnel categories, but we're in 
the Navy, ready and fully integrated. We might work just 2 or more days 
a month, but you cannot turn off the honor, courage and commitment that 
comes with being in the Navy 24/7/365, ready to serve.
    Today's busy Navy Reservists have three missions. Their primary job 
revolves around increasing our Navy's warfighting capability. Periodic 
and predictable service provided by our RC Sailors, in the right place, 
at the right time, with the right skill sets enhances the operational 
effectiveness of the supported command--affordably. Second, Reservists 
will be key players in homeland security and defense. By aligning our 
capabilities and shaping our force to support the missions of NORTHCOM, 
Reservists have the skills that will not only improve security at home, 
but will enable active forces to take the fight to the enemy and win 
the ``away'' game. Lastly, every Sailor acts as a service ambassador 
and recruiter in every town in America. The broad distribution of these 
Sailors provides a constant and visible reminder to citizens in every 
state, and especially in the Nation's heartland, that the Navy is on 
watch, providing them with unmatched capability in the maritime domain, 
as well as educating and calling our young people to serve our Nation. 
This affiliation with ``Main Street USA'' and the fabric of our Nation 
is something else that money can't buy, and is a mission that the Navy 
Reserve embraces.

                                MANPOWER

    Our most important asset is, always has been, and forever will 
remain, our Sailors--our ``Sea Warriors.'' Admiral Clark stresses the 
importance of continuously enabling and developing every Sailor, and 
has challenged the Navy to deliver a Human Capital Strategy (HCS) in 
2005. This HCS theme will repeat throughout my statement.
    The Navy's Total Force HCS will build upon last year's successes:
  --Continue development of Active-Reserve Integration.
  --Execute elimination of Naval Reserve ``titles'' and foster Active 
        Component (AC) ownership of the RC elements in one Navy.
  --Continue analysis of the functions and roles of the RC in the 
        future Total Force.
  --Complete the consolidation of Active-Reserve recruiting.
  --Continue to identify and develop RC skills training and 
        professional military education requirements for incorporation 
        into Sea Warrior.
    The Navy will deliver a HCS that is both mission and cost 
effective, while remaining ``capability focused.'' Typically, when a 
24/7/365 presence is required, the AC would provide the preponderance 
of the capability. When the requirement is periodic and predictable, 
the capability should be provided by an RC Sailor at about one-fifth 
the cost of their AC counterpart. When the requirement is best 
supported by specialized skills and long-term continuity, our civilian 
workforce provides the best fill. Finally, when time critical 
requirements are identified that fall beyond the scope of Navy skill 
sets, then contractors should be utilized to fill the need pending 
development of the capability or for the duration of a short-term 
requirement. Presence, predictability, periodicity and skill sets 
determine work division, not arbitrary lines drawn between components.
    The Navy HCS is already demonstrating ``value added'' in that Navy 
requirements are met with RC capabilities, no longer simply a matter of 
``mobilization numbers.'' Historically, effectiveness of the RC has 
been measured by the number of personnel mobilized and on active duty. 
More than 28,000 Navy Reservists have been mobilized since 9/11, and 
nearly 12,000 served on active duty during the peak of OIF in May 2003. 
However, the mobilization metric falls far short of measuring the work 
being done by Reservists each and every day. On any given day, over 
20,000 RE-servists are on some type of orders, providing fully 
integrated operational support to their AC and joint commands, both at 
home and overseas. This contribution is extremely valuable and 
represents a significant return on ``sunk'' training costs, enabling 
mature, seasoned and capable veterans to surge to Fleet requirements. 
The judicious use of operational support enables the Navy RC to meet 
surge requirements short of mobilization, while providing enhanced 
``volunteerism'' options for our Sailors. Thus, operational support 
provides full spectrum access to RC capabilities, which are more 
relevant than ever.
    The greater readiness provided by full spectrum access is evident 
by the effective and judicious use of our ``high demand, low density'' 
units and individual augmentee skill sets. A prime example is 
demonstrated daily by the Navy Reserve Intelligence Program, which is 
fully integrated into all Fleet operations. These highly skilled 
professionals face increased Global War on Terrorism (GWOT) demands not 
only from the Navy but also from every Combatant Commander (COCOM). 
Navy leadership is utilizing Intelligence Reservists daily with 
inactive duty drills and annual training, active duty for training, and 
active duty for special work, and mobilization to provide consistent, 
high quality support to joint operating forces. More than 1,700 Sailors 
have been mobilized since 9/11, representing over 40 percent of the 
Intelligence program's nearly 4,000 Reservists, in support of 117 Navy 
and Joint Commands in 150 different locations worldwide, providing 
real-time operational support to senior decision makers and commanders 
in the field.
    The roles and missions of these professionals have been wide 
ranging. RC targeting officers have augmented every Carrier Air Wing 
deployed for Operations ENDURING FREEDOM and IRAQI FREEDOM since 9/11. 
Interrogators at Guantanamo Bay and elsewhere have obtained information 
leading to the breakup of global terror cells. They have deployed with 
Navy SEAL teams, augmented combat staffs aboard ships, stood 
counterterrorism watches, supported Joint Task Forces, and captured 
foreign materiel. Also, the effective use of Joint Reserve Intelligence 
Centers (JRICs) since 9/11 has added a new tool for deployed 
warfighters in all COCOMs.
    While most mobilized Reserve Intelligence professionals have 
reported to their supported Joint and Navy Commands, over 13 percent 
have been mobilized to 27 JRICs located throughout the country. They 
are an example of an evolving reach-back capability that directly 
supports forward operations and represents one more step in the Navy's 
progress toward a net-centric future. Intelligence Reservists averaged 
over 80 days of active duty per person each year since 9/11. This high 
RC personnel tempo is an excellent example of the immense value added 
by these Sailors, largely through ``volunteerism.''

                           CURRENT READINESS

Global War On Terrorism
    Navy Reservists are performing superbly in many important GWOT 
roles. To date, 19 of our RC Sailors have made the ultimate sacrifice 
while deployed in support of current operations, with many more 
suffering serious injuries. On July 11, 2004, I had the distinct 
privilege of presenting the Purple Heart Medal to 16 Seabees from Naval 
Mobile Construction Battalion (NMCB) 14, in Jacksonville, FL. A total 
of 7 Sailors were killed and 19 were wounded in attacks on April 30 and 
May 2, 2004 while mobilized in support of OIF. The loss of these brave 
Americans underscores the honor, courage and commitment that drive our 
Nation's Reservists, and the willingness of citizen Sailors to make 
tremendous sacrifices for not only our freedom, but also for our 
coalition partners.
    Perhaps the biggest challenge involves the anticipated GWOT demand 
for Navy Reservists to support land-based missions in CENTCOM. The 
Secretary of Defense has directed Navy to take a close look at the 
combat service support missions, and we are leaning forward to 
aggressively plan our engagement strategies. The GWOT presents new and 
dynamic challenges to our Navy and our Nation, and will require a 
flexible Navy Reserve capable of supporting non-traditional missions.
    One way we are meeting this challenge is to develop a customs 
inspection capability to support deployed forces. Over 450 SELRES and 
volunteers from the Individual Ready Reserve (IRR) were screened and 
selected for this new mission. Mobilized Sailors reported to the Naval 
Expeditionary Logistics Support Force HQ in Williamsburg, VA, in early 
December 2004 for outfitting and training, which included Customs 
Inspector certification and expeditionary warfighting skills. 
Subsequently, they deployed to Kuwait in late January 2005 for turnover 
with Air Force personnel.
    Additionally, Navy has assumed the responsibility for managing the 
detainee program at Guantanamo Bay, Cuba. AC and RC have blended 
qualified personnel as needed to enhance the security force.
    Mobilized Navy ``Seabees'' have continuously deployed in support of 
CENTCOM operations. Over 40 percent of the Seabee force has been 
mobilized since 9/11, providing critical combat construction support to 
forces in Iraq and Kuwait. Navy construction forces rely heavily upon 
RC Sailors, bringing critical civilian skill sets, maturity and 
experience to the mission.
    In January 2004, Navy Expeditionary Logistics Support Force 
mobilized more than 525 Sailors from four of its Cargo Handling and 
Supply Support Battalions, who relieved and augmented a variety of Army 
and Marine Corps logistics units. These Navy Reserve cargo handlers 
(stevedores, fuels and mail) are working with the Army to provide 
critical combat support to Soldiers and Marines in Iraq and Kuwait in 
support of Operation IRAQI FREEDOM. Subsequently, additional Sailors 
have been mobilized and have relieved these forces in theater.
    In March 2003, the Navy deployed Helicopter Combat Support Special 
Squadron Five (HCS 5) to Iraq to provide a key capability in support of 
active ground forces in OIF. Maintaining a high operational tempo, HCS 
5 supported the Joint Special Operations Aviation Command, flying 
combat missions against the enemy. One year later, HCS 5 was relieved 
by her sister squadron, HCS 4, who remains in theater to date. These 
two RE-serve squadrons represent 50 percent of Navy's helicopter combat 
support capability.
    The Navy Reserve will expand its role in combat service support. 
Our dedicated Reservists will be placed into training pipelines for up 
to 4 months to develop and hone special skill sets and combat 
capabilities needed to support the GWOT. These Sailors will then go 
forward, ``boots on ground'' with the Army. When they return, we will 
establish Joint Provisional Units to house these unique skill sets, 
where Reservists will remain on ``hot standby'' for consequence 
management in support of NORTHCOM Homeland Defense requirements.
Homeland Defense
    ``We the People'' are all joined in a common interest, homeland 
defense. Only a few times in our history has the enemy brought the 
fight to our country. Declaring independence in 1776, we defeated the 
British twice in a span of nearly 40 years. No one can forget the ``Day 
of Infamy'' at Pearl Harbor on December 7, 1941, nor will anyone soon 
forget the events of 9/11, 3 short years ago, in New York City, at the 
Pentagon, and in a field in Pennsylvania. We are now engaged in the 
GWOT, another long war to preserve our way of life. We must win this 
``away'' game to ensure that it never again becomes another ``home'' 
game.
    While most Reserve Sailors are compensated for only a few days each 
month, they are in the Navy 24/7/365, selflessly serving their Nation 
with honor, courage and commitment. As the President instructed them 3 
years ago, they stand fully ready--they are the new minutemen in the 
same tradition as those who stood on the Commons in Lexington and at 
the North Bridge in Concord, Massachusetts. As veterans, they provide 
military experience and capabilities as well as a myriad of civilian 
skill sets critical to the support of Sea Power 21, ready to quickly 
surge to any global crisis and respond to disasters at home. Reserve 
Sailors live in every state and will become more regionally aligned 
with NORTHCOM as the Nation develops its Homeland Defense strategy. We 
are ready to answer the call, as Americans have done for 229 years. The 
CNO recently stated, ``I am convinced that responsibility for Maritime 
Domain Awareness (MDA) should rest first and foremost with the United 
States Coast Guard. I am also convinced that there is a role for the 
United States Navy to play in response and in support of the Coast 
Guard, bringing our resources to bear wherever they are required.''
    The Navy is partnering with the Coast Guard because we share a 
common interest in defending our Nation's maritime approaches. When a 
ship comes near our coastlines, we need to know where it is going and 
what cargo it is carrying. MDA is the effective understanding of all 
elements of the global maritime environment that could impact the 
security, safety, economy or environment of the United States.
    Significant roles will be played by several combatant commanders, 
NORTHCOM, SOUTHCOM, STRATCOM, and many other Federal and State 
Departments. PACOM, EUCOM and CENTCOM will also contribute to MDA if we 
are to be successful in countering threats far from our shores. Efforts 
by the Department of Defense and Department of Homeland Security to 
make MDA truly an interagency effort are just beginning, and the Navy 
Reserve has tremendous potential to join other major stakeholders in 
providing workable solutions to ensure a more cost effective MDA 
strategy.
    In November 2004, Admiral Tim Keating assumed command of NORTHCOM. 
In developing MDA, his staff will be utilizing lessons learned from 
many years of successful North American Air Defense operations that 
have monitored all air traffic in U.S. airspace. Navy Reservists stand 
ready to augment the MDA staff with personnel from the Space Warfare 
Command, Intelligence, Naval Control and Guidance of Shipping, Tactical 
Support Center, Mobile Inshore Undersea Warfare (MIUW), Military 
Sealift Command, Naval Air Force Reserve, and Distributed Common Ground 
System-Navy (DCGS-N) units.
    NORTHCOM is planning to stand up a Joint Reserve Unit with 
Intelligence community watch standers and analysts that will conduct 
port security surveys while working with the Coast Guard's Joint Harbor 
Operation/Maritime Operations Centers. The Navy Reserve will fully 
support this new capability.
    One capability central to Homeland Defense (HLD) is provided by 
Navy Coastal Warfare (NCW), whose mission is to provide surface and 
subsurface surveillance in littoral areas throughout the world. 
Secondary missions include command, control and communications 
functions. Navy Reserve MIUW units and Inshore Boat Units have, until 
recently, provided the sole capability for this mission within the 
Navy. Due to the ``high-demand/low-density'' mission and structure, the 
Navy has established eight AC NCW units, under the operational control 
of the newly established Maritime Force Protection Command to aid in 
force protection missions. This vital capability will now be provided 
by a mixture of AC and RC forces, once again aptly demonstrating the 
ability of the Navy Reserve Force to serve as a test bed for new 
capabilities and as an enabler for transitioning validated capabilities 
to the AC when required.
    The Navy has, in fact, already begun joint experimentation with the 
Coast Guard, exploring new situational awareness systems, and plans are 
being formulated to provide demonstrations later this year. One such 
system, a littoral version of DCGS-N, was provided to the Navy by the 
Congress over the past few years. DCGS-N merges intelligence, 
surveillance, reconnaissance, targeting, mission planning, and 
situational-awareness functions into a web-enabled, net-centric, Joint-
interoperable architecture. This invaluable capability, long the 
province of Strike Groups and major ground combat units, will soon 
demonstrate its potential value in supporting MDA.
    Another potential Homeland Defense capability is being demonstrated 
by Operation VIGILANT MARINER. Embarked Security Teams (EST) will 
provide security augmentation to Military Sealift Command/Ready Reserve 
Fleet/Contract Carrier ships to detect, deter and defend against 
waterborne and land-based terrorist attacks. The initial teams will be 
composed of AC Sailors, with RC EST's providing ready surge capability 
for global operations. These RC EST's will also be able to perform 
CONUS-based force protection missions either in civilian ports or as an 
augmentation force to Navy installations and shore facilities requiring 
extra protection.
    To effectively support Homeland Defense initiatives, every state 
should have a Joint Headquarters, manned by personnel from each of the 
seven Reserve Components. While the National Guard will focus on 
states, the Navy will focus on regions as part of Commander, Navy 
Installations' ongoing alignment initiative. When we respond to a 
crisis, we will do so under a regional construct, surging both AC and 
RC Sailors to assist with threats. As we continue to develop this 
concept, we will work closely with the National Guard Bureau and other 
agencies. This structure further aligns our organizations to provide 
enhanced support and coordination by having citizen Sailors protect 
their home regions.

                            FUTURE READINESS

    The Navy is taking ownership of its RC. Some specialized 
communities, such as Public Affairs, now direct the entire personnel 
selection and processing system, and are detailing Reservists to 
supported commands. This is exactly how all RC assignments will be done 
in the future, leveraging experience, demographics, special skill sets 
and desire to serve in operational units and perform operational 
mission support.
    The future detailing of our Reservists will incorporate a Sea 
Warrior initiative known as the Career Management System. This self-
service, web-based tool will provide every Sailor visibility into all 
available Navy billets. It will also provide the necessary details, 
including job description, required competencies, unit location and 
special requirements, so that our Sailors can apply for jobs that best 
fit their career plans while meeting the needs of the Navy.
    In 2003, we began another very productive initiative to enable Navy 
leadership to view RC readiness information through the Type Commander 
Readiness Management System (TRMS). We created an innovative module 
called the Navy Reserve Readiness Module that links numerous databases, 
including the Medical Readiness Reporting System (MRRS), the Navy 
Reserve Order Writing System (NROWS), the Reserve Headquarters System 
(RHS), and the Navy Marine Corps Mobilization Processing System 
(NMCMPS).
    Decision makers and force providers can use this system on any 
desktop computer to drill down through every region, every Reserve 
Activity, every unit, down to the individual Sailor. This easy-to-use 
system has greatly improved readiness and will allow the AC to better 
match resources to requirements, identify gaps, and provide focused 
training to close those gaps. AC ownership of, and responsibility for, 
the readiness of its assigned Reservists is the objective. This is a 
significant shift in culture that will greatly improve the readiness 
and effectiveness of the Total Force.
    A major thrust over the past year has been the improvement of the 
Navy Reserve's enterprise efficiency while enhancing operational 
effectiveness. Knowledge Management (KM) methodology has been the 
driver of this effort, and the Navy Reserve is leading the way. KM has 
been applied across the enterprise, resulting in better organizational 
alignment with the AC, better understanding of Navy requirements for 
its RC, and development of quicker response mechanisms that will better 
support the Joint Force. KM focuses our efforts on readiness, and helps 
us get the most ``bang for the buck'' in terms of operational 
availability and speed of response.

                           QUALITY OF SERVICE

    The Secretary of Defense instituted a force structure planning goal 
of limiting the involuntary mobilization of Reservists to 1 year out of 
every 6. When Reservists deploy to support the war, they want to know 
three things: ``when, where, and for how long?'' They are ready to 
serve, and while deployed deserve the same pay and benefits earned by 
AC personnel. The Department of Defense is working toward a common pay 
and benefits system for personnel from all components, Active, Guard 
and Reserve, which will support the Navy's efforts to properly support 
Sailors, whether mobilized or performing operational support.
    Additionally, the Navy's HCS is validating the requirement for 
different levels of RC participation. Today, about one-third of our 
Force participates at the traditional level of 38 days per year of 
inactive duty drills and annual training. Another one-third operates at 
an increased level of participation between 38 and 100 days per year. 
The remaining one-third is able to serve in excess of 100 days per 
year, with some being able to recall for years. Given a continued 
demand signal for all of these levels of participation, innovative 
methods to predict and budget for requirements will have to be 
developed by resource sponsors. The result will be a much more 
integrated Total Force and greatly enhanced full spectrum RC 
operational support.
    One of our efforts to improve the delivery of support across the 
``capability spectrum'' is the consolidation of the RC MILPERS 
appropriation budget activity structure. The current ``two budget 
activity'' structure of RC MILPERS appropriations, as set up over 20 
years ago, is outmoded, cumbersome and not adequately responsive for 
21st century budget execution. It leads to inefficiencies in the 
Department's administration of funds, creates unnecessary budget 
execution uncertainties, and can result in the receipt of unexpended 
funds so late in the year that their effective use is minimized.
    Combining the two RC MILPERS budget activities, BA1 and BA2, into a 
single budget activity within the RC appropriation is a sensible 
adjustment which enables more efficient use of resources, permits 
sufficient continued oversight of budget execution, and supports the 
Secretary's desire to transform and improve financial processes.
    The Navy Reserve's fiscal year 2006 budget submission accounts for 
this consolidation and has been fully approved and supported by the 
Department of Defense. This initiative will have a dramatic impact on 
our ability to provide full spectrum operational support, as well as 
improve our Sailors' quality of service through the ability to tailor 
their orders to actual requirements. This also furthers our ability to 
leverage the 2005 National Defense Authorization Act authority to have 
up to 6200 Sailors performing full time operational support for up to 
three out of 4 years, a very welcome change in policy that enhances our 
ability to surge to GWOT requirements.
    The timeliness and way that information flows to the Reserve Force 
is one of our biggest challenges in ensuring Quality of Service. The 
degree to which we effectively communicate significantly impacts our 
level of success. We have created several forums for communicating Navy 
priorities, key leadership messages, relevant news, and opportunities 
to and from the field, and they have proven to be very effective. We 
host a bi-weekly briefing by video teleconference to inform the Force 
and solicit input from every echelon. We established an e-mail 
communication protocol through the Public Affairs office to 
electronically distribute information to more than 5,000 key Navy 
Reservists and Department of Defense personnel. Our award-winning 
magazine, The Navy Reservist, is mailed monthly to every Navy 
Reservist's home (over 80,000 individuals and their families). The flow 
of information enables us to quickly identify issues and opportunities 
and to target the proper audiences for action. The speed of actionable 
information has greatly increased as we build the Navy of the future.
    Most critical to our success remains the important roles of our 
families and employers in supporting our Sailors. Our families enable 
us to go forward with love and support, and our employers guarantee our 
jobs when we return, often with additional benefits as their much 
appreciated contributions to the cause. We all serve together and 
cannot win the GWOT without the many tremendous sacrifices Americans 
make for national defense.
    In the past year, we have worked to strengthen the already very 
effective Employer Support of the Guard and Reserve (ESGR) program. For 
the first time since the 1994 Uniformed Services Employment and 
Reemployment Rights Act (USERRA) was passed, the Department of Labor 
has published regulations to enhance understanding and assist in the 
enforcement of this landmark legislation. Never before have our 
Nation's employers played such a critical role in our National Defense, 
with many providing benefits far beyond the USERRA requirements. We 
should continue to look for opportunities to further incentivize and 
partner with employers who do so much to care for our Reservists.

                               ALIGNMENT

    Through ongoing transformation, the Navy is accelerating the 
Nation's warfighting advantage. Admiral Clark has detailed the ``state 
of the Navy'' more fully in his testimony, but several initiatives will 
have a direct and positive impact on the Navy Reserve, the most 
significant being Active-Reserve Integration (ARI). ARI is more than a 
``bumper sticker'' . . . it is a key component of the evolving HCS. The 
key step in achieving ARI is to determine what the AC requires its RC 
to do, as well as how and when to surge Reservists. Accordingly, 
Admiral Clark tasked Fleet Forces Command to conduct a review of all RC 
capabilities, and in August 2004 approved the results. This ``Zero-
Based Review'' (ZBR) laid the groundwork for a more integrated and 
aligned Total Force in which RC capabilities directly support SEAPOWER 
21.
    The ZBR systematically studied gaps in AC capabilities that could 
or should be filled by the RC. Cost and risk values were assigned to 
each validated RC capability relative to the AC mission to enable 
leadership to make informed decisions regarding appropriate levels of 
investment. The result was a blend of existing and new capabilities, 
while others were recommended for realignment or divestment. The review 
acknowledged two essential types of support the AC will receive from 
the RC: (1) units that stand up when required to provide a specific 
capability, and (2) individuals or portions of units that can augment 
existing active commands. Validated capabilities are designed to 
increase the warfighting wholeness of the Navy, and represent ``what 
the AC needs to have,'' not just what is ``nice to have.''
    We have changed the way we assess ourselves, as well as the way we 
train in support of the Fleet Response Plan (FRP). We are transitioning 
to a capabilities-based Force driven by Navy requirements. The ZBR 
inventoried the RC against sixty-one capabilities and ``mapped'' them 
to Navy mission areas. Every billet and every unit was examined for 
both surge and operational support value. We are synchronizing data to 
enable us to plan and act as ``One Navy.'' The results of the 
assessment are included in the OPNAV programming, budgeting and 
execution system, partnering resources to provide better support to the 
warfighters.
    One of the most significant outcomes of the initial ZBR is that in 
fiscal year 2006, the Navy Reserve will reduce end strength by 10,300 
Sailors. To execute the FRP, Navy Active and Reserve Components have 
accelerated their alignment, synchronizing their efforts to become a 
more effective and efficient warfighting team. This is a ``win-win'' 
scenario for the Navy and the taxpayer, reflecting not a reduction in 
capabilities, but rather capabilities more effectively and much more 
efficiently delivered!
    We are expending significant effort to ensure effective RC 
management as well. AC and RC manpower experts are partnering to 
conduct a Full Time Support program ``Flag Pole Study'' to determine 
the most effective and efficient manner to structure and allocate our 
RC management personnel across Navy Reserve Activities and in Fleet 
commands.
    Another key element of our Full Time Support program is our 
civilian employees. Over 100 civilian employees assigned to Commander, 
Navy Reserve Forces Command and the Office of the Chief of Navy Reserve 
will be among the first Navy employees to be administered under the new 
National Security Personnel System (NSPS). July 2005 transition 
activities will be preceded by on-line and class room training for all 
affected civilian employees and their supervisors (both civilian and 
military). This initial group represents approximately one-quarter of 
the Navy Reserve's civilian employee population.
    Another component of ARI is the alignment of RC infrastructure. 
Commander, Naval Installations (CNI), the Navy's landlord, now includes 
every Navy Reserve activity in its regions for better processing of 
service and support requests. There are no longer any Navy Reserve 
Bases, only Navy Bases with different human capital strategies, and 
we're all working together to support the Fleet.
    We can no longer think of ourselves as separate Reserve activities 
in every state. We must integrate as part of Navy Regions. We hope to 
never build another Navy-Marine Corps Reserve Center, but will instead 
build only modern Armed Forces Reserve Centers or Joint Operational 
Support Centers that will promote joint operations, enhance 
interoperability and significantly reduce overhead costs. We will train 
jointly at home to deploy and fight jointly overseas.
    One significant alignment success story that has resulted in 
achievement of major efficiencies is the Navy Recruiting mission. The 
former Navy Reserve Recruiting Command has merged with Navy Recruiting 
Command to provide a seamless recruiting organization capable of 
providing all service options to potential Navy Sailors. Not a mere 
name change, RC recruiters and staff are serving alongside their AC 
counterparts. Some of our Navy Recruiting Districts are commanded by 
Full Time Support Officers. We also have senior enlisted FTS Career 
Recruiter Force personnel serving as NRD Chief Recruiters. Total Force 
recruiting epitomizes a truly customer-oriented focus, where a 
potential Sailor is exposed to every option for service in the Navy. 
Every career consideration and every possible enlistment incentive is 
now tailored to the needs of the individual. Our ultimate goal is to 
recruit 100 percent of the qualified applicants that ``cross the brow'' 
and retain 100 percent of the Sailors with viable career options in the 
Navy, whether AC or RC.
    Our vision continues to be support to the Fleet, ready and fully 
integrated. The RC provides predictable and periodic surge support in 
the FRP, and has been very effectively integrated into all capabilities 
in the Navy's operating forces. The Navy is getting slightly smaller, 
but much more effective, providing increased warfighting wholeness and 
a much better return on investment.

                                SUMMARY

    Navy RE-servists provide worldwide operational support and we are 
proud of our many accomplishments since 9/11. We continue to push for 
further integration and alignment within the Navy, while surging with 
greater speed, flexibility and responsiveness than ever before. Our 
dedicated Sailors provide the key to future success. During Operation 
ENDURING FREEDOM, a deployed combatant ship Commanding Officer said, 
``People ask me if I'm worried about the youth of America today. I tell 
em not at all, because I see the very best of them every day.''
    Navy Reserve leadership agrees. Our Sailors have never been so 
capable and committed. Their honor, courage and commitment make our 
profession the most highly respected profession in the United States 
today and our Navy the most admired around the world. We could not be 
more proud of the effort they put forth and the results they have 
achieved over the past year. We are looking forward to even greater 
success as our alignment efforts progress and many new initiatives 
mature and become adopted by the Fleet.
    In closing, I would like to thank this committee for the support 
you have provided the Navy Reserve and all of the Guard and Reserve 
components. The 2005 National Defense Authorization Act provided 
several significant, positive benefits that will help us recruit and 
retain our talented Sailors to better support the Navy and Joint 
commands. As you can see, this is a very exciting period for the Navy 
and the Navy Reserve. The CNO has challenged every Sailor to review 
current ways of doing business and suggest solutions that will improve 
effectiveness and find efficiencies. The Navy Reserve has accepted that 
challenge and promises the members of this committee that we will 
continue to do just that--examine every facet of our operation, to 
support the fleet, and to accelerate our Navy's advantages while 
providing the best value to the American taxpayer.

    Senator Stevens. General McCarthy.

STATEMENT OF LIEUTENANT GENERAL DENNIS M. McCARTHY, 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS RESERVE
    General McCarthy. Mr. Chairman, good morning. Like my 
colleagues, it is an honor for me to appear. As you have noted, 
this will be the last time I appear, at least in uniform. I 
hope to remain engaged in these issues.
    But I am here on behalf of the men and women of the Marine 
Corps Reserve and I am extraordinarily proud of what they have 
done. We have mobilized over 95 percent of the Marine Corps 
Reserve units; 98 percent of those we have mobilized have 
served in combat, either in Iraq or Afghanistan. We have 
sustained, unfortunately, a share of casualties, but, as you 
have heard, they, like their counterparts in the Army and the 
Navy and the Air Force, have served shoulder to shoulder with 
the active component and have done so with great distinction.
    Our recruiting remains strong. Where our ranks are filled 
we are making our recruiting numbers. Our retention numbers are 
slightly above the historic average. I believe that is because 
of, not in spite of, the service that they have been called 
upon to perform. The kind of men and women that we have 
recruited seek service and they seek an opportunity to serve in 
combat, and they have had that opportunity.
    What I owe them as their commander is to continue to ensure 
that they can train and be appropriately equipped, so that when 
they are called upon the next time they can return to service. 
The only way we will retain the right kind of people, the only 
way we will recruit the right kind of people, is to provide 
them with an opportunity to serve in combat-ready units. So 
that is our effort and we are very appreciative of what the 
committee and the Senate, the Congress, have done to enable us, 
and we hope for your continued support.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    [The statement follows:]

      Prepared Statement of Lieutenant General Dennis M. McCarthy

                              INTRODUCTION

    Chairman Stevens, Senator Inouye and distinguished members of the 
Committee, it is my honor to report to you on the state of your Marine 
Corps Reserve as a partner in the Navy-Marine Corps team. Your Marine 
Corps Reserve continues to be ``Ready, Willing, and Able.'' We remain 
firmly committed to warfighting excellence. The support of Congress and 
the American people has been indispensable to our success in the Global 
War on Terrorism. Your sustained commitment to care for and improve our 
Nation's armed forces in order to meet today's challenges, as well as 
those of tomorrow, is vital to our battlefield success. On behalf of 
all Marines and their families, I would like to take this opportunity 
to thank Congress and this committee for your continued support.

                    YOUR MARINE CORPS RESERVE TODAY

    The last 4 years have demonstrated the Marine Corps Reserve is 
truly a full partner of the Total Force Marine Corps. I have been the 
Commander of Marine Forces Reserve since June 2, 2001 and as I prepare 
for retirement this summer, I can assure you the Marine Corps Reserve 
still remains totally committed to continuing the rapid and efficient 
activation of combat-ready ground, air, and logistics units to augment 
and reinforce the active component in the Global War on Terrorism. 
Marine Corps Reserve units, Individual Ready Reserve (IRR) Marines, 
Individual Mobilization Augmentees (IMAs), and Retired Marines fill 
critical requirements in our Nation's defense and are deployed 
worldwide in Iraq, Afghanistan, Georgian Republic, Djibouti, Kuwait, 
and the U.S., supporting all aspects of the Global War on Terrorism.
    ``Train, Activate, Deploy'' has always been a foundation of the 
Marine Corps Reserve. Following that foundation, your Reserve is 
maintained as a pre-trained, balanced and sustainable force capable of 
rapid deployment into a combat environment.
    Reserve Marines continuously train to maintain high levels of 
combat readiness. Because we currently have the luxury of scheduled 
rotations, we utilize a 48-day activate to deploy schedule. A demanding 
Mobilization and Operational Readiness Deployment Test program 
eliminates the need for post activation certification upon activation. 
The 48-day schedule includes a 9-day Security and Stability Operations 
training package and completes the preparations for the Marine Reserve 
unit to deploy. The impact of the ``Train, Activate, Deploy'' 
foundation is the seamless integration with the Gaining Force Commander 
of a combat capable active duty Marine unit.
    Your Marine Corps Reserve is pre-trained-able to activate, spin-up, 
deploy, redeploy, take leave and deactivate all within 12 months. 
Twelve-month activations with a 7-month deployment have helped sustain 
the Reserve force and contributed to the regeneration of our units. In 
so doing, the Reserves follow the same 7-month deployment policy as our 
active forces. This activation/deployment construct has allowed the 
Marine Corps to maximize management of the Reserve force, maintain unit 
integrity, and lessen the burden on Marine Corps families by 
maintaining predictable deployments while allowing adequate dwell time 
between unit deployments.
    As of early March 2005, over 13,000 Reserve Marines were activated 
in support of Operation Enduring Freedom, Operation Iraqi Freedom and 
Horn of Africa operations. Of these Marines, approximately 11,500 were 
serving in combat-proven ground, aviation and service support units led 
by Reserve Marine officers and non-commissioned officers. The remaining 
1,600 Reserve Marines were serving as individual augments in support of 
Combatant Commanders, the Joint Staff and the Marine Corps. Since 
September 11, 2001, the Marine Corps has activated over 36,000 Reserve 
Marines, and more than 95 percent of all Marine Forces Reserve units.
    The Global War on Terrorism highlights our need to remain flexible 
and adaptive as a force. During the aftermath of 9/11 and the 
commencement of the Global War on Terrorism, the Marine Corps Reserve 
was the force the Marine Corps needed. As new war fighting requirements 
have emerged, we have adapted our units and personnel to meet them, 
such as with the rapid formation of security forces from existing 
units, or the creation of provisional Civil Affairs Groups. We reviewed 
our Total Force Structure during 2004, and laid the blueprint for 
refining the force from 2005 to 2006. In the coming years, the Marine 
Corps Reserve will be increasing intelligence, security, civil affairs, 
mortuary affairs and light armored reconnaissance capabilities, while 
we pare down some of our heavier, less required capabilities, such as 
tanks and artillery. However, we are adjusting less than 8 percent of 
Reserve end strength to support these new capabilities required for the 
war on terrorism. By reassessing and fine-tuning our Reserve Force, we 
are enhancing our ability to provide required war fighting 
capabilities. Although adjusted, the Reserve Force will continue to 
provide a strong Marine Corps presence in our communities.
    Your Marine Corps Reserve continues to prove we are ``Ready, 
Willing and Able'' to accomplish our primary mission of augmenting and 
reinforcing the active component with fully trained, combat capable 
Marines.

                          RETURN ON INVESTMENT

    The Marine Corps is committed to and confident in the Total Force 
Concept as evidenced by the overwhelming success of Marine Reserve 
units serving in support of the Global War on Terrorism. Activated 
Marine Reserve units and individuals are seamlessly integrating into 
forward deployed Marine Expeditionary Forces and regularly demonstrate 
their combat effectiveness. The recent efforts of your Reserve Marines 
are best illustrated in the following examples of a few of the many 
Reserve units supporting the war effort:

Force Units
    Fourth Civil Affairs Group (4th CAG), commanded by Col. John R. 
Ballard USMCR, a professor at the Naval War College, and assisted by 
his senior enlisted advisor, Sgt. Maj. Joseph A. Staudt, a construction 
appraiser and project manager, was instrumental in rebuilding 
communities from the ground up in the Al Anbar Province of Iraq. They 
assisted in everything from recreating the infrastructure for a city or 
town, to clearing unexploded ordinance and equipment left by the Iraqi 
army from school buildings. Fourth CAG was instrumental in projects 
such as supporting local elections in Fallujah and assisting the Iraqis 
in reopening schools in Al Kut. Just last month, 4th CAG ended its tour 
of duty in Iraq and were replaced by 5th Civil Affairs Group (5th CAG), 
commanded by Col. Steve McKinley USMCR, a retired bonds salesman from 
Wachovia, with the assistance of Sgt. Maj. John A. Ellis, a Baltimore 
fireman.

Fourth Marine Division
    First Battalion, 23d Marines (1/23), under the command of Lt. Col. 
Gregory D. Stevens USMCR, a building contractor in southern California, 
supported by his senior enlisted advisor, Sgt. Maj. David A. Miller, a 
military academy instructor, were the first to enter and assess the 
threat in Hit, Iraq last year and won decisive battles with insurgents 
in that city. Sgt. Herbert B. Hancock, a sniper from 1/23 was credited 
with the longest confirmed kill in Iraq during the battle for Fallujah, 
taking out insurgent mortarmen from a distance of over 1,000 yards. 
From October 2004 to January 2005, the Mobile Assault Platoons of 1/23 
patrolled the supply routes around the Haditha Dam area in Iraq. With 
the aid of long-range optics, night vision and thermal imaging scopes, 
they vigilantly watched day and night for insurgent activity, while 
remaining unobserved. During their last month in Iraq, the efforts of 
the Mobile Assault Platoons caused an 85 percent decrease in the total 
number of mines and IEDs utilized in the Haditha Dam area.
    Second Battalion, 24th Marines, commanded by Lt. Col. Mark A. Smith 
USMCR, an Indiana state policeman, with Sgt. Maj. Garry L. Payne, a 
business owner, as his senior enlisted advisor, supported the 24th 
Marine Expeditionary Unit (24th MEU) by bringing a measure of security 
to northern Babil Province. Marines with law-enforcement background 
were so common in the battalion that even the smallest units boasted of 
having a few police officers. Many law-enforcement strategies and 
tactics employed in the Chicago area were mimicked in Iraq such as 
executing raids, handling heavy traffic jams and conducting crime scene 
analysis. The battalion even used police procedures in its intelligence 
battle, comparing anti-Iraqi forces to criminals back home. As Chief 
Warrant Officer-5 Jim M. Roussell, an intelligence officer and 28-year 
veteran of the Chicago Police Department stated, ``There are a lot of 
similarities between street gangs and the guys we're fighting out 
here.'' Working alongside Iraqi security forces, the Marines rounded up 
nearly 900 criminals, thugs and terrorists and seized more than 75,000 
munitions to make the local area safer for the Iraqi residents.

Fourth Force Service Support Group
    Throughout my tenure as Commander, Marine Forces Reserve, I have 
made repeated visits to Marines serving abroad. During a recent trip to 
Iraq with my senior enlisted advisor, Sgt. Maj. Robin W. Dixon, I 
visited our Marines from Fourth Force Service Support Group (4th FSSG) 
who were serving with 1st FSSG. I can confidently state that the 
Reserve Marines were fully integrated with 1st FSSG and were meeting 
all the challenges to ensure Marines throughout Iraq had everything 
from food and medicine to mail and ammunition. They willingly braved 
dangerous roads filled with IEDs to ensure supplies arrive at their 
destination. Our Marines on the front lines can execute their tasks 
superbly because their needs back at the base camp are all being met by 
the FSSG Marines. From refueling to performing major overhauls on 
vehicles, to moving the fuel and materials of war from the rear to the 
front, to distributing ``beans, bullets, and bandages''--the FSSG takes 
care of all the needs of their fellow Marines.
    The most sobering task that the Reserve Marines from 4th FSSG 
perform in Iraq is Mortuary Affairs, which is predominately a Reserve 
mission. Chief Warrant Officer-2 Anthony L. High, the Officer in Charge 
of Mortuary Affairs, ensures that the remains of the fallen in Iraq 
return home with the proper dignity and respect they deserve for the 
price they have paid for our country. Even enemies killed in Fallujah 
were given burials commensurate with the customs and procedures of 
their native country and religious beliefs, winning approval of Iraqi 
religious leaders.

Fourth Marine Aircraft Wing
    The accomplishments of Marine Aerial Refueler Transport Squadron 
452 (VMGR-452), of Marine Aircraft Group 49, 4th Marine Aircraft Wing, 
under the command of Lt. Col. Bradley S. James USMCR, a United Airlines 
pilot, supported by his senior enlisted advisor, Sgt. Maj. Leland H. 
Hilt Jr., an auditor for the IRS, show the overwhelming commitment we 
impose on our Reserve Marines. VMGR-452 has been activated twice since 
9/11. A detachment from VMGR-452 was activated in January 2002 to 
support Operation Enduring Freedom (OEF). The remainder of the squadron 
was activated later in support of Operation Iraqi Freedom I (OIF-I). 
Upon deactivation, the squadron immediately reverted back into their 
normal high operational tempo, supporting reserve missions worldwide. 
The squadron supported the full spectrum of KC-130 missions that 
included aerial delivery in support of Special Operations Command, 
performing multiple aerial refueling missions in support of the Fleet 
Marine Force and the U.S. Army, logistics runs in support of Marine 
Forces Europe and deployed units in Djibouti, and support of a Hawaii 
Combined Arms Exercise. The entire squadron was reactivated in June 
2004 and deployed in August to Al Asad Air Base, Al Anbar Province, 
Iraq. They quickly began combat operations in support of First Marine 
Expeditionary Force (I MEF). The squadron conducted numerous types of 
tactical missions, to include logistics support, Fixed Wing Aerial 
Refueling and radio relay throughout several countries to include Iraq, 
Kuwait, Qatar, Bahrain, Turkey and Italy. On November 7, when Operation 
Phantom Fury commenced in Fallujah, VMGR-452 found its versatile KC-130 
platforms greatly needed for a variety of missions. The squadron flew 
341 sorties, logged 864.9 flight hours, transported 1,273,150 pounds of 
cargo and 1,980 personnel, and offloaded 4,324,300 pounds of fuel to 
502 receivers during the operation. After Operation Phantom Fury, the 
squadron conducted its most important mission of the deployment--the 
movement of Iraqi election officials during Operation Citadel II. 
During this operation, the squadron transported over 1,200 Iraqi 
election officials from An Najaf to Al Taqaddum and Mosul so that they 
would be in place before the election on January 30. Following the 
elections, the squadron transported the election officials back to An 
Najaf in less than six hours by running three fully loaded KC-130's 
continuously. February saw the squadron surpass 3000 mishap-free flight 
hours for the deployment.

                         ACTIVATION PHILOSOPHY

    Sustaining the force has been consistent with Total Force Marine 
Corps planning guidance. This guidance was based on a 12-month 
involuntary activation with a 7-month deployment, followed by a period 
of dwell time and, if required, a second 12-month involuntary 
reactivation and subsequent 7-month deployment. This force management 
practice was designed to enhance the warfighting and sustainment 
capability of the Marine Forces Reserve by providing trained, well-
balanced and cohesive units ready for combat. We view this both an 
efficient and effective use of our Reserve Marines' 24-month cumulative 
activation as it serves to preserve Reserve Units to sustain the long-
term nature of the GWOT that will require future Reserve force 
commitments.

                           ACTIVATION IMPACT

    As of January 2005, the Marine Corps Reserve began activating 
approximately 3,000 Selected Marine Corps Reserve (SMCR) Unit Marines 
in support of the next Operation Iraqi Freedom rotation and 500 SMCR 
Unit Marines in support of Operation Enduring Freedom. Even with 
judicious use of our assets and coordinated planning, the personnel 
tempo has increased. As the members of this committee know, Reserve 
Marines are students or have civilian occupations that are also very 
demanding, and are their primary means of livelihood. In the past 2 
years, 933 Reserve Marines exceeded 400 days deployed time. In total, 
approximately 3,900 Reserve Marines have been activated more than once; 
about 2,500 of whom are currently activated. Information from March 
2005 indicates that approximately 65 percent of the current unit 
population and 47 percent of the current IMA population have been 
activated at least once. About 1 percent of our current Individual 
Ready Reserve (IRR) population deployed in support of OIF/OEF. If you 
include the number of Marines who deployed as an active component and 
have since transferred to the IRR, the number reaches 31 percent. This 
is worth particular note as the IRR provides us needed depth--an added 
dimension to our capability. Volunteers from the IRR and from other 
Military Occupational Specialties, such as artillery, have been cross-
trained to reinforce identifiable critical specialties.
    Although supporting the Global War on Terrorism is the primary 
focus of the Marine Corps Reserve, other functions, such as pre-
deployment preparation and maintenance, recruiting, training, 
facilities management and long term planning continue. The wise use of 
the Active Duty Special Work (ADSW) Program allows the Marine Corps to 
fill these short-term, full-time requirements with Reserve Marines. In 
fiscal year 2004, the Marine Corps executed 947 work-years of ADSW at a 
cost of $49.1 million. Continued support and funding for this critical 
program will enhance flexibility thereby ensuring our Total Force 
requirements are met.

                               EQUIPMENT

    Our readiness priority is the support and sustainment of our 
forward deployed forces and, secondly, ensuring units slated to deploy 
in follow-on rotations possess adequate levels of equipment for 
training. Currently, the Marine Corps has approximately 30 percent of 
its ground equipment and 25 percent of its aviation equipment forward 
deployed. In certain critical, low-density items, this percentage is 
closer to 50 percent. This equipment has been sourced from the active 
component, Marine Forces Reserve, the Maritime Prepositioned Force as 
well as equipment from Marine Corps Logistics Command stores and war 
reserves. Primarily, our contributed major items of equipment remain in 
theater and rotating Marine forces fall in on the in-theater assets. In 
some cases where extraordinary use has resulted in the inordinate 
deterioration of equipment (such as the Corps' Light Armored Vehicles), 
equipment rotations have been performed as directed and managed by 
Headquarters, Marine Corps.
    Maintaining current readiness levels will require continued support 
as our equipment continues to age at a pace exceeding replacement peace 
time rates. The Global War on Terrorism equipment usage rates average 
eight to one over normal peacetime usage due to continuous combat 
operations. This high usage rate in a harsh operating environment, 
coupled with the weight of added armor and unavoidable delays of 
scheduled maintenance due to combat, is degrading our equipment at an 
accelerated rate. If this equipment returns to CONUS, extensive service 
life extension and overhaul/rebuild programs will be required in order 
to bring this equipment back into satisfactory condition.
    Even with these wartime demands, equipment readiness rates for 
Marine Forces Reserve deployed ground equipment in the CENTCOM AOR is 
averaging 93 percent. At home, as we continue to aggressively train and 
prepare our Marines, we have maintained ground equipment readiness 
rates of 91 percent. The types of equipment held by Home Training 
Centers are the same as those held within the Active Component. 
However, the ``set'' of ground equipment presently in garrison is not 
the full equipment combat allowance for Marine Forces Reserve. To reach 
the level of full equipment combat allowance for Marine Forces Reserve 
would require us to draw ground equipment from other allowances and 
inventory options across the Marine Corps. Additionally, due to the 
Marine Corps' cross-leveling efforts of equipment inventories to 
support home station shortfalls resulting from equipment deployed in 
support of the Global War On Terrorism, Marine Forces Reserve will 
experience some equipment shortfalls of communication and electronic 
equipment. This specific equipment type shortfall will be approximately 
10 percent across the Force in most areas, and somewhat greater for 
certain low density ``big box'' type equipment sets. Also, an infantry 
battalion's worth of equipment originating from Marine Forces Reserve 
remains in support of deployed forces in the CENTCOM AOR. Although the 
equipment shortfalls will not preclude sustainment training within the 
Force, this equipment availability is not optimal.

Strategic Ground Equipment Working Group
    For the past year, Headquarters, Marine Corps Installations and 
Logistics has chaired the Strategic Ground Equipment Working Group 
(SGEWG). The mission of this organization is to best position the 
Corps' equipment to support the needs of the deployed Global War on 
Terrorism forces, the Corps' strategic programs and training of non-
deployed forces. My staff has been fully engaged in this process and 
the results have been encouraging for Marine Forces Reserve, leading to 
an increase in overall Supply Readiness of approximately 5 percent in 
most equipment categories. The efforts of the SGEWG, combined with the 
efforts of my staff to redistribute equipment to support non-deployed 
units, have resulted in continued training capability for the reserve 
forces back home.

Individual Combat Clothing and Equipment, Individual Protective 
        Equipment
    In order to continue seamless integration into the active 
component, my ground component priorities are the sustained improvement 
of Individual Combat Clothing and Equipment, Individual Protective 
Equipment and overall equipment readiness. I am pleased to report that 
every Reserve Marine deployed over the past year in support of 
Operation Iraqi Freedom and Operation Enduring Freedom, along with 
those currently deployed into harm's way, were fully equipped with the 
most current Individual Clothing/Combat Equipment and Individual 
Protective Equipment. Your continued support of current budget 
initiatives will continue to properly equip our most precious assets--
our individual Marines.

Critical Asset Rapid Distribution Facility
    In order to ensure equipment is available to our deploying forces, 
I created the Marine Forces Reserve Materiel Prepositioning Program and 
designated my Special Training Allowance Pool (which traditionally held 
such items as cold weather gear) as the Critical Asset Rapid 
Distribution Facility (CARDF). The CARDF has been designated as the 
primary location for all newly fielded items of Individual Clothing and 
Combat Equipment for issue to Marine Forces Reserve. Equipment such as 
the Improved Load Bearing Equipment, Lightweight Helmet and Improved 
First Aid Kit has been sent to the CARDF for secondary distribution to 
deploying units.

Training Allowance
    For Principle End Items (PEIs), Marine Forces Reserve units have 
established Training Allowances (on average approximately 80 percent of 
their established Table of Equipment). This equipment represents the 
minimum needed by the unit to maintain the training readiness necessary 
to deploy, while at the same time is still within their ability to 
maintain under routine conditions. Establishment of training allowances 
allows Marine Forces Reserve to better cross level equipment to support 
CONUS training requirements of all units of the Force with a minimal 
overall equipment requirement. Of course, this concept requires the 
support of the service to ensure that the ``delta'' between a unit's 
Training Allowance and Table of Equipment (that gear necessary to fully 
conduct a combat mission) is available in the event of deployment. 
Current Headquarters Marine Corps policy of retaining needed equipment 
in theater for use by deploying forces ensures that mobilized Marine 
Forces Reserve units will have the PEIs necessary to conduct their 
mission.

Modernization
    We are currently engaged in a two-pronged equipment programmatic 
strategy--resetting today's Force with operational equipment and 
determining the equipment requirements of your Future Force. I am 
extremely pleased to report to you that your Marine Reserve Component 
continues to evolve and adapt to best prepare and meet the spectrum of 
threats. Some of the most noteworthy accomplishments are those 
associated with the Marine Corps Force Structure Review Group (FSRG). 
As part of a Total Force effort, the Marine Corps Reserve is 
transforming underutilized legacy units into new units with higher 
threat-relevant capabilities while providing operational tempo relief 
in high-demand areas. These new units include an Intelligence Support 
Battalion, an Anti-Terrorist Battalion and two Light Armored 
Reconnaissance Companies.
    The establishment of a Reserve Intelligence Support Battalion, 
presently underway, will enhance command and control while 
simultaneously establishing additional reserve component intelligence 
structure and capabilities. This initiative places Reserve Marine 
intelligence detachments at Joint Reserve Intelligence Centers (JRICs) 
throughout the continental United States, providing enhanced ``reach 
back'' through JRIC connectivity. Additionally, the ISB will enhance 
the capability to provide task-organized, all-source intelligence 
detachments to augment forward-deployed MAGTFs.
    The 4th Marine Division's new Anti Terrorism Battalion will provide 
designated commanders with rapidly deployable, specially trained and 
sustainable forces that are capable of detecting terrorism, conducting 
activities to deter terrorism, defending designated facilities and 
conducting crisis response.
    Finally, two new Light Armored Reconnaissance (LAR) Companies will 
increase the number of Reserve LAR Companies from four to six, thus 
supporting the equipping of units for future OIF rotations, adding much 
needed depth, and affording the combatant commander with enhanced 
maneuver capability. Light Armored Vehicles (LAV) from the four 
existing units will be redistributed among the six new LAR Companies to 
meet initial needs. However, internal LAV redistribution will not 
provide sufficient assets to maintain skill proficiency and deployment 
readiness, particularly for Marines just completing formal LAV training 
and joining their Reserve LAR units. Presently, both new LAR Companies 
are converting from two Tank Companies being divested as a result of 
FSRG, and personnel to man the new LAR Companies are available and have 
commenced formal LAV training.

National Guard and Reserve Equipment Appropriation
    The Marine Corps Reserve appreciates past Congressional support 
provided under the National Guard and Reserve Equipment Appropriation 
(NGREA), an account that provides extraordinary leverage in fielding 
critical equipment to your Guard and Reserves. In fiscal year 2005, 
NGREA provided $50 million ($10 million for OIF/OEF requirements, and 
$40 million for Title III procurement requirements), enabling us to 
robustly respond to the pressing needs of the individual Marine, Total 
Force and Combatant Commanders. This funding procures 
Counterintelligence HUMINT equipment suites, various communications 
gear (PRC-117F, PRC-150, Integrated Intra Squad Radios), laser target 
designators, night vision devices, Advanced Combat Optic Gunsight 
(ACOG) 432 scopes, simulators, AH-1W Aircraft Survivability Equipment, 
CH-46 lightweight seats, and many more war-fighting essential end 
items.
    Highlighting selected items, NGREA enabled the procurement of the 
Virtual Combat Convoy Trainer--Marine (VCCT-M), a cognitive skills 
simulator that provides realistic convoy crew training and incidental 
driver training to your Marines. The first of these systems will be 
deployed to Naval Station Seal Beach, home site to 5th Battalion, 14th 
Marine Regiment, to assist in their preparation for deployment to Iraq. 
Another device procured through NGREA is the Medium Tactical Vehicle 
Replacement Training Simulator, a combined operator and maintenance 
training system that supports our new medium tactical vehicle. 
Additionally, NGREA afforded us the opportunity to purchase 1,175 TA-
31F Advanced Combat Optic Gunsights (ACOG) 432 scopes. Marine Corps 
Program Managers have worked directly with the manufacturer in order 
for Marine Forces Reserve deploying units to receive the ACOG scopes 
before departing their home training center. I am also pleased to 
report that we have a combat capable F/A-18A+ squadron currently 
deployed as a direct result of previous years' NGREA funding for F/A-
18A ECP-583 upgrades. Marine Fighter/Attack Squadron-142 has already 
seen action in Iraq. In summation, I can state without hesitation that 
NGREA is extremely vital to the Marine Corps reserve and that your 
Marines and Sailors are reaping the benefits both here and in theater.
    My top modernization priorities looking forward and as described in 
the fiscal year 2006 National Guard and Reserve Equipment Report and 
other documents, include additional Light Armored Vehicles, PRC-117 
radios, LAV Product Improvement Program, Initial Issue equipment (light 
weight helmets, outer tactical vests, Small Arm Protective Inserts 
(SAPI) plates), PRC-150 radios, CH-53 Integrated Mechanical Diagnostics 
System (IMDS), and Family of Mountain and Cold Weather Clothing and 
Equipment.

                             INFRASTRUCTURE

    Marine Forces Reserve is and will continue to be a community-based 
force. This is a fundamental strength of Marine Forces Reserve. Our 
long-range strategy is to retain that strength by maintaining our 
connection with communities in the most cost effective way. We are not, 
nor do we want to be, limited exclusively to large metropolitan areas 
nor consolidated into a few isolated enclaves, but rather we intend to 
divest Marine Corps-owned infrastructure and locate our units in Joint 
Reserve Training Centers throughout the country. Marine Forces Reserve 
units are currently located at 185 sites in 48 states, the District of 
Columbia, and Puerto Rico; 35 sites are owned or leased by the Marine 
Corps Reserve, 150 are either tenant or joint sites. Fifty-four percent 
of the Reserve centers we occupy are more than 30 years old, and of 
these, 41 are over 50 years old. The fiscal year 2006 budget fully 
funds sustainment of these facilities and we are working through a 
backlog of restoration and modernization projects at centers in several 
states.
    The age of our infrastructure means that much of it was built 
before Anti-Terrorism/Force Protection (AT/FP) was a major 
consideration in design and construction. These facilities require AT/
FP resolution through structural improvements, relocation, replacement 
or the acquisition of additional stand-off distance. We appreciate the 
Congressional support provided for our Military construction program in 
fiscal year 2005 as it enables us to construct modern Amphibious 
Assault Vehicle maintenance facilities in Gulfport, Mississippi; 
Norfolk, Virginia and Jacksonville, Florida, and to replace the Reserve 
Center in Wilmington, North Carolina, a wood frame structure 
constructed in 1939. The fiscal year 2006 budget includes the 
replacement of the Reserve Centers in Charleston, South Carolina, a 
complex of buildings dating to 1942, and Mobile, Alabama. Other older 
Reserve Centers programmed for replacement include Dayton, Ohio; 
Memphis, Tennessee; Newport News, Virginia and Fresno, California.
    Maintaining adequate facilities is critical to training that 
supports our readiness and sends a strong message to our Marines and 
Sailors about the importance of their service. With the changes in 
Force structure mentioned earlier, extensive facilities upgrades are 
required at a few locations. Our top priority sites are San Diego, 
California; Windy Hill (Marietta), Georgia; and Camp Upshur (Quantico), 
Virginia.

BRAC 2005
    We look at BRAC 2005 as an opportunity to realize our long-range 
strategic infrastructure goals through efficient joint ventures and 
increased training center utilization without jeopardizing our 
community presence. We have integrated our force structure changes into 
our BRAC efforts to the greatest extent possible. In cooperation with 
other reserve components, notably the Army Reserve and the Army 
National Guard, we are working toward Reserve basing solutions that 
further reduce restoration and modernization backlogs and AT/FP 
vulnerability.

                        RECRUITING AND RETENTION

    Like the active component, Marine Corps Reserve units primarily 
rely upon a first term force. Currently, the Marine Corps Reserve 
continues to recruit and retain quality men and women willing to manage 
commitments to their families, their communities, their civilian 
careers and the Corps. Recruiting and retention goals were met in 
fiscal year 2004, but the long-term impact of recent activations is not 
yet known. Despite the high operational tempo, the morale and patriotic 
spirit of Reserve Marines, their families and employers remains 
extraordinarily high.
    At the end of fiscal year 2004, the Selected Marine Corps Reserve 
was over 39,600 strong. Part of this population is comprised of Active 
Reserve Marines, Individual Mobilization Augmentees and Reserve Marines 
in the training pipeline. An additional 60,000 Marines serve as part of 
the Individual Ready Reserve, representing a significant pool of 
trained and experienced prior service manpower. Reserve Marines bring 
to the table not only their Marine Corps skills but also their civilian 
training and experience as well. The presence of police officers, 
engineers, lawyers, skilled craftsmen, business executives and the 
college students who fill our Reserve ranks serves to enrich the Total 
Force. The Marine Corps appreciates the recognition given by Congress 
to employer relations, insurance benefits and family support. Such 
programs should not be seen as ``rewards'' or ``bonuses,'' but as tools 
that will sustain the Force in the years ahead.
    Support to the Global War on Terrorism has reached the point where 
80 percent of the current Marine Corps Reserve leadership has deployed 
at least once. Nevertheless, the Marine Corps Reserve is currently 
achieving higher retention rates than the benchmark average from the 
last three fiscal years. As of January, fiscal year 2005, the OSD 
attrition statistics for Marine Corps Reserve unit officers is 10.9 
percent compared to the current benchmark average of 15.8 percent. For 
the same time period, Reserve unit enlisted attrition is 6.4 percent 
compared to 8.5 percent average.
    Good retention goes hand-in-hand with the successes of our 
recruiters. In fiscal year 2004, the Marine Corps Reserve achieved 100 
percent of its recruiting goal for non-prior service recruiting (6,165) 
and exceeded its goal for prior service recruiting (2,083). For our 
reserve component, junior officer recruiting remains the most 
challenging area. We are successfully expanding reserve commissioning 
opportunities for our prior-enlisted Marines in order to grow some of 
our own officers from Marine Forces Reserve units and are exploring 
other methods to increase the participation of company grade officers 
in the Selective Marine Corps Reserve through increased recruiting 
efforts and increased active duty command emphasis on Reserve 
opportunities and participation. We thank Congress for the continued 
support of legislation to allow bonuses for officers in the Selective 
Marine Corps Reserve who fill a critical skill or shortage. We are 
aggressively implementing the Selected Reserve Officer Affiliation 
Bonus program and expect it to fill fifty vacant billets this year, 
with plans to expand the program in the coming years. We appreciate 
your continued support and funding of incentives such as this, which 
offset the cost that officers must often incur in traveling to billets 
at Marine Corps Reserve locations nationwide.

                            QUALITY OF LIFE

    Our future success will rely on the Marine Corps' most valuable 
asset--our Marines and their families. We, Marine Forces Reserve, 
believe it is our obligation to arm our Marines and their families with 
as much information as possible on the programs and resources available 
to them. Arming our Marines and their families with information on 
their education benefits, available childcare programs, family 
readiness resources and the health care benefits available to them, 
provides them with unlimited potential for their quality of life.

Education
    Last year I testified that there were no laws offering academic and 
financial protections for Reserve military members who are college 
students. I was glad to see that there is movement in Congress to 
protect our college students and offer greater incentives for all 
service members to attend colleges. I appreciate recent 2005 
legislation protecting a military member's college education 
investments and status when called to duty.
    More than 1,000 Marine Forces Reserve Marines chose to use Tuition 
Assistance in fiscal year 2004 in order to help finance their 
education. This Tuition Assistance came to more than $1.9 million in 
fiscal year 2004 for more than 3,700 courses. Many of these Marines 
were deployed to Afghanistan and Iraq, and took their courses via 
distance learning courses. In this way Tuition Assistance helped to 
mitigate the financial burden of education and maintained progress in 
the Marine's planned education schedule. We support continued funding 
of Tuition Assistance as currently authorized for activated Reserves. I 
fully support initiatives that will increase G.I. Bill benefits for 
Reserve and National Guard service members, as it is a key retention 
and recruiting tool and an important part of our Commandant's guidance 
to enhance the education of all Marines. House Resolution 4200, passed 
by both the House and Senate in October 2004 authorized Montgomery G.I. 
Bill benefits for certain Reserve and National Guard service members 
and increased the benefits for others. I heartily thank you for this 
initiative and look forward to it's anticipated implementation by the 
Department of Veterans Affairs in September 2005.

Child Care Programs
    Marines and their families are often forced to make difficult 
choices in selecting childcare, before, during and after a Marine's 
deployment in support of the Global War on Terror. We are deeply 
grateful for the joint initiative funded by the Department of Defense 
and announced on March 3, 2005 by the Boys and Girls Clubs of America 
and the National Association of Child Care Resource and Referral 
Agencies. Without the fiscal authorization provided by the Senate and 
House, these programs could not have been initiated or funded. These 
combined resources have immeasurably contributed to the quality of life 
of our Marines' and their families. I thank you all for your support in 
the past and the future in providing sufficient funds for these key 
initiatives.

Family Readiness
    Everyone in Marine Forces Reserve recognizes the strategic role our 
families have in our mission readiness, particularly in our 
mobilization preparedness. We help our families to prepare for day-to-
day military life and the deployment cycle (Pre-Deployment, Deployment, 
Post-Deployment, and Follow-On) by providing educational opportunities 
at unit Family Days, Pre-Deployment Briefs, Return and Reunion, Post-
Deployment Briefs and through programs such as the Key Volunteer 
Network (KVN) and Lifestyle Insights, Networking, Knowledge and Skills 
(L.I.N.K.S.). We also envision the creation of Regional Quality of Life 
Coordinators, similar to the Marine Corps Recruiting Command program, 
for our Reserve Marines and their families.
    At each of our Reserve Training Centers, the KVN program serves as 
the link between the command and the family members, providing them 
with official communication, information and referrals. The Key 
Volunteers, many of whom are parents of young, un-married Marines, 
provide a means of proactively educating families on the military 
lifestyle and benefits, provide answers for individual questions and 
areas of concerns and, perhaps most importantly, enhance the sense of 
community within the unit. The L.I.N.K.S. program is a spouse-to-spouse 
orientation service offered to family members to acquaint them with the 
military lifestyle and the Marine Corps, including the challenges 
brought about by deployments. Online and CD-ROM versions of L.I.N.K.S. 
makes this valuable tool more readily accessible to families of Reserve 
Marines not located near Marine Corps installations.
    MCCS One Source is another important tool that provides Marines and 
their families with around-the-clock information and referral service 
for subjects such as parenting, childcare, education, finances, legal 
issues, elder care, health, wellness, deployment, crisis support and 
relocation via toll-free telephone and Internet access.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector and Instructor staff uses all these tools to provide 
families of activated or deployed Marines with assistance in developing 
proactive, prevention-oriented steps such as family care plans, powers 
of attorney, family financial planning, and enrollment in the Dependent 
Eligibility and Enrollment Reporting System.
    All of these programs depend on adequate funding of our manpower 
and O&M accounts.

Managed Health Network
    Managed Health Network, through a contract with the Department of 
Defense, is providing specialized mental health support services to 
military personnel and their families. This unique program is designed 
to bring counselors on-site at Reserve Training Centers to support all 
phases of the deployment cycle. Marine Forces Reserve is incorporating 
this resource into Family Days, Pre-Deployment Briefs and Return & 
Reunion Briefs to ensure a team approach. Follow-up services are then 
scheduled after Marines return from combat at various intervals to 
facilitate on-site individual and group counseling.

TRICARE
    Since 9/11, Congress has gone to great lengths to improve TRICARE 
benefits available to the Guard and Reserve and we are very 
appreciative to Congress for all the recent changes to the program. 
Beginning April 2005, TRICARE Reserve Select will be implemented, 
providing eligible Guard and Reserve members with comprehensive health 
care. This new option, similar to TRICARE Standard, is designed 
specifically for reserve members activated on or after September 11, 
2001 who enter into an agreement to serve continuously in the Selected 
Reserve for a period of 1 or more years. Other key provisions include 
coverage for Selected Reserves after an activation, which provides a 
year of coverage while in non-active duty status for every 90 days of 
consecutive active duty. The member must agree to remain in the 
Selected Reserve for one or more whole years. Also, a permanent earlier 
eligibility date for coverage due to activation has been established at 
up to 90 days before an active duty reporting date for members and 
their families.
    The new legislation also waives certain deductibles for activated 
members' families. This reduces the potential double payment of health 
care deductibles by members' civilian coverage. Another provision 
allows DOD to protect the beneficiary by paying the providers for 
charges above the maximum allowable charge. Transitional health care 
benefits have been established, regulating the requirements and 
benefits for members separating. We are thankful for these permanent 
changes that extend healthcare benefits to family members and extend 
benefits up to 90 days prior to their activation date and up to 180 
days after de-activation.
    Reserve members are also eligible for dental care under the Tri-
Service Remote Dental Plan for a moderate monthly fee. In an effort to 
increase awareness of the new benefits, Reserve members are now 
receiving more information regarding the changes through an aggressive 
education and marketing plan. I would like to also ask Congress and 
this committee for their support of the new fiscal year 2005 
legislation that includes improvements. These initiatives will further 
improve the healthcare benefits for our reserves and National Guard 
members and families.

Casualty Assistance
    One of the most significant responsibilities of the site support 
staff is that of casualty assistance. It is at the darkest hour for our 
Marine families that our support is most invaluable. By virtue of our 
dispersed posture, Marine Forces Reserve site support staffs are 
uniquely qualified to accomplish the majority of all Marine Corps 
casualty notifications and provide the associated family assistance. 
Currently, Marine Forces Reserve conducts approximately 92 percent of 
all notifications and follow-on assistance for the families of our 
fallen Marine Corps brethren. In recognition of this greatest of 
sacrifices, there is no duty to our families that we treat with more 
importance. However, the duties of our casualty assistance officers go 
well beyond notification. We ensure that they are adequately trained, 
equipped and supported by all levels of command. Once an officer or 
staff noncommissioned officer is designated as a casualty assistance 
officer, he or she assists the family members in every possible way, 
from planning the return and final rest of their Marine, counseling 
them on benefits and entitlements, to providing a strong shoulder when 
needed. The casualty officer is the family's central point of contact, 
serving as a representative or liaison with the media, funeral home, 
government agencies or any other agency that may be involved. Every 
available asset is directed to our Marine families to ensure they 
receive the utmost support. The Marine Corps Reserve also provides 
support for military funerals for our veterans. The Marines at our 
reserve sites performed 7,621 funerals in calendar year.
    The Marine Corps is also committed to supporting the wishes of 
seriously injured Marines, allowing them to remain on active duty if 
they desire or making their transition home as smooth as possible. 
Leveraging the organizational network and strengths of the Marine for 
Life program, we are currently implementing an Injured Support program 
to assist injured Marines, Sailors serving with Marines, and their 
families. The goal is to bridge the gap between military medical care 
and the Department of Veterans Affairs--providing continuity of support 
through transition and assistance for several years afterwards. Planned 
features of the program include: advocacy for Marines, Sailors and 
their families within the Marine Corps and with external agencies; pre 
and post-Service separation case management; assistance in working with 
physical evaluation boards; an interactive web site for disability/
benefit information; an enhanced Marine Corps Community Services ``One 
Source'' capability for 24/7/365 information; facilitation assistance 
with Federal hiring preferences; coordination via an assigned Marine 
liaison with veterans, public, and private organizations providing 
support to our seriously injured; improved Department of Veterans 
Affairs handling of Marine cases; and development of any required 
proposals for legislative changes to better support our Marines and 
Sailors. This program began limited operations in early January 2005. 
We are able to support these vitally important programs because of the 
wide geographic dispersion of our units.

Marine For Life
    Our commitment to take care of our own includes a Marine's 
transition from honorable military service back to civilian life. 
Initiated in fiscal year 2002, the Marine For Life program continues to 
provide support for 27,000 Marines transitioning from active service 
back to civilian life each year. Built on the philosophy, ``Once a 
Marine, Always a Marine,'' Reserve Marines in over eighty cities help 
transitioning Marines and their families to get settled in their new 
communities. Sponsorship includes assistance with employment, 
education, housing, childcare, veterans' benefits and other support 
services needed to make a smooth transition. To provide this support, 
the Marine For Life program taps into a network of former Marines and 
Marine-friendly businesses, organizations and individuals willing to 
lend a hand to a Marine who has served honorably. Approximately 2,000 
Marines are logging onto the web-based electronic network for 
assistance each month. Assistance from career retention specialists and 
transitional recruiters helps transitioning Marines tremendously by 
getting the word out about the program.

Employer Support
    Members of the Guard and Reserve who choose to make a career must 
expect to be subject to multiple activations. Employer support of this 
fact is essential to a successful activation and directly effects 
retention and recruiting. With continuous rotation of Reserve Marines, 
we recognize that a the rapid deactivation process is a high priority 
to reintegrate Marines back into their civilian lives quickly and 
properly in order to preserve the Reserve force for the future. We 
support incentives for employers who support their activated Guard and 
Reserve employees such as the Small Business Military Reservist Tax 
Credit Act, which allows small business employers a credit against 
income tax for employees who participate in the military reserve 
component and are called to active duty.

                               CONCLUSION

    As I have stated in the beginning of my testimony, your consistent 
and steadfast support of our Marines and their families has directly 
contributed to our successes, both past and present, and I thank you 
for that support. As we push on into the future, your continued concern 
and efforts will play a vital role in the success of Marine Forces 
Reserve. Due to the dynamics of the era we live in, there is still much 
to be done.
    The Marine Corps Reserve continues to be a vital part of the Marine 
Corps Total Force Concept. Supporting your Reserve Marines at the 185 
sites throughout the United States, by ensuring they have the proper 
facilities, equipment and training areas, enables their selfless 
dedication to our country. Since 9/11, your Marine Corps Reserve has 
met every challenge and has fought side by side with our active 
counterparts. No one can tell the difference between the active and 
reserve--we are all Marines.
    The consistent support from Congress for upgrades to our war 
fighting equipment has directly affected the American lives saved on 
the battlefield. However, as I stated earlier, much of the same 
fighting equipment throughout the force has deteriorated rapidly due to 
our current operational tempo. In this regard, I fully support the 
fiscal year 2005 Supplemental request.
    Although we currently maintain a high level of readiness, we will 
need significant financial assistance to refresh and/or replace our war 
fighting equipment in the very near future. Also, as the Marine Forces 
Reserve adjusts its force structure over the next 2 years, several 
facilities will need conversions to create proper training environments 
for the new units. Funding for these conversions would greatly assist 
our war fighting capabilities.
    As I have stated earlier, NGREA continues to be extremely vital to 
the health of the Marine Corps Reserve, assisting us in staying on par 
with our active component. We would not have been able to attain our 
current level of deployed readiness while providing in-theater 
operational capabilities without your support of this key program.
    My final concerns are for Reserve and Guard members, their families 
and employers who are sacrificing so much in support of our Nation. 
Despite strong morale and good planning, activations and deployments 
place great stress on these honorable Americans. Your continued support 
for ``quality of life'' initiatives will help sustain Reserve Marines 
in areas such as employer incentives, educational benefits, medical 
care and family care.
    My time as Commander, Marine Forces Reserve has been tremendously 
rewarding. Testifying before congressional committees and subcommittees 
has always been a great pleasure, as it has afforded me the opportunity 
to let the American people know what an outstanding patriotic group of 
citizens we have in the Marine Corps Reserve. Thank you for your 
continued support.

    Senator Stevens. General Bradley.

STATEMENT OF LIEUTENANT GENERAL JOHN A. BRADLEY, CHIEF, 
            AIR FORCE RESERVE, UNITED STATES AIR FORCE
    General Bradley. Senator Stevens, sir, it is an honor to be 
here, a privilege to represent the men and women of the Air 
Force Reserve Command before you today. I want to thank you. I 
have provided a written statement, but orally I want to thank 
you for the generous support that you have given us over the 
years, and solicit your continued support for us.
    We have so many thousands of very hard-working young men 
and women serving our Air Force, serving our Nation, helping it 
do its job around the world. I am very proud of them. 
Representing our enlisted force, I have with me today my 
Command Chief Master Sergeant, Chief Master Sergeant Jack 
Winsett with me here today in the hearing room. He gives me 
great advice and counsel about taking care of our enlisted 
force, the force who really help us get our job done.
    Again, we thank you for the great support you have given us 
and we look forward to your questions, sir. Thank you.
    Senator Stevens. Thank you.
    [The statement follows:]

        Prepared Statement of Lieutenant General John A. Bradley

    Mr. Chairman, and distinguished members of the Committee, I 
appreciate the opportunity to appear before you today. I want to thank 
you for your continued support, which has helped your Air Force Reserve 
address vital recruiting, retention, modernization, and infrastructure 
needs. Your passage of last year's pay and quality of life initiatives 
sent a clear message to our citizen Airmen that their efforts are 
appreciated and supported by the American people, and also by those of 
you in the highest positions of government. Wherever you find the 
United States Air Force, at home or abroad, you will find the active 
and Reserve members working side-by-side, trained to one tier of 
readiness, seamlessly integrated into a military force that is READY 
NOW!

                              TOTAL FORCE

    The Air Force Reserve (AFR) continues to address new challenges in 
2005. Although Partial Mobilization persists, demobilizations have 
increased significantly. In spite of the strains that mobilization has 
placed on the personal and professional lives of our Reserve members, 
volunteerism continues to be a significant means of contribution. 
Volunteerism is the preferred method of fulfilling requirements for 
future Global War On Terror (GWOT) actions. While dedicated members of 
the Air Force Reserve continue to meet validated operational 
requirements, the AFR, in cooperation with the Air Force Personnel 
Requirements division is exploring ways to enhance volunteerism, 
including use of volunteer Individual Ready Reserve (IRR) members. 

Recruiting and retention of quality service members are a top priority 
for the Air Force Reserve and competition for these members among other 
services, as well as within the civilian community has reached an all-
time high.
Recruiting
    In fiscal year 2004, and for the last 4 consecutive years, Air 
Force Reserve Command (AFRC) exceeded its recruiting goal. This 
remarkable feat is achieved through the outstanding efforts of our 
recruiters and with the superb assistance of our Reserve members who 
help tell our story of public service to the American people. Despite 
the long-term effects of high Operations and Personnel (OPS/PERS) 
Tempo, AFRC only fell short of its fiscal year 2004 end-strength by .7 
percent, reaching 99.37 percent, or merely 578 assigned short of 
congressionally funded requirements.
    Recruiting continues to face significant challenges. The pool of 
active duty separatees continues to shrink due to force reductions over 
the last decade, and the competition for these members has become even 
keener. The active duty is intensifying its efforts in retention and 
the National Guard is competing for these assets as well. Additionally, 
the current high OPS/PERS Tempo and a perceived likelihood of 
activation and deployment are being routinely cited as significant 
reasons why separating members are declining to choose continuing 
military service in the Reserve. These issues further contribute to the 
civilian sector's ability to attract these members away from military 
service. One consequence of the reduced success in attracting 
separating members from active duty is the need to make up this 
difference through attracting non-prior service (NPS) members. 
Historically, Reserve Recruiting accesses close to 25 percent of 
eligible separating active duty Air Force members (i.e. no break in 
service), which accounts for a significant portion of annual 
accessions. While having enough Basic Military Training and Technical 
Training School quotas has long been an issue, the increased dependence 
on NPS accessions strains these requirements even further. To meet 
training requirements, 4,000 training slots per year are now allocated 
and funded for the Air Force Reserve.
    A new forecasting tool developed by our training division allows 
everyone, from unit level to wing training managers, to Numbered Air 
Force (NAF) and AFRC Air Force Specialty Code (AFSC) functional 
managers, to participate in the forecasting with the Chief of 
Recruiting Services providing final approval.
    Finally, with overall end-strength of the Air Force Reserve dipping 
below 100 percent, some career-fields are undermanned. In order to 
avoid possible readiness concerns, recruiters will continue to meet the 
challenge of guiding applicants to critical job specialties.
    The Reserve is taking advantage of an active duty Force Shaping 
initiative. Beginning in fiscal year 2004 and ending in fiscal year 
2005, the Air Force will offer active duty members the opportunity to 
use the Palace Chase program to change components. The Air Force 
Reserve is using this opportunity to access prior service members with 
critical career skills. In fiscal year 2004, 1,200 active duty members 
utilized Palace Chase to join the Air Reserve Component, with over half 
selecting the Air Force Reserve. This number may grow in fiscal year 
2005.
    For recruits who have not served in a military component, the 
development of the ``Split Training Option'' which began in October 
2003, provides a flexible tool for recruiters to use in scheduling 
Basic Military Training classes and Technical School classes at non-
consecutive times.

Retention
    Retention in both officer and enlisted categories has remained 
strong. Fiscal year 2004 ended with officer retention at 92.3 percent 
and overall enlisted retention at 88.4 percent. These retention rates 
are in line with averages over the last 5 years.
    As the Reserve Component (RC) continues to surge to meet 
operational requirements necessary for the successful prosecution of 
the GWOT, we continue to examine existing laws and policies that govern 
enlisted incentives and related compensation issues. The reserve 
enlisted bonus program is a major contributor to attract and retain 
both unit and individual mobilization augmentee members in those 
critical unit type code tasked career fields. To enhance retention of 
our reservists, we work to ensure relevant compensation statutes 
reflect the growing reliance on the RC to accomplish active duty 
missions and provide compensatory equity between members of both 
components. The reenlistment bonus authority of the active and reserve 
components is one area we are working to change. We continue to explore 
the feasibility of expanding the bonus program to our Air Reserve 
Technician (ART) members. In addition, the Aviation Continuation Pay 
(ACP), the Career Enlisted Flyers Incentive Pay (CEFIP) and Aircrew 
Incentive Pay (ACIP) continue to be offered to retain our rated assets, 
both officer and enlisted.
    The Reserve has made many strides in increasing education benefits 
for our members, offering 100 percent tuition assistance for those 
individuals pursuing an undergraduate degree and continuing to pay 75 
percent for graduate degrees. We also employ the services of the 
Defense Activity for Non-Traditional Education Support (DANTES) for 
College Level Examination Program (CLEP) testing for all reservists and 
their spouses.
    We will continue to seek innovative ways to enhance retention.
Quality of Life Initiatives
    We expanded the AFR Special Duty Assignment Pay (SDAP) program by 
including an additional six Air Force Specialty Codes to enhance 
recruitment and retention, improve program alignment, and provide 
parity to Reserve members. Where there is Reserve strength, the 
expansion authorizes the payment of SDAP to a reservist qualifying in 
the same skill and location as their active duty counterpart. The AFR 
SDAP program has continued to evolve and improve since Secretarial 
authority removed the tour length requirement for the Air Reserve 
Component in July 2000.
    We appreciate the support provided in the fiscal year 2005 National 
Defense Authorization Act that expanded the Reserve health benefits. At 
your direction, the Department is implementing the new TRICARE Reserve 
benefits that will ensure the individual medical readiness of members 
of the Guard and Reserve, and contribute to the maintenance of an 
effective Air Force Reserve force. The Department has made permanent 
their early access to TRICARE upon notification of call-up and their 
continued access to TRICARE for 6 months following active duty service 
for both individuals and their families. We are implementing the 
TRICARE Reserve Select (TRS) coverage for Air Force Reserve personnel 
and their families who meet the requirements established in law. TRS is 
a premium-based healthcare plan available for purchase by certain 
eligible members of the National Guard and Reserves who have been 
activated for a contingency operation since September 11, 2001. This 
program will serve as an important bridge for all Reserve and Guard 
members as they move back to other employment and the utilization of 
the private health care market. We believe that the design of TRS in a 
manner that supports retention and expands health benefits is creative 
and should be studied before any further adjustments are contemplated.
    A change in the Joint Federal Regulation Travel policy authorized 
expenses for retained lodging for a member who takes leave during a TDY 
contingency deployment to be paid as a reimbursable expense. This 
change became effective February 24, 2004, and has since alleviated the 
personal and financial hardship deployed reservists experience with 
regard to retaining lodging and losing per diem while taking leave.

                          FLEET MODERNIZATION

F-16 Fighting Falcon
    Air Combat Command and AFRC are upgrading the F-16 Block 25/30/32 
in all core combat areas by installing Global Positioning System (GPS) 
navigation system, Night Vision Imaging System (NVIS) and NVIS 
compatible aircraft lighting, Situational Awareness Data Link (SADL), 
Target Pod integration, GPS steered ``smart weapons'', an integrated 
Electronics Suite, Pylon Integrated Dispenser System (PIDS), Digital 
Terrain System (DTS), and the ALE-50 (towed decoy system). The 
acquisition of the Litening Advanced targeting pod (ATP) marked the 
greatest jump in combat capability for AFRC F-16s in years. At the 
conclusion of the Persian Gulf War, it became apparent that the ability 
to employ precision-guided munitions, specifically laser-guided bombs, 
would be a requirement for involvement in future conflicts. Litening 
affords the capability to employ precisely targeted Laser Guided Bombs 
(LGBs) effectively in both day and night operations, any time at any 
place. This capability allows AFRC F-16s to fulfill any mission tasking 
requiring a self-designating, targeting-pod platform, providing needed 
relief for heavily tasked active-duty units. These improvements, and 
recent funding to upgrade all Litening pods to the latest version 
(Litening AT), have put AFRC F-16s at the leading edge of combat 
capability. The combination of these upgrades are unavailable in any 
other combat aircraft and make the Block 25/30/32 F-16 the most 
versatile combat asset available to a theater commander.
    Tremendous work has been done to keep the Block 25/30/32 F-16 
employable in today's complex and demanding combat environment. This 
success has been the result of far-sighted planning that has 
capitalized on emerging commercial and military technology to provide 
specific capabilities that were projected to be critical. That planning 
and vision must continue if the F-16 is to remain useable as the 
largest single community of aircraft in America's fighter force. Older 
model Block 25/30/32 F-16 aircraft require structural improvements to 
guarantee that they will last as long as they are needed. They also 
require data processor and wiring system upgrades in order to support 
employment of more sophisticated precision attack weapons. These models 
must have improved pilot displays to integrate and present the large 
volumes of data now provided to the cockpit. Additional capabilities 
are needed to eliminate fratricide and allow weapons employment at 
increased range, day or night and in all weather conditions. They must 
also be equipped with significantly improved threat detection, threat 
identification, and threat engagement systems in order to meet the 
challenges of combat survival and employment for the next 20 years.

A/OA-10 Thunderbolt
    There are five major programs over the next 5 years to ensure the 
A/OA-10 remains a viable part of the total Air Force. The first is 
increasing its precision engagement capabilities. The A-10 was designed 
for the Cold War and is the most effective Close Air Support (CAS) 
anti-armor platform in the USAF, as demonstrated during the Persian 
Gulf War. Unfortunately, its systems have not kept pace with modern 
tactics as was proven during Operation Allied Force. Until the Litening 
II Advanced Targeting Pod (ATP) was integrated, the AGM-65 (Maverick) 
was the only precision-guided weapon carried on the A-10. The 
integration method used to employ the targeting, however, was an 
interim measure and the A-10 still lacks a permanent, sustainable means 
of integrating the Litening pod into its avionics. Additionally, there 
has been a critical need for a datalink to help identify friendly 
troops and vehicles, which will reduce fratricide. There has been a 
datalink solution available for the A-10 since 1996 and is currently 
employed on the F-16. Newer weapons are being added to the Air Force 
inventory regularly, but the current avionics and computer structure 
limits the deployment of these weapons on the A-10. The Precision 
Engagement (PE) and Suite 3 programs will help correct this limitation, 
but the AFR does not expect to see PE installed until fiscal year 2008 
and it still does not include a datalink. Next, critical systems on the 
engines are causing lost sorties and increased maintenance activity. 
Several design changes to the Accessory Gearbox will extend its useful 
life and reduce the existing maintenance expense associated with the 
high removal rate. The other two programs increase the navigation 
accuracy and the overall capability of the fire control computer, both 
increasing the weapons system's overall effectiveness.
    Looking to the future, there is a requirement for a training 
package of 30 PRC-112B/C survival radios for 10th Air Force fighter, 
rescue, and special operations units. While more capable, these radios 
are also more demanding to operate and additional units are needed to 
ensure the aircrews are fully proficient in their operation.
    One of the A-10 challenges is money for upgrade in the area of high 
threat survivability. Previous efforts focused on an accurate missile 
warning system and effective, modern flares; however, a new preemptive 
covert flare system may satisfy the requirement. The A-10 can leverage 
the work done on the F-16 Radar Warning Receiver and C-130 towed decoy 
development programs to achieve a cost-effective capability. The A/OA-
10 has a thrust deficiency in its operational environment. As taskings 
evolved, commanders have had to reduce fuel loads, limit take-off times 
to early morning hours and refuse taskings that increase gross weights 
to unsupportable limits. Forty-five AFRC A/OA-10s need upgraded 
structures and engines (two engines per aircraft plus five spares for a 
total of 95 engines).

B-52 Stratofortress
    In the next 5 years, several major programs will be introduced to 
increase the capabilities of the B-52 aircraft. Included here are 
programs such as a Crash Survivable Flight Data Recorder and a Standard 
Flight Data Recorder, upgrades to the current Electro-Optical Viewing 
System, Chaff and Flare Improvements, and improvements to cockpit 
lighting and crew escape systems to allow use of Night Vision Goggles.
    Enhancements to the AFRC B-52 fleet currently under consideration 
are:
  --Visual clearance of the target area in support of other 
        conventional munitions employment
  --Self-designation of targets, eliminating the current need for 
        support aircraft to accomplish this role
  --Target coordinate updates to JDAM and WCMD, improving accuracy
  --Bomb Damage Assessment of targets
    In order to continue the viability of the B-52, several 
improvements and modifications are necessary. Although the aircraft has 
been extensively modified since its entry into the fleet, the advent of 
precision guided munitions and the increased use of the B-52 in 
conventional and Operations Other Than War (OOTW) operation require 
additional avionics modernization and changes to the weapons 
capabilities such as the Avionics Midlife Improvement, Conventional 
Enhancement Modification (CEM), and the Integrated Conventional Stores 
Management System (ICSMS). Changes in the threat environment are also 
driving modifications to the defensive suite including Situational 
Awareness Defense Improvement and the Electronic Counter Measures 
Improvement (ECMI).
    Recently, the B-52 began using the Litening Advanced Targeting Pod 
to locate targets and employ precision weapons. The targeting pod 
interface has adapted equipment from an obsolete system. The system 
works but requires an updated system to take full advantage of the 
targeting pod capability.
    Like the A-10, it also requires a datalink to help reduce 
fratricide as its mission changes to employ ordinance closer and closer 
to friendly forces. The Litening pod continues to see incremental 
improvements but needs emphasis on higher resolution sensors and a more 
powerful, yet eye-safe laser, to accommodate the extremely high 
employment altitudes (over 40,000 feet) of the B-52.
    The B-52 was originally designed to strike targets across the globe 
from launch in the United States. This capability is being repeatedly 
demonstrated, but the need for real time targeting information and 
immediate reaction to strike location changes is needed. Multiple 
modifications are addressing these needs. These integrated advanced 
communications systems will enhance the B-52 capability to launch and 
modify target locations while airborne. Other communications 
improvements are the Global Air Traffic Management (GATM) Phase 1, an 
improved ARC-210, the KY-100 Secure Voice, and a GPS-TACAN Replacement 
System (TRS).
    As can be expected with an airframe of the age of the B-52, much 
must be done to enhance its reliability and replace older, less 
reliable or failing hardware. These include a Fuel Enrichment Valve 
Modification, Engine Oil System Package, and an Engine Accessories 
Upgrade, all to increase the longevity of the airframe.

MC-130H Talon
    In 2006, AFRC and Air Force Special Operations Command will face a 
significant decision point on whether on not to retire the Talon I. 
This largely depends on the determination of the upcoming SOF Tanker 
Requirement Study. Additionally, the MC-130H Talon II aircraft will be 
modified to air refuel helicopters. The Air Force CV-22 is being 
developed to replace the entire MH-53J Pave Low fleet, and the MC-130E 
Combat Talon l. The CV-22 program has been plagued with problems and 
delays and has an uncertain future. Ultimately, supply and demand will 
impact willingness and ability to pay for costly upgrades along with 
unforeseeable expenses required to sustain an aging weapons system.

HC-130P/N Hercules
    Over the next 5 years, there will be primarily sustainability 
modifications to the weapons systems to allow it to maintain 
compatibility with the remainder of the C-130 fleet. In order to 
maintain currency with the active duty fleet, AFRC will accelerate the 
installation of the APN-241 as a replacement for the APN-59. 
Additionally, AFRC will receive two aircraft modified from the `E' 
configuration to the Search and Rescue configuration. All AFRC assets 
will be upgraded to provide Night Vision Imaging System (NVIS) mission 
capability for C-130 combat rescue aircraft.

HH-60G Pave Hawk
    Combat Search and Rescue (CSAR) Mission Area modernization strategy 
currently focuses on resolving critical weapon system capability 
shortfalls and deficiencies that pertain to the Combat Air Force's 
Combat Identification, Data Links, Night/All-Weather Capability, Threat 
Countermeasures, Sustainability, Expeditionary Operations, and Para 
rescue modernization efforts. Since the CAF's CSAR forces have several 
critical capability shortfalls that impact their ability to effectively 
accomplish their primary mission tasks today, most CSAR modernization 
programs/initiatives are concentrated in the near-term (fiscal year 
2000-2006). These are programs that:
  --Improve capability to pinpoint location and authenticate identity 
        of downed aircrew members/isolated personnel
  --Provide line-of-sight and over-the-horizon high speed LPI/D data 
        link capabilities for improving battle space/situational 
        awareness
  --Improve Command and Control capability to rapidly respond to 
        ``isolating'' incidents and efficiently/effectively task 
        limited assets
  --Improve capability to conduct rescue/recovery operations at night, 
        in other low illumination conditions, and in all but the most 
        severe weather conditions
  --Provide warning and countermeasure capabilities against RF/IR/EO/DE 
        threats
  --Enhance availability, reliability, maintainability, and 
        sustainability of aircraft weapon systems

WC/C-130J Hercules
    The current fleet is being replaced with new WC-130J models. This 
replacement allows for longer range and ensures weather reconnaissance 
capability well into the next decade. Once conversion is complete, the 
53rd Weather Reconnaissance Squadron will consist of 10 WC-130J's. 
Presently, there are ten WC-130J models at Keesler AFB, MS undergoing 
Qualification Test and Evaluation (QT&E). Deliveries were based on the 
resolution of deficiencies identified in test and will impact the start 
of operational testing and the achievement of Interim Operational 
Capability (IOC). Major deficiencies include: propellers (durability/
supportability) and radar tilt and start up attenuation errors. AFRC 
continues to work with the manufacturer to resolve the QT&E documented 
deficiencies.

C-5 Galaxy
    Over the next 4 years, there will be primarily sustainability 
modifications to the weapons systems to allow the C-5 to continue as 
the backbone of the airlift community. Several major modifications will 
be performed on the engines to increase reliability and 
maintainability. Additionally, the remainder of the fleet will receive 
the avionics modernization that replaces cockpit displays while 
upgrading critical navigational and communications equipment. Also, 
consideration is being made to install Aircraft Defensive Systems on C-
5A aircraft. Installation of Aircraft Defensive Systems will increase 
the survivability of the C-5A in hostile situations.

C-17 Globemaster
    In the summer of fiscal year 2005, the first AFRC Unit Equipped C-
17 squadron will stand up at March AFB. This new squadron will enhance 
the mobility capabilities for the United States military in peacetime 
and in conflict by rapid strategic delivery of troops and all type of 
cargo while improving the ability of the total airlift system to 
fulfill the worldwide air mobility requirements.

C-141 Starlifter
    For the past 31 years, the C-141 has been the backbone of mobility 
for the United States military in peacetime and in conflict. In 
September 2004 the C-141 retired from the active-duty Air Force; 
however, Air Force Reserve Command will continue the proud heritage of 
this mobility workhorse and will fly the C-141 through the third 
quarter of fiscal year 2006. AFRC remains focused in flying the mission 
of the C-141 and looks to the future in transitioning to a new mission 
aircraft.

C-130 Hercules
    AFRC has 127 C-130s including the E, H, J and N/P models. The 
Mobility Air Forces (MAF) currently operate the world's best theater 
airlift aircraft, the C-130, and it will continue in service through 
2020. In order to continue to meet the Air Force's combat delivery 
requirements through the next 17 years, aircraft not being replaced by 
the C-130J will become part of the C-130X Program. Phase 1, Avionics 
Modernization Program (AMP) program includes a comprehensive cockpit 
modernization by replacing aging, unreliable equipment and adding 
additional equipment necessary to meet Nav/Safety and GATM 
requirements. Together, C-130J and C-130X modernization initiatives 
reduce the number of aircraft variants from 20 to two core variants, 
which will significantly reduce the support footprint and increase the 
capability of the C-130 fleet. The modernization of our C-130 forces 
strengthens our ability to ensure the success of our war fighting 
commanders and lays the foundation for tomorrow's readiness.

KC-135E/R Stratotanker
    One of Air Force Reserve Command's most challenging modernization 
issues concerns our unit-equipped KC-135s. Eight of the nine air 
refueling squadrons are equipped with the KC-135R, while the remaining 
one squadron is equipped with KC-135Es. The KC-135E, commonly referred 
to as the E-model, has engines that were recovered from retiring 
airliners. This conversion, which was accomplished in the early- to 
mid-1980s, was intended as an interim solution to provide improvement 
in capability while awaiting conversion to the R-model with its new, 
high-bypass, turbofan engines and other modifications. The final KC-
135E squadron is currently transitioning to the KC-135R/T Model 
aircraft which is scheduled to be completed in fiscal year 2005.
    The ability to conduct the air-refueling mission has been stressed 
in recent years. Although Total Force contributions have enabled 
success in previous air campaigns, shortfalls exist to meet the 
requirements of our National Military Strategy. Air Mobility Command's 
(AMC) Tanker Requirements Study-2005 (TRS-05) identifies a shortfall in 
the number of tanker aircraft and aircrews needed to meet global 
refueling requirements in the year 2005. There is currently a shortage 
of KC-135 crews and maintenance personnel. Additionally, the number of 
KC-135 aircraft available to perform the mission has decreased in 
recent years due to an increase in depot-possessed aircraft with a 
decrease in mission capable (MC) rates.
    I would like to close by offering my sincere thanks to each member 
of this Committee for your continued support and interest in the 
quality of life of each Air Force Reservist. The pay increases and 
added benefits of the last few years have helped us through a 
significant and unprecedented time of higher operations tempo. This is 
my first opportunity to represent these fine young men and women as the 
Chief of Air Force Reserve, and I know that we are on the right path in 
establishing a stronger, more focused, force. It is a force no longer 
in Reserve, but integrated into every mission of the Air Force.

    Senator Stevens. Do you have anything further, General 
Helmly?
    General Helmly. No, sir.
    Senator Stevens. Gentlemen, you heard the discussion, I 
believe, about the bonuses and incentives for reenlistment. 
Could each of you tell me, what do you think is the most 
important incentive we have from your point of view for your 
service? General?
    General Helmly. Sir, let me say first that I am very 
conscious of the fact that there are two factors that play into 
a decision to enlist, as well as reenlist. The first one is of 
course the monetary factor. The second one is a service ethic. 
We have recently really started to emphasize the service ethic.
    I found when I assumed this position it was my judgment we 
had strayed too far in the direction of monetary only, so we 
have changed our recruiting ads, we have changed our retention 
focus. As I personally participated in reenlisting about 105 
soldiers in January between Afghanistan and Iraq, there were 
two factors they cited when I signed their reenlistment papers 
after the ceremony.
    The first one was that the $5,000 to $15,000 bump in the 
fiscal year 2005 authorization act for first term reenlistment 
was a deciding factor for them and their families. The second 
one, though, was--General McCarthy noted this--that the 
soldiers said, to a person: I am finally getting an opportunity 
to perform the skill for which I enlisted in the Army Reserve. 
That says to us that use of Reserve components, while not an 
anomaly in our Nation's history, has a decided effect on 
reenlisting the soldier.
    Thus, I caution against those who would say that the stress 
on the Reserve components is such we should not use them. It is 
my judgment we will be more unready if we return to that kind 
of usage factor.
    With regard to added incentives, I am conscious of the 
cost, and therefore it is my judgment that addressing the age 
at which the soldier becomes eligible to receive non-regular 
retired pay is a decided issue. I would also add that, while 
there is a decided monetary factor, our increase in money, I 
believe that we can create that money by looking at how we pay 
our soldiers on a daily basis.
    Largely, we pay our soldiers through 27 different forms of 
orders, each of which carries different entitlements for 
different periods. The type I and II BAH, which has been 
examined, we should move to a simpler pay formula that largely 
pays the Reserve component member a day's pay for a day's duty 
with a single BAH and the same kinds of entitlements that the 
active member receives--flight pay, parachute duty, hazardous 
duty, language proficiency, medical proficiency, et cetera, a 
much simpler formula that would put them on a scale roughly 
equivalent to their active counterparts.
    Last, I am not certain--in fact, I will tell you straight 
out, I share your concerns with regard to this pay 
comparability between my civilian employment level and the 
military pay. It is the lot of the American service member, all 
services, that all sacrifice. We have tremendous people in our 
Active components. To deny that some of them could achieve 
higher levels of pay in civilian life is a denial of the 
obvious. Many of them could.
    I will turn it over to my colleagues, sir.
    Senator Stevens. I appreciate that.
    Anyone else? Admiral.
    Admiral Cotton. Sir, I would echo every one of the 
General's comments, and I would add three thoughts. I would say 
that recruiting for the Reserve component starts while still in 
the Active component. This is a culture piece that we are 
attacking in the Navy, to educate everyone in the Active 
component about the importance of the total force. We believe 
in this so much that we think that when you are in the Active 
component you should no longer fill out a resignation letter. 
We think instead you should fill out a transition letter, 
because everyone does go to the Reserve component. We create 
expectations then.
    When they go into the Reserve component, they either go 
full-time support, they become a selected reservist, or, as 
many of them do, they go into the IRR, the individual ready 
reserve, which I think that we have not paid much attention to 
in the past. There are a lot of skill sets out there. We need 
to devise the systems whereas we track people and incentivize 
them to update, probably web-based, the things that they are 
doing in their civilian lives that we could reach out and get 
them while under contract in the IRR. We call that Sea Warrior. 
We are using a five-vector model. We measure the civilian skill 
sets which sometimes are used in the global war on terror.
    There is one other thought. There is a transition period, 
too. Our best recruit is someone who wants to re-serve. They 
are already trained. We recruit non-prior service, but the best 
people come with taxpayer money invested in them already as 
prior service. There is a transition period. For some people it 
is 3 months, 6 months; once they get steady, then they want to 
return to the force.
    We need to open up the aperture going after those folks 
when they leave and incentivize them and our leadership to look 
at those folks. If people return within an amount of time, then 
the Active component should not be hurt on retention or 
attrition because they stay in the force.
    Then last, about the parity, pay parity. We have to be 
careful of unintended consequences, because once you get in 
that foxhole, once you get out on the flight line, once you get 
aboard ship, when someone is earning more money than someone 
else because of some decision they made in prior life, you 
start to take apart good order and discipline. So I think we 
better watch that closely, sir.
    Senator Stevens. General McCarthy.
    General McCarthy. Mr. Chairman, I have not heard anything 
from either General Helmly or Admiral Cotton that I disagree 
with. I think, quite frankly, that from my own service 
perspective that the bonuses that are in place right now seem 
in terms of recruiting and reenlistment, seem to be sufficient.
    I will go back to what I said in my opening statement. 
Providing the funds and the equipment to enable first class 
training, first class preparation for combat of everybody in my 
force is the most important thing that I can do to recruit and 
retain the right people.
    We have been asked and have made some transformations of 
the force. We have shifted, not a great deal, but we have made 
some shifts in force structure in line with what we have 
learned in the war. We have got to equip these new units with 
the things that they need. We have got the people now and we 
can call them newly transformed units, but if they are not 
equipped with the right gear we are going to lose those folks.
    So those are very important issues, issues for us.
    Senator Stevens. Thank you.
    General Bradley.

               AIR FORCE RESERVE RETENTION AND EQUIPMENT

    General Bradley. Senator Stevens, briefly--I will not 
elaborate at all. I agree completely with my colleagues. On the 
issue of bonuses, they work certainly, but I do believe that 
there is an element of service that is keeping our people in, 
as General Helmly said earlier. They are very proud of what 
they are doing and the reason Air Force Reserve retention is 
higher than ever I believe is because people are very proud of 
what they do. They enjoy their jobs and their units and they 
believe they are contributing to something that is very good.
    On the pay parity, it is a tough issue, but I believe the 
best quality of life is keeping people alive and the generosity 
that you all have shown, your subcommittee has shown, in 
helping fund our equipment items through the equipment accounts 
have had a dramatic impact on keeping people alive and giving 
us a much greater combat capability.
    There is no free money anywhere, so making pay parity for 
the Federal Government, even though certainly employees would 
enjoy that, I think the inequities that it brings on between 
folks who are mobilized and Active component folks is not 
helpful. I would rather spend money that we could get for the 
continued equipment improvements that you have given us in the 
past, continuing to do those unfunded items that give us much 
greater combat capability. We have demonstrably improved our 
capabilities and are a much more effective force because of 
that, and I think that is where we ought to put the money, to 
give us the better equipment and properly equip our people so 
that they can stay alive and do that job.
    Senator Stevens. I have been called to the floor, but I do 
have one last question I would like to have your views on. We 
have been told that we have another amendment that is involved 
in our bills this year. We have been told that if the tempo of 
operations is such that people in the Guard and Reserve are 
being called up too often, one of the amendments says if they 
are called up for a period of time and serve more than 6 months 
they cannot be called up again for 1 year.
    What would that do to your operations if we agreed to an 
amendment like that?
    General Helmly. Sir, as you know, the partial mobilization 
law under which we are operating carries with it a legal limit 
of 2 years, and I believe I am correct that the language in 
that law specifies that 2 years is computed as consecutive, 24 
consecutive months. After the President declared partial 
mobilization in a national emergency on September 14, 2001, the 
Department of Defense issued guidance that limited us to a 12-
month limit and that was to be counted as not consecutive but 
cumulative. We are still operating under that, except that 
frequently it is 18 months.
    We have heard from Reserve component members in our force 
that they can stomach a deployment of about 12 to 14 months 
every 4 to 5 years. Thus, we have built a model that would 
routinely plan to call them to active duty for 6 to 9 months 
every 4 to 5 years, understanding it could be more frequently.
    It is my judgment if we went to 6 months out of 18, that 
period of time we call dwell time in the Army, between the 
mobilization or call to active duty, is in fact too short and 
too frequent. I believe that we need to make the dwell time for 
the Reserve component member a minimum of 3 years, and that is 
why we are using the 4-to 5-year model, with 6 to 9 months' 
active duty during that time every 4 to 5 years.
    Some people will wish to exceed that. I believe that our 
authorities, given increased flexibility, can accommodate that.
    Senator Stevens. Admiral Cotton.
    Admiral Cotton. I would agree with the General and add a 
couple of thoughts. We tend to try to make it clean and simple, 
one rule fits all. In this case it does not. We have HD/LD--
high demand, low density--capabilities and units that we seem 
to have an appetite for as we do phase four war. There also is 
an intensity factor as well as a definement of deployment. 
Deployment to Guantanamo Bay is far different than it is to the 
Sunni Triangle, as it is to the highlands of Afghanistan or to 
other installations around the world that we use to prosecute 
the global war on terror. So there is a fatigue factor for 
people going to different theaters.
    We like to use a 6- to 7-month deployment model, with 
training en route as well as a decompression time, to limit to 
about 1 year. Then, using the Secretary of Defense's (SECDEF's) 
planning factor of 1 year out of 6, or 6 months every 3 years 
or however you want to do this, best use the skill set, keeping 
in mind that certain HD/LD assets are being used inside that 
planning factor just like the general set.
    With that said, I would echo all the Generals that the 
response by our people is fantastic. Everywhere I go there are 
hands in the air for people to go for the first time as well as 
to go for the second and third time. Keeping in mind that some 
people cannot, we have other volunteers. So unit integrity is 
important, but I tell everyone that they are individually 
mobilizable, that they can train en route and fill the holes, 
the requirements we need.
    Thank you, sir.
    Senator Stevens. General McCarthy.
    General McCarthy. Sir, I would think that the provision 
that you talked about would be very destructive. One size does 
not fit all. My force is a different size and shape than Ron's 
and it needs a metric that fits the Marine Corps model, not 
something that is cast over everybody. So I think that 6 months 
and 1 year would be a bad and an adverse provision for the 
Marine Corps Reserve.
    Senator Stevens. Thank you very much.
    General Bradley.

                     AIR FORCE RESERVE RECRUITMENT

    General Bradley. Senator Stevens, sir, I would agree 
entirely with General McCarthy. The Air Force has a different 
model. We do as much as we can through volunteerism. In fact, 
we do a very large percentage of Air Force missions every day 
with volunteers.
    That being said, we have mobilized nearly 40 percent of the 
Air Force Reserve since September 11, 2001. We have had 
thousands of people who have been mobilized, demobilized, and 
remobilized, sometimes three mobilizations. It certainly is a 
little bit disruptive. But I would be very opposed to tieing 
the hands of our service in being able to get access to the 
people it needs.
    We are allowed, as senior leaders in the Air National Guard 
and Air Force Reserve, to work inside the service many times to 
use volunteers to fill those slots. So it is not someone who is 
disrupted badly or opposed to it. So we would be opposed to 
those strictures.
    Senator Stevens. Well, thank you all very much. When 
Senator Hollings and I came back from that trip that I talked 
about, we recommended to Senator Stennis that he recommend to 
the Department that we use Guard and Reserve forces selectively 
in Europe. At that time there were none there at all. That 
interjected into the draftee regular services the volunteers 
who were in the Guard and Reserve for a short period of time at 
that time.

                     ADDITIONAL COMMITTEE QUESTIONS

    But I do think that we have come a long way now with the 
total force, and you all make a terrific case for this. I have 
advocated that the Chief of the Guard and Reserve Bureau, and 
that it be that, have a place in the Joint Chiefs of Staff. 
That has never occurred, but I do think total force now calls 
for a permanent presence on the Joint Chiefs of Staff of a 
representative of all of these people who do fill in so often 
and so well into the total force. We are going to continue with 
that. I hope some day we will win.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

       Questions Submitted to Lieutenant General James R. Helmly
               Question Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful than what you currently have?
    Answer. The Army Reserve is making every effort to improve 
recruiting and retention by utilizing the current incentives authorized 
and by recommending possible changes in laws and policies that are 
outdated for the current Global War on Terror missions. Prior to the 
implementation of the new bonuses (Oct-Dec), the average monthly 
reenlistment production was 1,241 reenlistments. The following are 
working well:
  --The increase in the reenlistment bonus amount to $15,000; payable 
        in lump sum and in conjunction with the expanded eligible years 
        of service from 14 years to 16 years to qualify for a 
        reenlistment bonus.
  --The Selective Reenlistment Bonus (SRB) for Army Reserve, Active 
        Guard Reserve (AGR). The total number of reenlistments for AGR 
        Soldiers can be attributed to the SRB and expanding the 
        eligible years of service from 14 years to 16 years to qualify 
        for a reenlistment bonus. The number of Soldiers on their 
        initial AGR tours increased along with the number of indefinite 
        reenlistments.
    After the implementation of the bonuses (Jan-May), the average 
monthly production rose to 1,511 reenlistments per month. That equates 
to a 22 percent increase in reenlistments after the introduction of the 
new bonuses. For AGR Soldiers, in fiscal year 2003, we had a total of 
1,040 reenlistments, fiscal year 2004 1,527, and fiscal year 2005, as 
of June 30, a total of 1,515.
    The Officer Affiliation Bonus implemented, January 25, 2005, has 
not had the anticipated effect of attracting Active Component officers 
to the Army Reserve as troop program unit members. The law that defines 
this incentive prohibits officers who have service in the Selected 
Reserve previously from being eligible for the incentive. The removal 
of this restriction along with an increase in the bonus amount from 
$6,000 to $20,000 will assist in reducing the Army Reserve company 
grade shortage. Other improvements we believe will assist us in 
recruiting and retention include establishing a stabilization policy 
for active duty Soldiers who have deployed and subsequently opt to join 
the Selected Reserve, increasing the Non-Prior Service Enlistment Bonus 
cap to $40,000, increasing the eligible years of service for a 
reenlistment bonus to 20 years, raising the SRB for AGR cap to $30,000, 
the TPU reenlistment bonus cap to $45,000, the Officer Accession and 
Affiliation Bonus cap to $20,000, and increasing the Prior Service 
Enlistment Bonus cap to $25,000.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby

              FISCAL YEAR 2006 ARMY RESERVE TRANSFORMATION

    Question. What are the plans to transform the Army Reserve and why 
do you believe that during this time of war it is so important to 
radically change how the Army Reserve does business? Do you have the 
resources to accomplish this transformation, both equipment and 
personnel, and what can Congress do to assist?
    Answer. ARFORGEN, the Army Force Generation Model, is a centerpiece 
of Army transformation. It is a managed force readiness framework 
through which all units flow. The Army Reserve organizes into 
expeditionary force packages of skill-rich combat support and combat 
service support units that complement other Army and Joint capabilities 
in support of Combatant Commanders. Unit manning strategies bring 
enhanced stability, facilitating training for Army Reserve Soldiers and 
units and growth and development of Army Reserve leaders. Advancing 
through ``Reset/Train'', ``Ready'', and ``Available'' force pools, 
these modular packages progress through individual training and 
increasingly complex collective training and achieve readiness levels 
heretofore unattainable. Additionally, this cyclic pattern eases one of 
the biggest concerns of our Soldiers, their families, and their 
employers--a lack of predictability, a major factor in recruiting and 
retention.
    In order to fully support ARFORGEN, we are restructuring and 
modularizing our units in order to maximize operational capabilities. 
One element of that initiative is the establishment of a Trainees, 
Transients, Holdees, and Students (TTHS) account, similar to that used 
by the Active Army, which will allow commanders to focus on their 
primary mission--training Army Reserve Soldiers and units and growing 
and developing Army Reserve leaders. Active and intensive management of 
the TTHS ensures that Soldiers return to their units as quickly as 
possible. Another element is the divesture of unnecessary command and 
control (C\2\) structure. Specifically, reducing non-deployable 
overhead by inactivating 10 Regional Readiness Commands (RRC) creates 
an opportunity to establish four Regional Readiness Sustainment 
Commands (RRSC) and new modular operational and deployable C\2\ 
structures. While the manning, training, equipping, and sustaining 
strategies continue to be developed, Army Reserve transformation is 
generally resourced through investment and re-investment of available 
and programmed resources.
    These changes are all taking place as the Department of Defense 
Base Realignment and Closure (BRAC) recommendations are being studied 
by the BRAC Commission. BRAC is a good news story for the Army Reserve, 
and, as an active participant in the process, the expectation is that 
the outcome will be very beneficial. Strategically placed, new and 
efficient Armed Forces Reserve Centers not only create efficiencies, 
but also encourage ``Joint-ness'' and honor our Soldiers and civilian 
employees by providing facilities commensurate with the quality of 
their service.
    Finally, efforts are underway to reengineer the process by which 
Soldiers are mobilized and brought to active duty. They capitalize on 
all the initiatives mentioned above to move from an ``alert-train-
deploy'' construct to a ``train-alert-deploy'' model. Central to those 
efforts are investments and reinvestments in all areas of Soldier 
readiness (medical, dental, training, and education) before 
mobilization to ensure that required capabilities are available to the 
Combatant Commanders as quickly and efficiently as possible.
                                 ______
                                 
           Questions Submitted to Vice Admiral John G. Cotton
               Question Submitted by Senator Ted Stevens

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful than what you currently have?
    Answer. The Fiscal Year 2005 National Defense Authorization Act 
made significant changes to our existing Reserve Component bonus 
structure, in many cases tripling the amount of bonuses as well as 
permitting lump sum payments. These changes have significantly enhanced 
our ability to compete for talent in a very challenging recruiting 
environment, as well as in our ability to retain quality Sailors.
    The Department of Defense has submitted two legislative proposals 
for fiscal year 2006 that will provide additional authorities to 
further enhance our Reserve Component incentivization ability.
    The first proposal would modify 37 U.S.C. 316 regarding payment of 
Foreign Language Proficiency Pay (FLPP) to permit payment of FLPP 
either in an annual lump sum or in installments.
    This proposal would also permit both Active and Reserve Component 
members to receive the maximum of $12,000 in one year period, further 
enabling our ability to acquire and retain these GWOT-critical skill 
sets. This would increase the Reserve Component benefit to match the 
Active Component benefit.
    The second proposal to 37 U.S.C. 308c would revise the existing 
Selected Reserve enlistment and affiliation bonuses to provide the 
Reserve components with a more flexible and enhanced incentive for 
members separating from active duty to affiliate with a unit or in a 
position in the Selected Reserve facing a critical shortage.
    Section 618 of the 2005 National Defense Authorization Act 
increased the Selected Reserve enlistment bonus to $10,000, which will 
help the Reserve components meet their non-prior service recruiting 
objectives. This new proposal would extend the enhanced enlistment 
bonus to members who are separating from active duty and agree to 
affiliate with the Selected Reserve. The current prior service 
enlistment bonus is only available to individuals who have completed 
their military service obligation and been discharged. The current 
affiliation bonus for members with a remaining military service 
obligation is inadequate; it only pays members $50 for each month of 
remaining service obligation. This section would increase the maximum 
bonus amount paid to members with a remaining service obligation who 
agree to continue their military career by joining the Selected 
Reserve. Because of their military training and experience, the 
military departments place great emphasis on retaining these members in 
the Selected Reserve after they separate from active duty. It is more 
cost-effective and provides a more ready force than only recruiting 
individuals who never have served in the armed forces. Having the 
authority to provide a richer incentive to members who agree to serve 
in the Selected Reserve following release from active duty is 
increasingly more important in light of the recruiting challenges 
experienced by some Reserve components in fiscal year 2005.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

    Question. Admiral Cotton, I have been informed that the Navy's 
Distributed Common Ground System has arrived at Naval Station 
Pascagoula. The potential Homeland Defense capabilities it can provide 
are impressive and we are glad to have it at the Naval Station. Admiral 
Clark stated that the Navy plays a critical role in supporting the 
Coast Guard with the Maritime Domain Awareness program. Your statement 
indicates that the Navy Reserve plans to fully support this initiative.
    How will the Distributed Common Ground System support the Maritime 
Domain Awareness requirements?
    Answer. The system associated with Pascagoula is the Littoral 
Surveillance System (LSS), which is a Navy System under the resource 
sponsorship of OPNAV N71 (Net-Centric Warfare Division). LSS is a 
legacy precursor of the Distributed Common Ground System (DCGS), which 
is designed to support deliberate strike and time sensitive targeting 
missions. There is no Navy requirement to utilize LSS or DCGS in 
support the Maritime Domain Awareness (MDA) mission.
    The Navy plays an integrated role in supporting the Coast Guard in 
MDA. Ongoing efforts are focused in the areas of data fusion and a blue 
water broad area surveillance capability. A congressionally-directed 
Coast Guard demonstration of LSS will be conducted at the Joint Harbor 
Operations Center (JHOC) in Pascagoula.
                                 ______
                                 
      Questions Submitted to Lieutenant General Dennis M. McCarthy
               Question Submitted by Senator Ted Stevens

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful then what you currently have?
    Answer. Incentives are an integral tool used in the proper manning 
of our Reserve Force. Currently, the recruiting and retention 
incentives working well for the Marine Corps include the enlistment and 
reenlistment bonus (Title 37, sec. 308b/c), the affiliation bonus 
(Title 37, sec. 308e), and the Montgomery GI Bill-SR Kicker. The 
authorized increases in the bonus amount for these bonuses in fiscal 
year 2005 will assist us in keeping our best and brightest Marines. The 
Marine Corps Reserve is in the process of implementing the Conversion 
Bonus (Title 37, sec. 326) in order to facilitate changes for Reserve 
Marines impacted by the recent changes approved by the 2004 Force 
Structure Review Group.
    The funding increases and flexibility provided in the Fiscal Year 
2005 National Defense Authorization Act are an invaluable asset to our 
continued recruitment and retention mission. The approved legislation 
allowing payment of an affiliation bonus for officers to serve in the 
Selected Marine Corps Reserve will greatly assist in increasing officer 
participation and meeting our current junior officer requirements. The 
ability to pay lump sum payments for enlistments and reenlistments is 
expected to increase the present value of the incentive and continue to 
positively influence highly qualified personnel. The Critical Skills 
Retention Bonus under consideration for fiscal year 2006 will provide 
us greater flexibility to meet the emerging requirements of the Global 
War on Terrorism and will allow us to better target bonuses where they 
are needed most.
    The Marine Corps takes pride in prudent stewardship of the 
resources allocated to the Selective Reserve Incentive Program. Reserve 
Affairs has recently conducted a thorough review of its incentive 
programs and is in the process of improving the implementation of these 
programs. Many of the programs are in the initial stages of change and 
will be constantly monitored to improve their effectiveness.
                                 ______
                                 
       Questions Submitted to Lieutenant General John A. Bradley
               Question Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful then what you currently have?
    Answer. Enlistment bonuses continue to work well, however, we are 
at a competitive disadvantage as other Services and Components have 
opted to fund these programs due to their current recruiting and 
retention problems.
    Recruits routinely consider all the different Services and are 
aware of the bonus amounts available. When job counseling, applicants 
routinely ask, ``What career fields are paying bonuses and how much?'' 
Additional benefits of high interest are health benefits that bridge 
periods of non-active participation as well as expanded education 
benefits.
    The Student Loan Repayment Program (SLRP) is an often-requested 
incentive. The Air National Guard offers enlistees the SLRP as do most 
other Services in the Department of Defense. A recent study by the 
National Center for Education Statistics shows that about 50 percent of 
recent college graduates have student loans with an average debt of 
about $10,000. In fiscal year 2004 almost 29 percent of all Air Force 
Reserve Component accession had some college and 17 percent of all 
enlisted accessions had some college.
    Basic Allowance for Housing (BAH) rate II is a barrier to 
volunteerism. Eliminating BAH II will create parity with Active Duty 
members performing the same types of duty.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                           FUTURE TOTAL FORCE

    Question. General Bradley, with the intense pace of military 
operations around the world, all the Services must face tough decisions 
when it comes to providing enough experienced personnel to serve back 
home as instructors. I have been informed that the Air Force Reserve 
augments the active Air Force with experienced instructor pilots; 
ensuring flight training units like the one at Columbus Air Force Base 
have the personnel they need to train future forces. Does this budget 
request provide the necessary resources for the reserves to perform 
this additional mission?
    Answer. The Air Force Reserve submitted a budget for fiscal year 
2006 that attempted to provide adequate resources for all competing 
requirements. An aggregate of all unit-submitted requirements amounts 
to a significantly larger set of needs than the available resources. In 
the specific instance of the training being accomplished at Columbus 
AFB, full-time Active Guard/Reserve personnel provide much of the 
instructor workload. We also have a smaller population of Traditional 
Reserve personnel who also provide instruction. Both sets of personnel 
are resourced within the Reserve Personnel, Air Force and Air Force 
Reserve Operations and Management appropriations. In the broader 
context of providing both training and trained personnel in support of 
the Active Air Force, the Air Force Reserve also has three unit-
equipped, Flight Training Units (FTUs), has Individual Mobilization 
Augmentees (IMAs) assigned at most Air Force training venues, and 
provides a host of training resources at the many installations on 
which we are co-located or associated with active duty units. In all of 
these instances, there is recognition that additional resources would 
improve the quantity and quality of the support the Reserve would be 
able to provide. In terms of buying power, the re-allocation of 
resources from traditional Reserve training activities to supporting 
the Global War On Terrorism has significantly diminished school and 
qualification/certification training opportunities throughout the Air 
Force Reserve.

                                 C-130E

    Question. General Bradley, I am aware of the proposal to terminate 
the C-130J program, and the recent grounding of part of the C-130E 
fleet. I understand that the C-130 is being heavily used in on-going 
operations, and that its use in Iraq has reduced the number of truck 
convoys, and therefore reduced the exposure of our ground troops to 
threats like improvised explosive devices. If the C-130J program is 
terminated, what will be the impact on the reserve forces?
    Answer. If the C-130J program is terminated, the short-term effect 
(five years) to Air Force Reserve Command (AFRC) is minimal, and the 
long-term impact (ten plus years) would be moderate. However, the 
indirect impact is yet to be determined as the program termination may 
result in the transfer of newer AFRC C-130H-models to active duty units 
to fill the C-130J gap.
    No impacts to 815 AS, Keesler, MS. Unit will receive full 
complement of 8 x C-130J aircraft by end fiscal year 2007 under the 
pre-termination procurement plan.
    Willow Grove will not receive 8 x C-130J in fiscal year 2014 and 
fiscal year 2015 as planned.
    Current C-130E's at Willow Grove have no restrictions on the Center 
Wing Box (First restricted plane estimated fiscal year 2017).
    Minneapolis-St Paul will not receive 8 x C-130J in fiscal year 2014 
and fiscal year 2015 as previously planned.
    C-130E aircraft were replaced with newer H models, therefore, no 
impact on mission.
    Eight recently assigned C-130Hs to be modernized under the Aircraft 
Modernization Program in fiscal year 2010 and fiscal year 2011.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Thank you all for your service. We are 
going to reconvene this subcommittee to hear testimony from 
Secretary Rumsfeld and General Myers on Wednesday, April 27. 
Thank you very much.
    [Whereupon, at 11:42 a.m., Wednesday, April 20, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 27.]

</pre></body></html>
